<html>
<title> - DRIVING AUTOMOTIVE INNOVATION AND FEDERAL POLICIES</title>
<body><pre>[Senate Hearing 115-652]
[From the U.S. Government Publishing Office]


                                                    S. Hrg. 115-652

                     DRIVING AUTOMOTIVE INNOVATION 
                          AND FEDERAL POLICIES

=======================================================================

                             FIELD HEARING

                             BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 24, 2018

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                            


                Available online: http://www.govinfo.gov
       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-298 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e89887a88b9d9b9c808d8498c68b8785c6">[email&#160;protected]</a>              
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER WICKER, Mississippi            BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  TOM UDALL, New Mexico
JAMES INHOFE, Oklahoma               GARY PETERS, Michigan
MIKE LEE, Utah                       TAMMY BALDWIN, Wisconsin
RON JOHNSON, Wisconsin               TAMMY DUCKWORTH, Illinois
SHELLEY MOORE CAPITO, West Virginia  MAGGIE HASSAN, New Hampshire
CORY GARDNER, Colorado               CATHERINE CORTEZ MASTO, Nevada
TODD YOUNG, Indiana                  JON TESTER, Montana
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 24, 2018.................................     1
Statement of Senator Thune.......................................     1
    Letter dated January 24, 2016 from Lars Reger, Senior Vice 
      President and Chief Technology Officer--Automotive, NXP 
      Semiconductors USA, Inc....................................    59
    Letter dated January 24, 2018 to Hon. John Thune and Hon. 
      Bill Nelson from Honda North America, Inc..................    77
Statement of Senator Nelson......................................     3
    Prepared statement...........................................     4
    Prepared statement from Catherine Chase, President, Advocates 
      for Highway and Auto Safety................................    48
Statement of Senator Wicker......................................    28
Statement of Senator Peters......................................    30
Statement of Senator Heller......................................    32
Statement of Senator Hassan......................................    34
Statement of Senator Inhofe......................................    36
Statement of Senator Lee.........................................    37
Statement of Senator Capito......................................    40
Statement of Senator Young.......................................    42
Statement of Senator Blumenthal..................................    43

                               Witnesses

Randy K. Avent, Ph.D., President, Florida Polytechnic University.     5
    Prepared statement...........................................     6
Tim Kentley-Klay, Co-Founder and CEO, Zoox.......................    10
    Prepared statement...........................................    11
Michael Mansuetti, President, Robert Bosch LLC...................    13
    Prepared statement...........................................    14
Luke Schneider, President, Audi Mobility U.S.....................    21
    Prepared statement...........................................    22

                                Appendix

Letter dated February 7, 2018 to Hon. John Thune and Hon. Bill 
  Nelson from Brett Roubinek, President and Chief Executive 
  Officer, Transportation Research Center Inc....................    79
Ned Finkle, Vice President, External Relations, NVIDIA, prepared 
  statement......................................................    80
Response to written questions submitted by Hon. Maggie Hassan to:
    Randy K. Avent, Ph.D.........................................    81
    Tim Kentley-Klay.............................................    82
    Michael Mansuetti............................................    82
    Luke Schneider...............................................    83

 
                     DRIVING AUTOMOTIVE INNOVATION 
                          AND FEDERAL POLICIES

                              ----------                              


                      WEDNESDAY, JANUARY 24, 2018

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., 
Walter E. Washington Convention Center, 801 Mount Vernon Place, 
N.W., West Salon Room, Washington, D.C., Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Wicker, Inhofe, Lee, 
Heller, Young, Capito, Nelson, Blumenthal, Peters, and Hassan.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Good morning. One of the privileges of 
leading a committee with jurisdiction as broad as that of the 
Commerce Committee is that sometimes our work takes us off 
Capitol Hill and into the real world. In recent years, we have 
held field hearings in Alaska, New Hampshire, Nebraska, 
Florida, and, yes, South Dakota. While we have not traveled 
quite as far today, what we are here to discuss is no less 
important for all Americans, and it is great to be in a venue 
that will soon welcome scores of people excited about the 
future of the automobile.
    The automobile industry is an essential part of America's 
economy, generating nearly $1 trillion of economic activity 
each year and supporting 7 million jobs across all 50 states. 
And this industry is not standing still. It is hard to believe, 
but the auto industry spends more on research and development 
of new technologies than the software and aerospace industries. 
Today's high-tech automobile has some 30,000 parts drawn from a 
global supply chain.
    New technologies, such as automated vehicles, and new 
business models offering mobility as a service are poised to 
enable substantial growth. Key benefits include improved 
safety, new jobs, new transportation opportunities, and reduced 
congestion. Automated vehicles, or AVs, offer perhaps the 
largest potential gains in all of these areas.
    More than 37,000 people lost their lives on U.S. roads in 
2016, a troubling and unacceptable increase from the year 
before. According to the National Highway Traffic Safety 
Administration, or NHTSA, as many as 94 percent of those 
crashes were the result of human error. AVs, which cannot fall 
asleep, get distracted, or become impaired, could potentially 
save many thousands of lives every year.
    AVs may also spur significant new economic activity. By one 
estimate, the wide adoption of AVs will spur a new passenger 
economy worth $7 trillion over the next few decades, and AVs 
will provide access to mobility to many Americans, such as the 
elderly and those with disabilities, some of whom may be unable 
to drive today.
    If our country is to realize these benefits, policymakers 
must take a careful approach to these new technologies. We must 
allow innovation to thrive while also ensuring the technology 
is safe and reliable. We must also refrain from favoring one 
technology, business model, or type of company over another, so 
as to avoid locking in technology before innovation and market 
choices can take place.
    The bipartisan AV START Act, which Senator Peters and I 
introduced, accomplishes these goals by building on the 
existing regulatory framework to prioritize safety through 
increased reporting and oversight, thus promoting public safety 
and building public confidence and trust.
    At the same time, the AV START Act removes unintentional 
barriers to innovation in existing law and promotes a level 
playing field so that neither traditional automakers, tech 
giants, nor new startups are unfairly advantaged or 
disadvantaged.
    If U.S. regulators are not able to foster safe testing and 
deployment of AV technology through modernizations like those 
in AV START, the rest of the world will not sit by. America 
currently leads the way in auto innovation, but many other 
countries, particularly China, are catching up. We all want 
America to remain competitive and see the benefits of new jobs 
and new economic growth.
    The AV START Act is just that, a start. As AVs become more 
widespread, there will be tough policy and societal questions 
that we must all work together to answer. AV START contains 
formal processes to start answering some of these questions, 
such as those relating to data and how law enforcement will 
interact with AVs. This Committee will remain active and will 
build upon the strong foundation established by the AV START 
Act.
    I want to thank Senator Peters, Ranking Member Nelson, and 
all the Members of the Committee for their great work on this 
landmark piece of legislation, and I look forward to seeing it 
pass the full Senate soon.
    While AV technology is approaching quickly, the auto 
industry is innovating in other areas with immediate benefits. 
Advanced driver assistance systems, such as lanekeeping assist 
and automatic emergency braking are available in an increasing 
number of vehicles on the road today and are already saving 
lives. And new developments and fuel technologies, such as 
hybrid and all-electric vehicles and increased use of biofuels, 
such as ethanol, boost fuel efficiency and reduce pollution.
    To explore these issues, we have a great panel of witnesses 
today representing organizations that are leading the way in 
many areas of automotive innovation. Mr. Luke Schneider, who is 
President of Audi Mobility U.S.; Mr. Mike Mansuetti, President 
of Robert Bosch North America; Mr. Tim Kentley-Klay, the CEO 
and Co-Founder of Zoox Inc.; and Dr. Randy Avent, who is 
President of Florida Polytechnic University. I want to thank 
all of you for being with us today, and I look forward to 
hearing your testimony.
    And I will turn now to Senator Nelson for his opening 
remarks.
    Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman. Mr. Chairman, I 
was almost one of those traffic statistics this morning. Coming 
down one of the north-south streets, going the speed limit, 
suddenly, a car in the right lane to my front suddenly does a 
U-turn in the entire street right in front of us, to which we 
commented, if we were an automated vehicle and he was an 
automated vehicle, that would not have happened. So there was a 
demonstration for me early this morning.
    I, like the Chairman, am very hopeful about the prospect of 
self-driving cars. I appreciate the efforts of Senator Peters, 
who has made this a signature issue. It is appropriate for him, 
because of being from Michigan, and he has been dogged in his 
pursuit of this legislation.
    And I thank you, Mr. Chairman, that you have arranged to be 
down here at the auto show. It seems to have gotten a good bit 
of interest. I wonder how many are here for the hearing and how 
many are here really to go to the auto show. But your planning 
was enormously successful.
    And I am very excited about my state of Florida's role in 
the development of autonomous technology. I am pleased that a 
part of our panel is Dr. Avent, who is the President of Florida 
Polytechnic University. The University is working in 
partnership with the Florida Department of Transportation to 
develop and operate a $42 million, 475-acre autonomous vehicle 
testing facility at their campus.
    And I want to congratulate you for this achievement, Dr. 
Avent, and I am confident that your world-class facility will, 
in fact, play a vital role in the ongoing research that we are 
going to do.
    This technology is advancing rapidly. Just two weeks ago, 
at the electronics show in Las Vegas, General Motors announced 
a plan to put fully autonomous vehicles without driver controls 
on public roads as early as 2019. Now whether or not that 
occurs depends on us and our legislation.
    And General Motors is not alone. Countless other 
automakers, technology companies, and suppliers, are rolling 
out innovations that have the potential to completely transform 
our sense of mobility and, as the Chairman mentioned, to cut 
down, and as I experienced, on a lot of traffic accidents.
    In addition, these vehicles may bring significant 
environmental benefits through reduced emissions; increased 
efficiency, productivity; the improved transportation 
opportunities for underserved communities, seniors and people 
with disabilities. While these benefits of self-driving 
vehicles are numerous, it is crucial that the Congress and the 
Federal Government exercise responsible oversight to ensure the 
safe development and deployment of these technologies.
    So the AV START Act, which was passed unanimously by this 
Committee in October, is an important step. The bill enhances 
safety by requiring autonomous vehicle manufacturers to submit 
safety evaluation reports to the Department of Transportation, 
and that is to demonstrate how they will address system safety, 
crashworthiness, and cybersecurity, among others. Additionally, 
this act reinforces the traditional existing roles played by 
Federal, State, and local governments pertaining to vehicle 
registration.
    So I look forward to continuing to work with you and 
Senator Peters as this legislation advances.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Thank you, Mr. Chairman, for holding this hearing.
    I am very hopeful about the prospect of self-driving cars, and I 
appreciate the efforts of the chairman to arrange this event at the 
Washington Auto Show.
    I am particularly excited about Florida's role in the development 
of autonomous technology and I am pleased to have the President of 
Florida Polytechnic University, Dr. Randy Avent, testify today.
    The university is working in partnership with the Florida 
Department of Transportation to develop and operate a 42 million 
dollar, 475-acre autonomous vehicle testing facility in Polk County 
known as Suntrax. I would like to extend my congratulations to Florida 
Polytechnic for this achievement. I am confident this world-class 
facility will play a vital role in the ongoing research to improve 
autonomous technology and ultimately provide for the safe and efficient 
deployment of self-driving cars.
    Autonomous technology is advancing rapidly. Just two weeks ago, at 
the Consumer Electronics Show in Las Vegas, Nevada, General Motors 
announced a plan to put fully autonomous vehicles--without driver 
controls--on public roads as early as 2019.
    General Motors is not alone. Countless other automakers, technology 
companies, and suppliers are rolling out innovations that have the 
potential to completely transform our sense of mobility and, most 
importantly, save lives.
    In addition, autonomous vehicles may bring significant 
environmental benefits through reduced emissions, increased efficiency 
and productivity, and improved transportation opportunities for 
underserved communities, seniors, and people with disabilities.
    While the potential benefits of self-driving vehicles are numerous, 
it is crucial that Congress and the Federal Government exercise 
responsible oversight to ensure the safe development and deployment of 
these emerging technologies.
    The AV START Act, which was passed unanimously by this committee 
last October, is an important step in the right direction.
    The bill enhances safety by requiring autonomous vehicle 
manufacturers to submit safety evaluation reports to the Department of 
Transportation demonstrating how they address system safety, 
crashworthiness, and cybersecurity, among others.
    Additionally, the AV START Act reinforces the traditional, existing 
roles played by the federal, state, and local governments pertaining to 
vehicle regulation.
    I fully intend to continue working with Chairman Thune and Senator 
Peters to get this piece of legislation to the president's desk.
    Thank you, Mr. Chairman, and I look forward to hearing from our 
witnesses.

    The Chairman. Thank you, Senator Nelson.
    And again, we want to welcome our panel. Thank you for 
being here. We will start on my left and your right with Dr. 
Randy Avent, who is President of Florida Polytechnic University 
in Lakeland, Florida; Mr. Tim Kentley-Klay, who is the CEO and 
Co-Founder of Zoox, Inc., from Menlo Park, California; Mr. Mike 
Mansuetti--I said that wrong the first time; my apologies, 
Mike--with Robert Bosch North America, Robert Bosch LLC in 
Northfield, Michigan; and Mr. Luke Schneider, who is President 
of Audi Mobility, located in the U.S. here in Austin, Texas.
    So thank you all for being here. We look forward to hearing 
from you. If you confine your oral remarks as closely as 
possible to 5 minutes, we will make sure that all of your 
testimony gets included in the written record, and it will 
maximize the opportunity that we have for members to ask 
questions.
    So, Dr. Avent, please proceed. Welcome.

        STATEMENT OF RANDY K. AVENT, Ph.D., PRESIDENT, 
                 FLORIDA POLYTECHNIC UNIVERSITY

    Dr. Avent. Mr. Chairman, Ranking Member Senator Nelson, 
Members of the Committee, thank you for the opportunity to 
address you today on this very important topic. As many of you 
know, the vision of driverless cars has been around well over 
50 years, but very little progress was made in that area until 
2004 when DARPA created a prize competition called the DARPA 
Grand Challenge.
    Since then, there has been exponential growth in the 
underlying AV technology that mirrors the development 
trajectories and other disruptive markets, like computing, 
networking, and DNA sequencing. Today, I would like to briefly 
touch on three dimensions of connected and autonomous vehicles: 
the market impact, the technical and regulatory challenges, and 
the potential role of the Federal Government.
    As you all pointed out, numerous papers abound outlining 
the promises of autonomous vehicles. If developed and 
implemented correctly, the primary advantage of autonomous 
vehicles centers on significantly lowering driver-related 
deaths. As you pointed out, Senator Thune, last year alone, 
there were nearly 40,000 fatalities in the U.S. at a cost of 
over $410 billion, and more than 90 percent of those were due 
to human error.
    But there are many secondary advantages that are also 
significantly important. For instance, autonomous vehicles can 
improve access for the elderly, children, and poor, and can 
make public transportation more effective by solving the last-
mile problem. It can significantly increase the utilization of 
automobiles, which is less than 5 percent now. And with higher 
utilization of fewer cars, the capacity of our transportation 
infrastructure will naturally rise.
    Beyond the transportation sector impact, core technologies 
underlying autonomy will impact other markets, such as 
agriculture, logistics, national defense, and manufacturing. In 
fact, it would be hard to find any technology with a more 
disruptive impact on both the U.S. and global economies then 
connected and autonomous vehicles.
    I often say piston-powered vehicles driven by people and 
built by traditional car manufacturers may soon be replaced by 
interconnected computers on wheels scheduled and controlled by 
autonomous algorithms and developed by IT companies. U.S. car 
manufacturers will need to look more like IT companies, as they 
already are. Insurance markets, law enforcement, hotels, real 
estate, lawyers, auto repair, and health care will all be 
affected, just to name a few.
    But while the promise of AV technology is noteworthy, there 
is still substantial barriers to its widespread adoption. For 
one, the AV technology core relies on what I call the sensor 
and signal processing chain, and there is still significant 
work that needs to be done on the edge cases to improve 
performance. A strong regulatory framework is paramount to 
safety and consumer acceptance, but an overregulated market is 
likely to stifle innovation and give our global competitors an 
advantage.
    To this end, we need a science-based, data-driven approach 
to create policies and legislation that is modeled after 
successful verification or certification approaches in other 
industries. This framework must integrate the full spectrum of 
testing approaches, ranging from digital simulation and 
hardware emulation, to closed-circuit and public open-road 
testing in urban areas.
    Last, there will be a rapid shift in transportation 
technologies toward computer science, electrical engineering, 
and analytics, as the sensor and signal-processing chain 
matures, and vehicles interact with the civil infrastructure. 
Both the transportation industry and their regulatory partners 
will need to prepare for this shift.
    States such as Florida have taken a leadership role in 
enabling this market. The Federal Government can have a very 
constructive role in enabling this transformative technology 
through research funding; through safety consortiums that 
investigate and provide factual data around AV accidents, much 
like the NTSB role in aviation accidents; and through creating 
quasi-governmental organizations, much like the Department of 
Energy's and the Department of Defense's federally funded 
research and development centers and university-affiliated 
research centers that conduct applied research and provide 
independent, unbiased technology expertise to the government.
    Finally, Florida Poly is working with its partners to 
research solutions to these challenges. This includes a deep 
partnership with the Florida Turnpike Enterprises' world-class 
AV test track called SunTrax, and a partnership with the 
Orlando Smart City initiative that provides open-road testing 
in an urban setting. These two test complexes combined with 
Florida Poly's Advanced Mobility Institute focus on addressing 
many of these vexing challenges.
    Thank you for your time today.
    [The prepared statement of Dr. Avent follows:]

        Prepared Statement of Randy K. Avent, Ph.D., President, 
                     Florida Polytechnic University
Introduction
    The Law of Accelerating Returns describes how technology is created 
and adopted. It states that technology is not created incrementally in 
a linear fashion; instead, it is relatively stable and changes little 
until there is an inflection point, after which it grows geometrically. 
The most prominent examples of the Law of Accelerating Returns are 
computing (e.g., Moore's Law), communications (e.g., Gilder's Law) and 
DNA sequencing (e.g., $1000 genome). The Law of Accelerating Returns 
can also be used to describe the development of Connected and 
Autonomous Vehicles (CAV).
    The concept of driverless vehicles has been around for over 50 
years but little progress was made until the Defense Advanced Projects 
Agency (DARPA) received government approval for a cash-prize 
competition called the DARPA Grand Challenge. It's hard to argue that 
the DARPA Grand Challenge, and its subsequent Urban Challenge, were not 
inflection points for Connected and Autonomous Vehicles. Since these 
events, the pace of technology developments in this area has increased 
substantially leading to a significant disruption in many mobility-
related markets. It is very likely that cars of the future will not be 
piston-powered vehicles driven by people; rather, they're more likely 
to be interconnected computers on wheels scheduled and controlled by 
autonomous algorithms and developed by IT companies. With a potential 
market of over $87B within 15 years, manufacturers are racing to grab 
their share of the market.
Benefits
    Autonomous vehicle technology has the promise of solving many of 
today's transportation related problems. One of the most important 
benefits of CAV is its promise to significantly lower driving related 
deaths. Last year alone, there were over 40,000 fatalities in the U.S. 
at a cost of over $410B--and more than 90 percent of those fatalities 
were due to human error. With the potential for human error removed, 
self-driving cars will reduce instances of accidents caused by driver 
error, drunk driving or distracted drivers.
    Autonomous Vehicles can also improve access for the elderly, 
children and poor and can make public transportation more effective by 
solving the ``last mile'' problem. Solving this last mile problem 
reduces or eliminates the difficulty of getting to and from light rail 
and other public transit modalities, leading to increased utilization 
of public transit systems and better mobility for large segments of the 
U.S. population.
    Commuters may also save up to an hour every day. This savings of 
time will have many spin-off benefits from improved well-being to 
boosting the economy. According to the 2015 Urban Mobility Scorecard, 
each year, Americans living in urban areas spend almost 7 billion hours 
in traffic, waste 3.1 billion gallons of fuel and lose around $160 
billion due to traffic congestion. With CAV vehicles able to access up-
to-the-minute data to help monitor traffic, as well as digital maps and 
other tools, they can determine the fastest, most efficient routes 
possible. Drive times between locations will be reduced as a result. 
All of this will result in less traffic, less congestion and less time 
and fuel waste. With the ability to optimize fuel consumption, new-age 
vehicles are also expected to reduce vehicle emissions by 60 percent.
    Highway congestion can also be reduced with the implementation of 
platooning since high-tech sensors can react dramatically faster than 
humans, allowing the distance between vehicles to be drastically 
reduced. Therefore, vehicles will operate at higher speeds and require 
much less space between vehicles, leading to greater traffic 
throughputs. This will result in less traffic, improved efficiency in 
our highway systems and will reduce the need for future capital 
investments in our transportation infrastructure. Parking lots will 
also be affected since it is estimated that driverless cars can be 
parked with 15 percent less space.
Disruption in Markets
    Predictions are that many markets will be affected as driverless 
cars become more numerous in societies around the globe.
    The disruption has already started; autonomous cars will run the 
roads sooner than we expect. Joel Barbier points to numerous industries 
that are expected to change as a result. He states that ``Business 
leaders in all industries can no longer take a ``wait and see'' 
approach. Companies must start being hyperaware by monitoring changes 
in their environment (which extends beyond what their competitors are 
doing); they must start making informed decisions and execute those 
decisions quickly to respond to the threat of autonomous vehicles. 
Further, company and government leaders must immediately address the 
impact on jobs and get serious about retraining efforts.''
    Some of the companies he identifies are obvious, such as auto 
manufacturing and auto repair. Others are less obvious. For instance, 
parking, law enforcement, insurance markets, real estate, hotels, media 
consumption, auto parts, lawyers and health care are just a few that 
will be impacted. And those are just some of the ones experts can think 
of. As with most disruptions, the biggest opportunities are ones that 
haven't yet been discovered.
Challenges
    There are significant challenges ahead that need to be solved. Four 
major categories of challenges include (1) technological, (2) 
regulatory, (3) skills shift and (4) liability.
    Automated Driver Assist Systems in many new vehicles have 
progressed, but fall short of enabling the sensor systems to guide a 
vehicle without human input. In addition, sensor development, 
improvements in data integration, data fusion and artificial 
intelligence are not yet robust enough to provide the safety of fully 
autonomous vehicles.
    Decisions are still being debated regarding the regulatory 
environment around autonomous vehicles. Having the Federal Government 
responsible for vehicle safety, as is currently the case with existing 
vehicles, seems most workable. If each state is allowed to set its own 
safety standards, the resulting milieu will drastically complicate the 
testing and certification of driverless vehicles. Either way, 
regulatory policies for product testing and certification will need to 
be data-driven and science-based to avoid overburdening the industry 
with regulations that stifle innovation. Chip manufacturers, software 
industry and defense are examples where this has been done well.
    The move to autonomous vehicles will also cause a shift in the 
predominant skills necessary and the types of workers needed in the 
transportation industry and in their regulators. Currently, both fields 
are dominated by civil and mechanical engineers but will need to 
rapidly increase the percentage of computer science and electrical 
engineering professionals in the field.
    The insurance industry is already beginning to struggle with the 
impact driverless vehicles will have on their industry--as are lawyers 
and Original Equipment Manufacturers (OEMs) as they wrestle with 
liability issues. Additionally, the number of traffic citations is 
expected to go down thereby reducing the amount of revenue available to 
those entities which currently benefit from driver-based vehicles.
CAV Technology Overview
    The fundamental technology core in autonomy rest on a ``sensor and 
signal processing chain'' which roughly includes sensing, signal 
processing, networking, data fusion and artificial intelligence.
    In this chain, sensors are responsible for perceiving an accurate 
description of the environment. Optical, microwave (radar) and lidar 
sensing each have advantages and disadvantages, and a robust sensing 
environment must use a combination of sensing modalities to best 
capture the environment. Signal processing provides the analysis, 
synthesis and modification of signals and is primarily responsible for 
separating the sensor signal from the environmental noise.
    Networking allows both for coordination between vehicles, but it 
also provides a conduit for fusing disparate information to provide an 
improved model of the environment. Artificial Intelligence is the 
primary engine that takes this information and turns it into an action 
within the required response time.
    This ``signal processing chain'' is used to provide different 
levels of decisions leading to autonomy. Currently, there are five 
levels of autonomy recognized.

        Level 0: (now)--no automation and the driver is in complete 
        control

        Level 1: (now)--function-specific automation where the driver 
        can easily regain control from the specific function

        Level 2: (2013+)--combined function automation where driver is 
        temporarily relieved of those driving functions; barely here 
        now

        Level 3: (2020+)--limited self-driving automation where the 
        driver must be available to take over controls

        Level 4: (2025+)--full self-driving automation where the driver 
        is not expected to take control at any time
Role of Verification
    There are many flavors of product testing, e.g., certification, 
validation and verification, but all are designed to ensure the product 
meets specifications, fulfills its intended purpose and is safe to use. 
Most often, this process is performed by a third party that is unbiased 
and technically strong and involves repeated testing of a product to 
determine its selectivity, accuracy, repeatability, reproducibility and 
suitability. For CAV, testing should be done on pre-defined test 
scenarios that will stress all elements of the system. Pre-defined 
scenarios consist of predictable test cases, which the system will be 
subjected to on a regular basis, and unpredictable test cases. An 
example of a predictable test cases might include an autonomous vehicle 
picking up a passenger at an airport baggage claim. An unpredictable 
test case might include a white semi-tractor trailer pulling out in 
front of a car with a bright sun in the background. Unpredictable test 
cases are most often ``six-sigma'' events: They are rare, unpredictable 
and will have the most impact on ensuring CAV technology meets 
specification, fulfills its intended purpose and is safe for humans. To 
determine test cases, the Federal Government will need legislation that 
creates or delegates power to an organization that functions like the 
NTSB for aviation safety. This organization must gather data, analyze, 
document and report on all incidents across the country so that 
technology developers, manufacturers and independent testing can 
benefit from the lessons learned to create vehicles that are safe.
    To do this, we suggest a holistic and systems oriented approach to 
testing based on four levels of testing. Each approach has advantages, 
and a robust test environment is useful only if it includes all 
approaches.
    Digital simulation models the system and the environment for a 
given test scenario. Because it is a model-based simulation, it is 
inexpensive to repeat and the scenario can be easily controlled.
    The primary disadvantage with digital simulation is that it is a 
model of both the system and the environment, and if the model is not 
correct, the results will also be incorrect.
    Hardware-in-the-loop emulation simulates only the environment by 
creating a scenario and modeling the input to the system's sensors, 
i.e., scenes are created much like a video game and played into the 
real CAV system. Because this approach only creates a model of the 
environment, it typically leads to a more robust test than simulation. 
Like simulation, testing can be easily controlled, is inexpensive to 
repeat and can easily be extended (e.g., what if the white tractor 
trailer was blue, or what if it pulled out 5 secs earlier, . . .). 
Because this approach depends on a model of the environment, it may not 
always have the fidelity needed to absolutely verify functionality. For 
this reason, a closed-test complex is needed to do real testing and 
verify the results on both digital simulations and hardware-in-the-loop 
emulations.
    A closed-test complex is a test track that ultimately provides a 
large and flexible theater where the autonomous vehicle and its actors 
are real. Test tracks lack both controllability and repeatability and 
are expensive, but they test real scenarios and are an important part 
of confirming functionality and developing models that support 
simulation and emulation.
    Public open road testing is the testing of systems on real highways 
and in cities. This approach often results in multiple scenarios all 
happening in real-time. It is expensive to repeat, and it is impossible 
to control, but it most accurately reflects the real environment. Many 
companies are now using public open road testing as their only approach 
to developing fleets of CAV and this can be very dangerous. Open road 
testing is more applicable for demos than for testing since they are 
not controllable and will not exercise those rare events that happen 
only once in a million times.
Test Centers
    The Federal Government can have a very constructive role in 
enabling this transformative technology through research funding, 
through safety consortiums that investigate and provide factual data 
around AV accidents and through creating quasi-governmental 
organizations much like the Department of Energy (DOE) and the 
Department of Defense's (DoD's) Federally Funded Research and 
Development Centers (FFRDCs) and University Affiliated Research Centers 
(UARCs) that conduct applied research and provide unbiased technology 
expertise to the government.
    The Florida Turnpike Enterprise (FTE), Florida Polytechnic 
University (Florida Poly) and the Orlando Smart City are in a unique 
position to build a holistic test environment that could be used to 
provide certification of standards and national policies for CAV. As 
part of this holistic environment, Florida Poly is building the 
Advanced Mobility Institute which will provide digital simulation, 
Hardware-in-the-Loop emulation and layered services for the closed and 
open test grounds. FTE is building SunTrax, which provides an advanced 
state of the art closed facility test center for CAV. This test track 
represents an approximate $150M investment in a 400+ acre facility that 
provides complex test scenarios to users and can be easily reconfigured 
to adapt to evolving test cases. Both Florida Poly and FTE are members 
of the larger Orlando Smart Cities project that provides a testing 
platform on the public streets in the City of Orlando. The region also 
includes the University of South Florida's Center for Urban 
Transportation Research (CUTR), which focuses on transportation policy, 
regulations and standards.
    Florida Poly is a new public STEM University with a focus on 
emerging technologies in computer science, electrical and computer 
engineering, mechanical engineering and data analytics. It has an 
applied research function modeled after DARPA, and it is focused on 
bridging the technology ``Valley of Death'' by translating fundamental 
research out of the University and into the market place. Florida Poly 
is developing deep expertise in technology development, testing and 
evaluation by modeling approaches used in mature industries like chip 
design and Defense to create a ``science of CAV testing''. The 
University is also developing educational programs in CAV with plans to 
offer distance education to professionals and executives in CAV with 
certifications. It is strategically located in Lakeland at the heart of 
Florida's High-Tech Corridor, which includes 23 counties and three 
fellow State University System public institutions. Lakeland is easily 
accessible from two of Florida's largest metropolitan areas, Tampa Bay 
and Orlando. They have combined populations of nine million people and 
nearly 70 percent of the state's high-tech companies, creating 
opportunities for industry, government and academic collaborations.

    The Chairman. Thank you, Dr. Avent.
    Mr. Kentley-Klay.

    STATEMENT OF TIM KENTLEY-KLAY, CO-FOUNDER AND CEO, ZOOX

    Mr. Kentley-Klay. Chairman Thune, Ranking Member Nelson, 
Senators, thank you for the opportunity to testify before you 
today.
    When I arrived in the U.S. from Australia just over 3 years 
ago, Zoox was but a dream, so it is, indeed, an honor to be 
here before you and among respected business leaders. Today, I 
will share with you our vision and the journey of Zoox; our 
perspective on the step-change safety opportunity offered by 
autonomous mobility; and, finally, the opportunity we have as a 
country to set the best policy foundation on which to build 
this technology and get it on the road.
    My journey with autonomous mobility began in 2012 while in 
Melbourne, Australia, watching from afar what Google was doing, 
attempting to develop a self-driving car. My insight at the 
time was that such technology is about much more than 
incremental adaptation to the automobile. This technology, 
correctly understood, is going to transform how we move 
everyone and everything on this planet.
    The belief we hold at Zoox is that AI and mobility will 
take us from the age of the automobile into the next mobility 
age, and we think that is the age of robotics--fully automated 
transportation. Thus, Zoox was founded to ask the question: 
What is the full realization of autonomy and mobility? Can we 
imagine that? And if we can, let's not build it in 10 years. 
Let's build it now.
    At Zoox, we have gone from this founding vision to today 
augmenting cars that work as autonomous vehicles driving in 
downtown San Francisco. We are driving during the day. We are 
driving during the night, in heavy rain and fog. We are also 
driving autonomously on freeways. In short, Zoox is driving 
autonomously a complete set of urban road and weather features 
as we speak.
    Beyond this, because we believe that the full realization 
of this technology is not retrofitted cars, we are also 
creating a vehicle from the ground up, without traditional 
controls, that is purpose-built for the needs of our cities 
today and tomorrow. This means shared, on-demand, zero-
emission, safe, and wonderful mobility.
    This represents a phenomenal effort by a highly 
interdisciplinary team that is fast-growing--over 375 at Zoox. 
Expertise ranges across fields of artificial intelligence with 
over 70 Ph.D.'s, product design, safety, vehicle engineering. 
The teams come from organizations such as Google, Tesla, Apple, 
Ferrari, NVIDIA, NASA, and NHTSA, and along with academic 
institutions, such as Stanford, MIT, Oxford, Princeton, and 
Carnegie Melon University.
    The very real safety opportunity that autonomous mobility 
will offer drives our work every day at Zoox. Autonomous 
technology holds out the promise for a whole new safety 
paradigm, one that allows us to prevent crashes in the first 
place. The number of people we lost as a result of car crashes 
in 2016 went up despite our best efforts. That number 
represents nearly 2,000 more loved ones lost. In fact, car 
crashes are the leading cause of death of young people in this 
Nation. This should be unacceptable to us.
    It is our view that only autonomous mobility offers the 
opportunity to make irrelevant the safety risks associated with 
driver impairment and error. We should act on that.
    Finally, these paradigm shifts in both mobility and safety 
innovation, what then is the policy opportunity? First, it is 
important to recognize that we are in the midst of a great and 
global race. Other countries are sprinting to harness and 
deploy this technology.
    And I know I certainly could not have started Zoox and 
scaled it as fast as I could with my cofounder and wonderful 
team anywhere else than in the United States of America. It 
welcomed me with open arms. I am grateful for that and keen to 
maintain our competitive edge here.
    The signals we send to entrepreneurs and innovators through 
our regulatory system are vitally important to meet that end.
    To date, the posture of both the Administration and 
Congress has been to create a level playing field to let the 
innovators innovate. This must continue. Your AV START Act, as 
well as the SELF-DRIVE Act, capture these principles and 
encourage innovation in a technology-neutral way without 
picking winners. The legislation making its way through 
Congress, in our view, is the right approach for this moment.
    Finally, the Zoox journey is all about connecting people 
and places safely and in an environmentally conscious way, and 
with a sense of wonder. Autonomous mobility sits on the 
vanguard of possible. As innovators, we look forward to working 
with you, the regulators, to create with verve the next era in 
mobility.
    Thank you.
    [The prepared statement of Mr. Kentley-Klay follows:]

    Prepared Statement of Tim Kentley-Klay, Co-Founder and CEO, Zoox
    Chairman Thune, Ranking Member Nelson, Senators:

    Thank you for the opportunity to testify before you today. When I 
arrived in the U.S. from Australia just over three years ago, Zoox was 
but a dream, so it is indeed an honor to be here before you and among 
respected business leaders.
    Today, I will share with you our vision and the journey we are on 
at Zoox; our perspective on the step-change safety opportunity offered 
by autonomous technology in mobility; and finally, the opportunity we 
have as a country to set the best policy foundation on which build this 
technology and get it on the road.
The Zoox Vision
    My journey with autonomous mobility began in 2012, while in 
Melbourne, Australia, watching from afar what Google was doing: 
attempting to develop a ``self-driving car.''
    My insight at the time was that such a technology is about much 
more than just incremental adaptation to the automobile. This 
technology, correctly understood, is going to transform how we move 
everyone and everything on this planet.
    To understand what is about to happen, let's take a step back. The 
previous mobility age, before the automobile, was, of course, the horse 
and carriage. We were in that age for around 6,000 years. It was around 
4000 BC that we domesticated the horse, put the axle on the wheel, and 
invented coach building. So what allowed the transition from that 
mobility age to the next?
    Arguably, it was the invention of the internal combustion engine. 
We achieved a technology level on this planet where we could mechanize 
the horse's biomechanical power. The correct implementation of that 
invention was not to put the engine in the coach and keep the horse. 
People actually tried that, but it didn't work particularly well. The 
right application was to remove the horse--and change the architecture 
of the coach, quite radically, to get to a design such as the Model-T 
Ford in 1908. This transformation took us into the age of the 
automobile, an age we have been in for 130 years.
    The belief we hold at Zoox is that A.I. in mobility will take us 
from the age of the automobile into the next mobility age. And we think 
that's the age of robotics--fully automated transportation. Thus, Zoox 
was founded to ask the questions: what would the full realization of AI 
and mobility be? Can we imagine that? And if we can, let's build it not 
in ten years, but today.
    At Zoox, we have gone from a founding vision three and a half years 
ago, to augmenting cars to work as autonomous vehicles driving in 
downtown San Francisco, during the day, during the night, and in heavy 
rain. We are also driving autonomously on highways. In short, Zoox is 
driving autonomously a complete set of urban road and weather features, 
today.
    Beyond this, because we believe that the full realization of this 
technology is not retrofitted cars, we are also creating a vehicle from 
the ground-up--without traditional controls--that's purpose-built for 
the needs of our cities today and tomorrow.
    This represents a phenomenal effort by a highly interdisciplinary 
and fast growing team of over 375, with expertise ranging across the 
fields of artificial intelligence, product design, safety, and vehicle 
engineering. The team comes from organizations such as Google, Tesla, 
Apple, Ferrari, NVIDIA, NASA, and NHTSA, along with academic 
institutions such as Stanford, MIT, Oxford, Princeton, and Carnegie 
Mellon.
The Safety Opportunity: Our Philosophy at Zoox
    The very real safety opportunity that autonomous mobility will 
offer drives our work every day at Zoox. Autonomous technology holds 
out the promise of a whole new safety paradigm: One that allows us to 
both prevent crashes in the first place and protect occupants and 
vulnerable road users in superior ways if a crash does occur.
    The number of people killed as a result of car crashes in 2016 went 
up 6 percent from the year prior. That number represents nearly two-
thousand more loved ones lost. In fact, car crashes are the leading 
cause of death for young people in the U.S. This should be unacceptable 
to us: We should pursue autonomous technologies, which hold the 
potential to eliminate most crashes.
    Indeed, in our view, it is only autonomous mobility that offers the 
real opportunity to make irrelevant the safety risks associated with 
driver impairment and error.
The Policy Opportunity
    Finally, with these paradigm shifts in both mobility and safety 
innovation, what then is the policy opportunity? What is the government 
opportunity?
    First, it is important to recognize that we are in the midst of a 
great race. Other countries are sprinting to harness and deploy this 
technology. And I know I certainly could not have started and scaled 
Zoox as fast as I have in any other country, and the United States has 
welcomed me with open arms. I am grateful for that, and keen to 
maintain our competitive edge here.
    The signals we send to entrepreneurs and innovators through our 
regulatory system are vitally important to meet that end. To date--and 
this brings me to my second point--the posture of both the 
Administration and this Congress has been to create a level playing 
field to let the innovators innovate. That must continue. Your AV START 
Act, as well as the SELF DRIVE Act, capture these principles, assert 
the Federal Government's preemptive role over state legislation, and 
encourage innovation in a technology-neutral way, without picking 
winners. The legislation making its way through Congress, is in our 
view, the right approach for this moment.
    Third, it is important to recognize that data-driven best practices 
must precede standard-setting. We are still in the very early stages of 
this paradigm shift, so it is important that responsible developers 
have the freedom to develop and generate the data needed for best 
practices and eventually relevant regulatory policies. I would note 
that this emerging industry has a strong safety record. In fact, there 
has been no injury caused by any fully autonomous vehicle developer to 
date. As such we should be encouraged to continue advancing our 
development while acting at all times responsibly.
    Finally, the Zoox journey is all about connecting people and 
places, safely, in an environmentally conscious way, and with a sense 
of wonder. Autonomous mobility sits on the vanguard of possible. As the 
innovators, we look forward to working with the regulators to create, 
with verve, the next era in mobility.
    Thank you.

    The Chairman. Thank you, Mr. Kentley-Klay.
    Mr. Mansuetti.

          STATEMENT OF MICHAEL MANSUETTI, PRESIDENT, 
                        ROBERT BOSCH LLC

    Mr. Mansuetti. Chairman Thune, Ranking Member Nelson, 
Members of the Committee, thank you for the opportunity to 
testify before you today.
    Robert Bosch founded the company in 1886 in Germany, and we 
established our first U.S. office in 1906. The Bosch companies 
in the U.S. today have now grown to encompass more than 18,000 
associates in 25 states. Of our four business sectors, mobility 
solutions is the largest.
    The U.S. remains at the forefront of Bosch's innovation 
efforts. We are actively testing automated vehicles in Michigan 
and in California. In 2017, Bosch announced the creation of a 
new center of competence for artificial intelligence, and 
Silicon Valley will serve as one of the three global sites for 
these efforts.
    I appreciate the opportunity to share Bosch's view on the 
transformation of the auto industry. This hearing is taking 
place at a critical juncture in our history. We are witnessing 
a revolution in almost every aspect of the vehicle, from how we 
power our cars to how we handle and transition control of the 
overall vehicle, to the future role of the vehicle in the lives 
of individuals.
    I deeply appreciate the efforts of Chairman Thune, Senator 
Peters, Ranking Member Nelson, and all of the Committee Members 
in sponsoring and passing the AV START Act. The Committee staff 
took great care to consider the issues that are impacting auto 
suppliers and to understand the complex role that we play as 
incubators and developers of automated driving systems.
    Bosch further commends the Committee for including crash-
avoidance technologies in the consumer education requirement 
from the AV START Act. We also express our appreciation to 
Senators Heller and Markey for their ongoing support of crash-
avoidance technologies.
    At Bosch, we have a vision for accident-free driving. We 
see the potential for automated vehicles and advanced driver-
assistance systems to dramatically decrease vehicle-related 
injuries and fatalities. Making automated driving a reality 
calls for profound understanding of all vehicle systems. Bosch 
has this expertise, and we manufacture the key components, 
including radar, video, and ultrasonic sensors, brake-control 
systems, and electric power steering.
    Automated driving will demand much more than just the 
fitment of more sensors and cameras. It will require a new 
vision for the electronic architecture and the safety-critical 
functions of the vehicle. To realize higher levels of automated 
driving, we need redundancy in safety-critical systems, such as 
braking and steering. Bosch is actively developing redundant 
braking solutions to support all levels of automation, and this 
redundancy is a critical element especially for Level 4 and 
Level 5 automated vehicles.
    It is also important for Level 3 vehicles where a human 
driver is still necessary but safety-critical functions may be 
handled by the vehicle. As part of navigating this new 
landscape, Bosch is forging alliances. For example, in 2017, we 
announced a partnership with Daimler, which will focus on Level 
4 and Level 5 automated vehicles.
    Bosch is also cognizant of the tremendous need for consumer 
outreach. To bolster public understanding, Bosch has launched 
the Bosch Automated Mobility Academy to educate the public on 
how automated mobility can improve quality-of-life and explain 
how various advanced technologies will make the fully automated 
future possible.
    The topic of cybersecurity is tightly intertwined with 
increasingly automated and connected vehicles, and it is a 
priority for Bosch. Bosch has worked for several years to 
develop robust and comprehensive solutions for our customers. 
We strongly support a layered approach to vehicle cybersecurity 
and have espoused this principle in the development of our own 
products and engagement with our customers.
    We evaluate our customers' requirements in two ways, first 
by developing systems and technologies that can address risk 
based on the electronic architecture of the vehicles, and 
second by investing in future solutions that will be interwoven 
into vehicle design from the onset.
    Understanding the importance of industry cooperation in 
addressing potential threats and developing best practices, 
Bosch joined the Auto ISAC in 2016.
    As we look forward to these events, we cannot fail to 
address the demand for trained workers to fulfill the millions 
of jobs that will be needed to fuel the transformation. We 
clearly recognize the need to build and shape the manufacturing 
workforce of the future. To support this, Bosch maintains an 
apprenticeship program at several of our U.S. manufacturing 
facilities. In addition, our U.S. foundation, the Bosch 
Community Fund, provide grants to STEM-based educational 
programs and professional development for teachers.
    So thank you again for the opportunity today. Bosch looks 
forward to continuing to work with each of you and the 
Committee as we continue to develop technologies that are truly 
invented for life.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Mansuetti follows:]

  Prepared Statement of Michael Mansuetti, President, Robert Bosch LLC
Background
    In North America, the Bosch group of companies (``Bosch Group'') 
employ nearly 32,800 associates (with more than 18,000 in the U.S.) in 
more than 100 locations, as of December 31, 2016. In 2016, Bosch 
generated consolidated sales of $13.7 billion in the U.S., Canada and 
Mexico.
    The Bosch Group is a leading global supplier of technology and 
services. The global group of companies employ roughly 390,000 
associates worldwide (as of December 31, 2016) and generated sales of 
$80.9 billion in 2016. The operations are divided into four business 
sectors: Mobility Solutions, Industrial Technology, Consumer Goods, and 
Energy and Building Technology.
    As leaders in IoT, Bosch offers innovative solutions for smart 
homes, smart cities, connected mobility, and connected industry. We use 
our expertise in sensor technology, software, and services, as well as 
our own IoT cloud, to offer customers connected, cross-domain solutions 
from a single source. Our strategic objective is to create solutions 
for a connected life, and to improve quality of life worldwide with 
products and services that are innovative and spark enthusiasm. In 
short, Bosch creates technology that is ``Invented for life.'' The 
Bosch Group comprises Robert Bosch GmbH and the roughly 440 affiliates 
in some 60 countries. Bosch's global manufacturing, engineering, and 
sales network covers nearly every country in the world. The basis for 
Bosch's future growth is its innovative strength. At 120 locations 
across the globe, Bosch employs 59,000 associates in research and 
development.
                                 ______
                                 
    Chairman Thune, Ranking Member Nelson, members of the Committee, 
thank you for the opportunity to testify before you today.
    My name is Mike Mansuetti and I am the President of Bosch North 
America.
    Robert Bosch founded the company in 1886, when he opened the 
``Workshop for Precision Mechanics and Electrical Engineering'' in 
Stuttgart, Germany. From its inception, the company has focused on the 
importance of the international market and Mr. Bosch established his 
first U.S. office in New York City in 1906. The Bosch companies in the 
United States have now grown to encompass more than 18,000 associates 
with 25 active manufacturing sites across the country and three 
dedicated Research and Development Centers (Pittsburgh, PA; Palo Alto, 
CA; and Cambridge, MA). We maintain a significant presence in Michigan, 
South Carolina, Illinois, Florida, Wisconsin, California, Kentucky, and 
Minnesota. Bosch concluded its 2016 Fiscal Year with $13.7 billion in 
consolidated sales in North America. Bosch has four business sectors--
Mobility Solutions, Industrial Technology, Consumer Goods, and Energy 
and Building Technology. Mobility Solutions is our largest sector, 
comprising approximately 60 percent of our business and representing 
217,000 associates worldwide.
    Bosch invested more than $450 million in North America in 2016. In 
2016, Bosch opened an expanded technical center in Plymouth, Michigan, 
and relocated its Research and Technology Center within Pittsburgh. 
Moving forward, Bosch will invest $175 million in its Charleston, South 
Carolina plant to enhance its mobility solutions manufacturing 
activities at the facility. In December 2017, we were pleased to 
announce an additional $152 million of capital investment for our 
Anderson, SC manufacturing location to accommodate the expansion of our 
automotive electronics business and to retain additional associates at 
that site.
    The United States remains at the forefront of Bosch's innovation 
efforts. We are actively testing Automated Vehicles in Michigan and in 
California, both on our own as a Tier One automotive supplier and in 
cooperation with our customers. In 2017, Bosch announced the creation 
of a new Center of Competence which will focus on Artificial 
Intelligence. Palo Alto, CA will serve as one of the three key global 
sites for these efforts. In support of our growth as an Internet of 
Things (IoT) company, Bosch founded the Chicago Connectory in May 2017. 
The Connectory serves as a community of entrepreneurially-minded 
innovators meant to foster cross-domain collaboration among corporate 
partners, startups and universities to drive the development of new IoT 
technologies. The Connectory also provides cutting-edge technology, 
expert programming, and mentorship from leading experts in IoT. In 
addition, Bosch offers technical resources, a small prototyping space, 
as well as mentorship from teams and leaders on topics in 
manufacturing, software engineering and commercialization. Part of the 
objective of the Connectory is to revolutionize the way we envision new 
products within Bosch and bring them to market.
    I appreciate the opportunity to appear before you today and to 
share Bosch's perspective on the transformation of the automotive 
industry. This hearing is taking place at a critical juncture in our 
history as an industry. We are witnessing a revolution in almost every 
aspect of the vehicle, ranging from the method in which we power our 
cars, to how we handle and transition control of the overall vehicle 
and to the role that the vehicle of the future will play in the lives 
of individuals. I would also highlight the growing connection between 
the vehicle and the other aspects of our daily lives. Bosch is 
developing new applications that will enable consumers to manage their 
home, to safely engage in activities such as working and relaxing in 
the vehicle and to achieve time, economic and environmental 
efficiencies by avoiding congestion on the roads. I also wish to take 
this opportunity to express our deep appreciation for the efforts of 
Chairman Thune, Senator Peters, Ranking Member Nelson and all of the 
Committee members in sponsoring and passing the AV START Act (S. 1885). 
Your leadership in this critical area is greatly appreciated by Bosch. 
The Committee staff took great care to consider the issues that are 
impacting automotive suppliers and to understand the complex role that 
we play as incubators and developers of Automated Driving Systems 
(ADS), software and related components. We wish to acknowledge their 
hard work over the past year.
Automated Driving and Driver Assistance Systems
    At Bosch, a driving motivation is safety. Above all, we see the 
potential for automated vehicles and for advanced driver assistance 
systems to dramatically decrease the numbers of vehicle-related 
injuries and fatalities, in the U.S. and across the globe. This is our 
primary driver as we seek to develop, refine and launch these new 
technologies into the market. We often speak of these advancements in a 
futuristic manner, but the reality is that automation is already 
providing tremendous benefits to vehicle drivers and occupants today. 
Bosch pioneered the active safety system Electronic Stability Control 
(ESC), also known as ESP, which is deployed in every new passenger car 
sold in the U.S. In 2017, the National Highway Traffic Safety 
Administration (NHTSA) issued a report which found that more than 7,000 
lives were saved by ESC during the 5 year period between 2011-2015.\1\ 
The technology works by monitoring driver intent and vehicle direction 
and by automatically applying braking force as needed to prevent a loss 
of control. Most drivers are not even aware of its support as its 
activation is reflected solely in the momentary illumination of an 
indicator light on the dashboard.
---------------------------------------------------------------------------
    \1\ DOT HS 812 391, March 2017, Estimating Lives Saved by 
Electronic Stability Control, 2011-2015.
---------------------------------------------------------------------------
    As noted above, Bosch is heavily engaged in AV development and 
testing in the United States. Making automated driving a reality calls 
for profound understanding of all vehicle systems. Bosch has this 
expertise, and manufactures most of the key components itself--
including radar, video, and ultrasonic sensors, brake control systems, 
electrical power-steering units, display instruments, and connectivity 
solutions inside and outside the vehicle. Bosch has more than 3,000 
engineers around the world working to make automated driving a reality.
    We are using our decades-long experience to ensure the safety of 
our components and ADS. Automated driving will demand much more than 
just the fitment of more sensors and cameras, it will require a new 
vision for the electronic architecture and safety-critical functions of 
the vehicle. The most highly automated systems available in the market 
today are classified as SAE Level 2. While the system is able to 
execute both steering and acceleration/deceleration under certain 
circumstances, the human driver is responsible for monitoring the 
driving environment and function as the backup to the system.
    In order to realize higher levels of automated driving, we will 
need redundancy in safety-critical systems such as braking and 
steering. Bosch is actively developing and bringing to market redundant 
braking solutions to support all levels of automation. This redundancy 
is obviously a critical element for SAE Levels 4 and 5, but it will 
also be important for SAE Level 3 vehicles where a human driver is 
still necessary, but safety-critical functions may be handled by the 
vehicle under certain traffic or environmental conditions.
    We are enabling redundant braking by replacing the vacuum brake 
booster with an intelligent electro-mechanical booster, the iBooster. A 
conventional brake system today comprises two actuators: a vacuum brake 
booster and ESC unit. In this system, in the unlikely situation that a 
failure occurs in the ESC unit, the human driver would act as the 
backup by depressing the brake pedal. The redundant brake system for 
automated driving is comprised of two actuators that are each able to 
decelerate the vehicle independent of the driver applying the brake 
pedal. Thus, even if a failure occurs in the brake system, either 
actuator (iBooster or ESC) is able to avoid wheel lock-up by modulating 
the brake pressure, which maintains the ability to steer during 
deceleration.
    Redundant steering is also a key technology for automated driving 
and Bosch is leading in this area. In 2017, Bosch introduced its 
Electric Power Steering (EPS) system with fail-operational function. 
The system, which enables either a driver or automated driving system 
to make a safe stop in the rare case of a single failure, is a key 
requirement on the path to fully automated driving.
    Bosch is forging new alliances, with both traditional partners and 
unique service providers, to address all of the key factors that will 
be necessary for automated driving. For example, in 2017, we announced 
a partnership with Daimler which will focus on Level 4 and Level 5 
automated vehicles. In addition, on January 4, 2018, Bosch announced 
its intent to acquire a five percent stake in HERE Technologies, a 
global provider of digital mapping and location services. High-
definition maps are a requirement for self-driving cars. These must be 
kept up-to-date with data from the vehicle's sensors and supplemented 
with real-time information on traffic conditions, congestion, 
construction sites, and accidents. Bosch's ``road signature'' uses 
information from the Bosch radar and video sensors in the vehicle to 
enrich and update high-definition maps. Consequently, Bosch and HERE 
are exploring opportunities to utilize road signature in the 
maintenance of HERE's map for automated vehicles. At the same time, 
Bosch will be continuing its work on the road signature with partners 
such as TomTom, AutoNavi, Baidu, NavInfo, and Increment P.
    Bosch has built upon the foundational technology ESC, and our 
industry position as a leading manufacturer of micro-electro-mechanical 
systems (MEMS) and radar sensors, and mono-and stereo-vision cameras, 
to create a very broad portfolio of advanced crash avoidance systems 
that can help prevent an accident from occurring or minimize the 
severity of its impact. Our product list includes Automatic Emergency 
Braking, Lane Keeping Assist, Blind Spot Detection, Backover Avoidance 
Systems and Pedestrian and Rear Auto Braking systems. Bosch's Corporate 
Research and Technology Center estimates that Automatic Emergency 
Braking (City and Inter Urban) could address 35 percent of the 
accidents in the U.S. while Lane Keeping Assist and Lane Departure 
Warning (coupled with ESC) could address another 20 percent.\2\ These 
are not ideas or visions yet to be realized; these are systems that can 
offer tangible, real world and life savings benefits to drivers and 
occupants right now. This Committee, and Congress as a whole, helped to 
advance the development of these technologies by supporting and funding 
the NHTSA Data Modernization Project. Recognizing the critical need for 
more comprehensive and robust real-world data concerning the actual 
causes of crashes in the U.S., the House and Senate directed NHTSA in 
2012 \3\ to update its data collection efforts and provided funding to 
enable the incorporation of new collection sites, improved technology 
and enhanced data analysis. A deeper and more analytical understanding 
of the actual factors and aspects involved in real world crashes 
enables all of us to target those causes and to develop technology that 
provides a concrete benefit to consumers. This data is among the many 
elements that Bosch considers when determining where to invest its 
resources in creating future safety technologies.
---------------------------------------------------------------------------
    \2\ Bosch Corporate Research analysis based on NHTSA Traffic Safety 
Facts 2015, DOT HS 812 384.
    \3\ DOT HS 812 128, March 2015, NHTSA's Review of the National 
Automotive Sampling System: Report to Congress.
---------------------------------------------------------------------------
    Bosch commends the Committee for incorporating crash avoidance 
systems into the consumer education requirement that was approved as 
part of the AV START Act (S. 1885). We also wish to express our sincere 
appreciation to Senators Heller and Markey for the important work that 
they have done to call attention to crash avoidance technologies 
(Safety Through Informed Consumers Act of 2015 \4\) and the need for 
their inclusion in the vehicle's star safety rating.
---------------------------------------------------------------------------
    \4\ S. 1535, the Safety Through Informed Consumers Act of 2015. 
This legislation was approved in 2015 as part of the Fixing America's 
Surface Transportation (FAST) Act.
---------------------------------------------------------------------------
    Bosch urges the Committee and NHTSA to re-energize and update the 
U.S. New Car Assessment Program (NCAP) or 5-star rating program. Highly 
automated vehicles will provide significant benefits and enable a new 
vision of mobility for millions of Americans; however, these vehicles 
may take years to reach high levels of market penetration. We project 
that conditionally automated Level 3 vehicles will be available to 
consumers this decade and Level 4 highly automated vehicles will be 
available in the beginning of the next decade. Since more than 37,400 
individuals died in motor vehicle crashes in 2016, we must take 
immediate steps to help educate consumers on the options that are 
available today. Consequently, we respectfully recommend that the 
Committee examine the potential to incorporate crash avoidance 
technologies into the overall vehicle rating. A prior proposal to 
update NCAP, issued by NHTSA in December 2015, included not only 
several positive changes that would have boosted consumer awareness of 
new active safety systems, but also raised concerns relative to the 
significant adjustments that would be required in connection to the 
vehicle crashworthiness rating. We ask the Committee to re-examine the 
crash avoidance portion of the proposal, which generated notable 
support from relevant stakeholders such as leading vehicle 
manufacturers, the National Safety Council (NSC), the National 
Transportation Safety Board (NTSB), and the Insurance Institute for 
Highway Safety (IIHS).
    I wish to note that Bosch supports the Federal Guidance for 
Automated Vehicles, which was released in September 2017. We commend 
NHTSA and the U.S. Department of Transportation (DOT) for all of their 
efforts and wish to acknowledge the significant investment of time and 
resources on the part of DOT leadership and the staff at NHTSA to 
create this framework. Bosch understands and supports the objectives of 
NHTSA in urging the release of a Voluntary Safety Self-Assessment 
(VSSA). Indeed, our company intends to release its own VSSA.
Consumer Education
    Bosch is also cognizant of the tremendous need to conduct outreach 
to consumers and to engage in an active debate as to the benefits of 
these technologies, the manner in which the driver will be able to 
interact with them and to the proper expectations associated with such 
innovations.
    Bosch's position on the need for improved consumer education is 
well known. We have urged NHTSA and the U.S. Department of 
Transportation for many years to include crash avoidance systems as a 
key component of the vehicle 5-star rating and to provide additional 
information to consumers through the Monroney Label.
    Bosch strongly concurs with U.S. Transportation Secretary Chao that 
consumer education and awareness are critical enablers to the future 
success and adoption of ADS. In order to bolster public understanding, 
Bosch has launched the Bosch Automated Mobility Academy to educate 
members of the public on how automated mobility can improve their 
quality of life and to explain how various advanced technologies and 
functions will make the fully automated future possible. The Academy 
also provides information on driver assistance technologies that 
provide safety and comfort benefits today and will serve as the 
building blocks to higher levels of automation.
    You may access the Bosch Automated Mobility Academy at: http://
www.bosch-mobility-solutions.us/us/highlights/automated-mobility/amc/
    In addition to the Academy, Bosch remains committed to increasing 
consumer awareness through its partners and through demonstrations and 
presentations at dedicated industry and government events.
Cybersecurity
    The topic of cybersecurity is tightly intertwined with the 
emergence of increasingly automated and connected vehicles and it is a 
priority for Bosch. Again, I commend the Members of this Committee and 
your staff for working so diligently to address this critical and 
complex issue. Bosch has been working for several years to develop 
robust and comprehensive solutions for our customers. Bosch strongly 
supports a layered approach to vehicle cybersecurity. We have espoused 
this principle in the development of our own products and in our 
engagement with customers.
    We are addressing our customers' requirements in two ways: (1) 
developing systems and technologies that can address risks based on the 
electronic architecture of current vehicles, and (2) investing in 
future solutions that will be interwoven into the vehicle design from 
the ground up. Our current cybersecurity product portfolio ranges from 
security embedded in the hardware of our electronic products to 
sophisticated mechanisms which serve as a ``wall'' between external 
connectors to the vehicle and the safety-critical systems that govern 
the steering, braking and other functionalities.
    Also, with the Bosch group of companies we have the leading team of 
security specialists in the automotive sector, ESCRYPT. It is an 
industry leader in securing over the air (OTA) updates of firmware and 
software, which are carried out in a similar manner as smartphone 
software updates. Users select a function on their smartphone or the 
infotainment system. The information is sent to the Cloud, which 
functions like an app store to provide the software and to start 
downloading it straight into the vehicle. Further, security updates can 
be distributed by such an infrastructure. Data transfer runs securely 
in the background while the car is being driven--and importantly the 
updates are only made when conditions are secure. According to Gartner 
Inc., 250 million cars around the world will be connected by 2020,\5\ 
so this topic will continue to remain at the forefront as the industry 
advances.
---------------------------------------------------------------------------
    \5\ ``Gartner Says By 2020, a Quarter Billion Connected Vehicles 
Will Enable New In-Vehicle Services and Automated Driving 
Capabilities,'' (Jan. 26, 2015). Press Release: https://
www.gartner.com/newsroom/id/2970017
---------------------------------------------------------------------------
    In the future, Bosch sees the focus of automotive cybersecurity as 
intrusion detection and prevention. Bosch and ESCRYPT are actively 
developing components and systems to support OEMs in developing 
vehicles that are safe and secure. ESCRYPT's Intrusion Detection 
Prevention System enables continuous monitoring of attacks in the field 
and timely detection of attacks. The information is conveyed to a 
backend office through the cloud, enabling analysis by security 
analysts and forensic experts who can then develop an appropriate 
response. This could include a roll-out of countermeasures via security 
updates for the entire fleet in order to remedy the vulnerability.
    Understanding the importance of industry cooperation and engagement 
in addressing potential threats and developing best practices, Bosch 
joined the Automotive Information Sharing and Analysis Center (Auto-
ISAC) in 2016 and one of our associates presently serves as the Chair 
of the Supplier Affinity Group within the ISAC.
    Bosch understands that the Committee has expressed interest in the 
topic of coordinated disclosure. Bosch has already established a 
process to enable effective communication with other Bosch entities and 
external parties, including researchers. In 2016, a Product Security 
Incident Response Team (Bosch PSIRT) was created to serve as the 
central point of contact for external security researchers, partners or 
customers to report security information related to Bosch products. The 
PSIRT interface provides a clear and accessible means for external 
parties to communicate and ensures that all submissions will be 
reviewed and considered. This mechanism enables an assessment of the 
validity of vulnerability notifications and allows for a quick and 
appropriate action. The Bosch PSIRT webpage further includes a list of 
existing Security Advisories.\6\
---------------------------------------------------------------------------
    \6\ Bosch Product Security Incident Response Team website: https://
psirt.bosch.com/index.html
---------------------------------------------------------------------------
    In addition, acknowledging security as an important element of the 
product-development process is a necessary step to ensure that security 
capabilities are properly implemented and that considered relative to 
all aspects of the vehicle life-cycle. Bosch has developed a security 
engineering process that is followed for all warranted present and 
future product development.
    I also wish to note the importance of industry standards and of the 
active engagement by standard setting bodies across the world to 
develop appropriate standards in this area and, eventually, to 
harmonize their approach where possible. Bosch believes the industry 
standards will play a critical role in framing the future adoption and 
use of the technology. We are supporting these efforts and utilizing 
the recommended practices. For example, Bosch is actively participating 
in the ISO-SAE 21434 Road Vehicles Cybersecurity Engineering 
standardization process, which addresses the means of handling security 
topics in automotive product engineering.
    Securing automobiles is a complex issue that requires both a 
comprehensive, strategic approach and a long-term commitment. We are 
devoted to developing tools and offering consulting to help the U.S. 
automotive industry with this important issue.
Artificial Intelligence
    Bosch is advancing artificial intelligence. At the Bosch Connected 
World 2017 conference in Berlin, Bosch presented an onboard computer 
for automated vehicles. Thanks to artificial intelligence (AI), the 
computer can apply machine learning methods. The AI onboard computer is 
expected to guide self-driving cars through even complex traffic 
situations, or ones that are new to the car. Bosch's AI onboard 
computer can also recognize pedestrians or cyclists.
    Bosch is also actively seeking ways to utilize AI to improve our 
existing products and operations, including in manufacturing where AI 
can scrutinize the effectiveness of our production so that products can 
be manufactured more quickly while maintaining exceptional levels of 
precision and quality. AI also has the potential to make our lives 
easier in many areas, whether its intelligent cars finding parking 
spaces, having the room temperature automatically adjusted to our 
needs, or protecting our homes against break-ins. We wish to 
acknowledge the leadership of Senator Cantwell, Senator Markey and 
Senator Young in introducing the Fundamentally Understanding the 
Usability and Realistic Evolution of Artificial Intelligence Act of 
2017--or the ``FUTURE of Artificial Intelligence Act.''
Powertrain
    Amongst the most dramatic challenges facing all of us in the 
industry is the design of the powertrain that will be needed for the 
future. Although much of the focus of the automated vehicle debate has 
been on the safety aspects and the engineering requirements, such as 
redundancy, fail-safe operational modes and human machine interface 
(HMI) needed to bring this objective to fruition, the reality is that 
automated vehicles will also change the needs of the powertrain.
    Bosch is investing in the future by continuing to innovate new 
technologies that boost performance and efficiency and by investing in 
the many systems and advancements that we will be demanded by electric 
vehicles. At the North American International Auto Show (NAIAS) in 
Detroit last week, we featured our electric axle drive and our second 
generation 48-volt system (which provides improvements in fuel economy 
and performance). Bosch takes the challenge of the move to electric 
propulsion by offering a complete electric drive that is cost-
attractive, performance based and helps saving battery capacity due to 
its very high system efficiency. The Bosch eAxle platform is designed 
to support the full range of passenger car and commercial vehicle 
segments.
Smart Cities
    In assessing the landscape before us, Bosch also sees a shift in 
how consumers utilize their vehicles and the options that they expect 
in terms of mobility. One of the most notable challenges that we are 
facing as a global society is congestion and the difficulty associated 
with traffic management in our large cities. Urban traffic is predicted 
to triple by 2050. In the U.S., the average individual spends more than 
40 hours a year stuck in traffic, wasting more than $120 billion in 
time and fuel. In order to prepare for the mobility scenario of the 
future, we have launched several smart city projects in countries 
around the world. Today, half of Bosch's 14 smart city projects include 
urban mobility solutions such as connected parking, automated driving, 
fleet management, multimodal transport, electromobility, and vehicle 
connectivity (V2X and DSRC). After a successful pilot phase, Bosch 
intends to launch community-based parking in several U.S. cities this 
year. In places such as L.A., Miami, and Boston, the company will make 
real-time information about on-street parking available to car 
manufacturers. Drivers will be able to see on their navigation systems 
where there's a free space and drive directly to it. We have also 
announced a collaboration with Daimler to bring self-driving SAE Level 
4 and Level 5 vehicles to city streets by the start of the next decade. 
This will open up new horizons in particular for people with limited 
mobility.
The Workforce of the Future
    As we look forward to these advances and leaps within the industry, 
we cannot fail to address the demand for trained workers to fulfill the 
millions of jobs that will be needed to fuel the industry's 
transformation. Of Bosch's 390,000 associates worldwide, more than 
20,000 are software engineers, nearly 20 percent of whom are working 
exclusively on the IoT.
    Bosch recognizes the need to build and shape the manufacturing 
workforce for the future. As is the case with many of our partners in 
the industry, we encounter challenges in finding the right candidates 
for our open jobs and positions. Our strategy encompasses inspiring 
young minds and helping to generate an interest in science, technology, 
engineering and math (``STEM'') and careers in manufacturing. The 
strategy includes hands-on training for students who are enrolled in 
technical colleges and universities.
    Our investment also extends to our current associates. We provide 
access to a broad variety of training programs and skill-building 
initiatives to all of our team members. Bosch maintains several 
apprenticeship programs at its manufacturing facilities in the U.S. 
These programs enable students to receive hands-on training and gain 
valuable experience while working at a Bosch site. For example, the 
Bosch Rexroth plant in Fountain Inn, SC currently operates four U.S. 
Department of Labor-registered apprenticeship initiatives.
    Many of the participants of the apprenticeship programs transition 
to a Skilled Associate position with Bosch at the conclusion of their 
training. Bosch Rexroth has an active partnership with the Greenville, 
SC Technical College. In March 2016, the Bosch Community Fund (BCF) 
provided $62,500 to the Greenville Tech Foundation in order to 
establish a hydraulics simulation lab at the Greenville Technical 
College Center for Manufacturing Innovation.
    In addition to providing grants to support apprenticeship programs, 
the BCF also provides grants to fund educational programs focused on 
STEM, as well as manufacturing professional development for teachers. 
Last October the BCF awarded 7 grants totaling over $86,000 in the 
Owatonna, Minnesota community to support organizations and initiatives 
that provide students with robotics courses, career preparedness 
classes and manufacturing workshops. By investing in lab improvements, 
teacher training and enhancements in STEM and engineering curricula, 
the BCF is able to impact students' lives in the community and help to 
prepare the next generation for the workforce of the future. Since 
2014, the BCF has awarded more than $308,000 to schools and 
organizations in the Owatonna area, and the BCF is engaged in many 
similar efforts across the country.
    Bosch also supports both A World in Motion (AWIM) and First 
Robotics initiatives. Led by the Society of Automotive Engineers (SAE), 
AWIM works with children in kindergarten through 8th grade to bring 
science, technology, engineering and math education to life. Bosch 
volunteers work directly with children to complete challenges as a 
means to inspire them and build interest in STEM topics. Today, Bosch 
employees participating in AWIM are volunteering in nearly 80 
classrooms located near seven Bosch North American facilities to bring 
STEM education to life. This not only gives us the opportunity to get 
involved in our communities, but also helps us develop our future 
scientists and engineers. The Bosch Community Fund also provides 
support to AWIM. Under the aegis of the First Robotics program, Bosch 
opens its doors to high school students and they are invited to work 
with Bosch engineers to design and build a robotic solution.
Conclusion
    Thank you again for the opportunity to speak before the Committee. 
Bosch looks forward to continuing to work with each of you and with the 
Committee in the future. We would be pleased to provide additional 
technical information on any of these topics.
    I welcome any questions you may have.

    The Chairman. Thank you, Mr. Mansuetti.
    Mr. Schneider.

            STATEMENT OF LUKE SCHNEIDER, PRESIDENT, 
                       AUDI MOBILITY U.S.

    Mr. Schneider. Chairman Thune, Ranking Member Nelson, and 
Members of the Committee, I appreciate the opportunity to 
testify today, and thank you on behalf of the automotive 
industry and developers of automated vehicles for your 
leadership in working to enact the AV START Act.
    There is an urgency for the Senate to pass the AV START 
Act, because it will create for innovators a consistent, 
national regulatory framework for automated vehicles, and it is 
necessary to advance mobility solutions that will positively 
transform American cities, provide mobility to the elderly and 
the disabled, and ensure greater safety on our roads, a 
priority we share with your Committee and the Department of 
Transportation.
    Passage of this legislation will allow us to realize the 
three transportation revolutions we so often talk about: shared 
mobility, electrification, and automated vehicles enhanced by 
digitalization, which some consider a fourth. Automation and 
digitalization are disruptive innovations, especially for 
automakers, and we are driving this new future as an industry. 
The clear societal opportunities in what the related 
technologies can offer is what is motivating us to rethink 
mobility in the most comprehensive way since the 1890s.
    As the CEO of Silvercar, a disruptor in its own right, and 
the president of Audi Mobility U.S., I would like to share some 
insights into where this new frontier of automated, electric, 
and shared mobility as a service is headed.
    While some skeptics fear job dislocation from disruptive 
innovations, the fact is that disruptors have created new 
categories of jobs that did not exist before. Existing sectors 
will continue to expand and transform, and a range of new jobs 
will be created for workers across all skill levels.
    Audi is in the innovation business. Audi perfected all-
wheel driving on racetracks, and then offered that technology 
across our fleet. We were the first to take Google Earth mobile 
in our navigation system before it was on phones. We 
implemented LED lighting before it became an industry standard. 
And as we enter what many call the ``third wave'' of the 
technological revolution, the auto industry finds itself at the 
center of it all.
    There will be more industry innovation in the next decade 
than in the last century. The cost of batteries has gone down 
significantly while the number of sensors in the average 
vehicle has increased dramatically thanks to innovations in 
everything from capacity to size.
    The way we want to access transportation through the use 
and even ownership of vehicles is fundamentally changing, along 
with the other major consumer categories in our lives.
    Innovation will continue to be our legacy and our 
responsibility, but we will not be innovating just to sell more 
cars. We will be innovating to reduce fatalities, ease 
congestion, lessen emissions, and improve mobility for all.
    The most important benefit of all this innovation is 
safety. The innovations I mentioned earlier all have one thing 
in common: safety. All-wheel drive excels in the worst 
conditions. Navigation systems tell people exactly where to go, 
so they spend less time on the road even as they keep their 
eyes on it. Our lighting illuminates that road with the closest 
thing to daylight.
    But here is the staggering reality. One and a quarter 
million people die on our roads every year globally, and human 
error is the number one cause. Vehicle automation promises to 
improve safety on our roads and reduce collisions by as much as 
90 percent.
    But maybe even more exciting, it can also deliver basic 
access that tens of millions of people currently do not have. 
The elderly and those with disabilities will be able to move 
with far greater freedom and efficiency. In America, nearly 16 
million people 65 and older live in communities where public 
transportation is poor or nonexistent. Six million people with 
a disability have difficulty accessing transportation.
    For Audi, that is why we are delivering Level 3 automation 
as well as working to develop highly automated vehicles that 
need no human driver at the wheel. Automated vehicles have the 
potential to reduce fuel use and carbon emissions, since they 
are likely to be EVs, shared, and drive more efficiently than 
humans. And fewer crashes means fewer traffic jams.
    We want to work together to address the challenges facing 
cities and communities, like reducing fatalities, reducing 
congestion and pollution, maximizing scarce infrastructure 
dollars, and optimizing transportation flows. The new mobility 
options we are pursuing and the legislation you are working on 
will help us address this challenge.
    Thank you.
    [The prepared statement of Schneider follows:]

  Prepared Statement of Luke Schneider, President, Audi Mobility U.S.
    Chairman Thune, Ranking Member Nelson, and members of the 
Committee, I appreciate the opportunity to testify today. Thank you on 
behalf of the automotive industry and developers of automated vehicles 
for your leadership in working to enact the AV START Act. There is an 
urgency for the Senate to pass the AV START Act because it will create 
for innovators a consistent national regulatory framework for automated 
vehicles necessary to advance the new mobility solutions that will 
positively transform American cities, provide mobility to the elderly 
and disabled, and ensure greater safety on our roads, a priority we 
share with your Committee and the Department of Transportation.
    Passage of this legislation will allow us to realize the three 
transportation revolutions we so often talk about: shared mobility, 
electrification and automated vehicles, enhanced by digitalization.
    Automation and digitalization are disruptive innovations, 
especially for automakers, and we are adapting to this new future. The 
clear societal opportunities and what their related technologies can 
offer is what is motivating us to rethink mobility in the most 
comprehensive way since the 1890s.
    As the CEO of Silvercar, a disruptor in its own right (of the car 
rental business), and president of Audi Mobility U.S., I'd like to 
share some insights into where this new frontier of automated, 
electric, and shared mobility as a service is headed.
    While some skeptics fear job dislocation from disruptive 
innovations, the fact is disruptors have created new categories of jobs 
that didn't exist before. Existing sectors will continue to expand and 
transform, and a range of new jobs will be created for workers across 
all skill levels.
    Audi is in the innovation business. Audi perfected all-wheel 
driving on race tracks then offered that technology across our fleet. 
We were the first to take Google Earth mobile in our navigation system 
before it was on phones. We implemented LED lighting before it became 
an industry standard. As we enter what many call the ``third wave of 
the technological revolution,'' the auto industry finds itself at the 
center of it all.
    There will be more industry innovation in the next decade than the 
last century. The cost of batteries has gone down significantly, while 
the number of sensors in the average vehicle has increased dramatically 
thanks to innovations in everything from capacity to size. The way we 
want to access transportation, through the use and even ownership of 
vehicles, is fundamentally changing along with the other major consumer 
categories in our lives.
    Innovation will continue to be our legacy, and our responsibility. 
But we won't be innovating just to sell more cars. We'll be innovating 
to reduce fatalities, ease congestion, lessen emissions, and improve 
mobility for all.
    The most important benefit of this innovation is safety. The 
innovations I mentioned earlier all have one thing in common: Safety. 
All-wheel drive excels in the worst conditions. Navigation systems tell 
people exactly where to go so they spend less time on the road even as 
they keep their eyes on it. Our lighting illuminates that road with the 
closest thing to daylight. But here's the staggering reality: 1.25 
million people die on our roads every year globally. And human error is 
the number one cause. Vehicle automation promises to improve safety on 
our roads, and reduce collisions by as much as 90 percent.
    But it can also deliver basic access that tens of millions of 
people currently don't have. The elderly and those with disabilities 
will be able to move with far greater freedom and efficiency. In 
America, nearly 16 million people 65 and older live in communities 
where public transportation is poor or nonexistent. Six million people 
with a disability have difficulty accessing transportation.
    For Audi, that's why we are delivering Level 3 automation as well 
as working to develop highly automated vehicles that need no human 
driver at the wheel.
    Automated vehicles have the potential to reduce fuel use and carbon 
emissions since they are likely to be EVs, shared, and drive more 
efficiently than humans. And fewer crashes means fewer traffic jams.
    We want to work together to address the challenges facing cities 
and communities like reducing fatalities, reducing congestion and 
pollution, maximizing scarce infrastructure dollars and optimizing 
transportation flows. The new mobility options we are pursuing and the 
legislation you are working on will help us address these challenges.

    The Chairman. Thank you, Mr. Schneider.
    We are going to have 5-minute rounds of questions here. We 
will try to keep this moving as much as we can. But again, 
thank you for being here. Thank you for your testimony.
    I find this technology incredibly exciting, and I just look 
at the transformational impact it can have on our economy in 
terms of safety first and foremost, but second productivity, 
providing mobility for, as has been pointed out, communities of 
people that previously have not had access to it. And some of 
us up here have had the benefit, too, of being able to ride in 
some of these vehicles and see what is happening out there.
    But I have a question for you, and I am going to make this 
a two- or three-prong question, so I can try to cover a lot of 
ground here. But there are skeptics out there, and I know that 
a lot of it has to do with Americans like to drive and it is a 
difficult transition to integrate AVs into a national fleet, 
but how do we, one, build consumer trust and confidence in this 
technology? Two, how do you address the concern that people 
have about negative impacts on the labor market, people who 
drive vehicles, for example, as a profession? And three, one of 
the other concerns that I have heard is, how do you address the 
issue of cybersecurity? That question comes up with regard to 
this technology as well.
    So if you could speak to how we convince people this is a 
good thing, and we will come back. Those are at least three 
questions that I hear posed to me, and questions I would love 
to have you get an opportunity to answer. So feel free, whoever 
would like to take a stab at that.
    Mr. Mansuetti. Perhaps I will start. Thank you for those 
questions. We are also very concerned with those issues and 
have been working a lot to address those.
    To your first question regarding building consumer trust, 
that was one of the big things that we see that we need to do 
and is a job of the automotive industry. That is why we started 
the Bosch Mobility Academy.
    So when we talk to people and we talk to consumers about 
automated vehicles and are they ready to let go, many of them 
are not. They are ready to let go of certain functions; for 
example, parking. And we see parking as an early use case to 
help speed the adoption of automated vehicles, because who 
would not like to just get out, push a button, and have their 
car automatically valet parked or returned. And that helps to 
build the trust.
    So we would be happy to talk more, and we have this academy 
to help educate consumers on that.
    Regarding the labor impacts, I think we all stated that 
there will be quite a number of new jobs and new opportunities 
created. So on the manufacturing side, we continue to invest in 
apprentice programs and re-educating our workforce.
    And I think with the new business models that emerge, we 
are going to see tremendous opportunities. As vehicles become 
more highly utilized, the increased opportunities for 
maintenance and cleaning and different things of this nature 
will arise from these new business models.
    And cybersecurity is very important to us. So this all 
hinges on good, robust cybersecurity measures. We see 
cybersecurity kind of as a layered approach, if you think about 
it from an onion, starting at the basic silicon levels and 
building in technology and cybersecurity and the hardware and 
the connections, and then looking at the entire network from an 
intrusion detection system.
    So those are some of the things that we are working on.
    Mr. Schneider. I wanted to respond to that question with a 
few examples and a few instances in my personal experience.
    The first is, one of the great things about the AV START 
Act is that it contemplates consumer education in the bill 
itself, that the Department of Transportation alongside 
individual OEMs and other industry players and industry 
associations all really need to conspire to do this together, 
so that the consuming public can become more comfortable with 
the concept of a car driving itself.
    With respect to jobs, I can speak from personal experience 
there. We started a company, Silvercar, 5 years ago, created 
about 200 jobs in a very short period of time, all of which 
spanned a number of job categories. I think the big difference 
here is that the people employed in personal transportation are 
going to be working at some different things, not exactly the 
same things that they are working on today. That is fundamental 
to the nature of technology changing the way we move around. 
But we are optimistic about it because of the job classes and 
categorizations and the heavy technology orientation that they 
have had in companies like Silvercar.
    And the last piece of this is really about security. This 
is always going to be a concern. And, frankly, I think from a 
safety and security perspective, very few industries are as 
regulated as the automotive industry. What we look at is the 
ability to separate systems within cars, so that we do not 
impact driving systems or core systems, and we are still able 
to make use of the data that is generated by the use of these 
shared mobility systems to provide better and more efficient 
transportation.
    Mr. Kentley-Klay. Senator Thune, thank you for your three 
questions.
    To address them briefly, in terms of adoption, there is 
always a bell curve with a new technology. You have your early 
adopters. You have the mainstream in the middle. And then you 
have your laggards at the end that may never adopt the 
technology. In the case of aviation, even though it is one of 
the safest modes of transportation, some people still refuse to 
fly. Ironically, though, they will drive, even though it is 
much more dangerous.
    So I think the way to do this is you have to build trust 
with the community. This is happening today as developers 
develop this technology. There has been no injury by any 
developer of autonomous technology working in America yet from 
a vehicle that is driving itself. And yet, there has been many 
cases where the vehicles have been hit by human drivers.
    So I think by limiting the geographic domain of deployment 
of the vehicles in the first instance to, say, downtown areas, 
in lower speeds, in good weather, we can win the public's trust 
and expand the technology over time.
    In terms of the job space, people often talk about 
disruptive technology. I find that term a little bit myopic. I 
see us actually creating a constructive technology, correctly 
understood. For a new way to come into vogue in the mainstream, 
I think it has to be materially better than the incumbent.
    So I think what we are actually creating is a new way of 
doing things better, and that will lead to new job creation. 
And this is always the way with technology.
    If you look in America 100 years ago today, 40 percent of 
the workforce worked in agriculture. Today, it is less than 1 
percent, but we do not have 40 percent unemployment as a 
consequence, because of a whole new set of economies and jobs 
that we have. Just as there are more people and more revenue 
from the automobile industry than the horse and carriage 
industry, there are going to be more people working and more 
revenue in autonomous mobility era as well.
    So we see great opportunity here, and the challenge for 
society is, really, how do we reskill people to get the new job 
opportunities that will come from new technology?
    Finally, in security, that requires perpetual vigilance. 
Cybersecurity is always going to be a threat. It is probably 
not the best to disclose in intimate ways what our 
countermeasures are at Zoox, but it is something we think a lot 
about and something we would be happy to chat about offline.
    But one thing I would say is that it is important to 
understand the geometry of how these vehicles will work. In 
Zoox's case, we own and operate the vehicle, so a customer 
cannot buy it, and they cannot reverse engineer it in their 
garage to understand how to hack it or how it can work. To 
access the vehicle, you need to have a credit card and be part 
of a system, so we know who you are.
    And then we are tracking the vehicle. We know where you are 
and what you are doing.
    And then that vehicle is limited to the road network. The 
occupant in the vehicle has no capacity to take it off that 
road network as a bad actor.
    So if you add all that up, I think it means the technology 
is actually quite secure, and it is really not a good area for 
a bad actor to try to do something that would be negative for 
society.
    The Chairman. Senator Nelson.
    Senator Nelson. Dr. Avent and Mr. Kentley-Klay, if you 
would, paint the picture, as a result of autonomous vehicles, 
what the downtown streets of New York City, Manhattan, look 
like in the future.
    Dr. Avent. Just to follow on the conversation previously, I 
think that there is no magic bullet for consumer trust, and it 
is going to have to be built incrementally, and probably is 
going to lag behind the technology. So I think this technology 
is going to be adopted maybe a little bit slower than what many 
are predicting.
    But when it is adopted, I think that you will see 
interconnected computers that are scheduling each other. They 
are optimizing. They are adaptive. So downtown New York City 
will have vehicles on it. There probably will be fewer vehicles 
with more capacity because utilization of vehicles now is about 
5 percent, and parking will change significantly. I think that 
you will see vehicles communicate to each other and interact 
with the environment, so much safer and more efficient 
transportation.
    Senator Nelson. So will there be as much the need to 
purchase your own vehicle in the future, Mr. Kentley-Klay?
    Mr. Kentley-Klay. Senator Nelson, thank you for your 
question.
    While people love driving cars, people do not like driving 
a car in gridlock. It is not a good use of our time. It is 
already clear in cities, and Manhattan is a great example, the 
average car ownership is 0.6 per household. Nationally in 
America, it is a little bit under two.
    The demographics are quite clear, that young people see car 
ownership as a hassle. They have to park it. They have to do 
insurance. They had to do maintenance. They would much rather 
just have an on-demand model where they can pay for what they 
use. And when they are not using it, someone else is, which is 
a wonderful use of that product. It is getting high 
utilization.
    To address your question before, in terms of, how does this 
change Manhattan? I mean, Manhattan is the crown jewel for this 
technology, in many ways. There are actually 13,000 Ubers, 
Lyfts, and taxis operating on the island at any one time.
    In the opening stanzas of the technology, I think we are 
developing our technology to work in a mixed-mode environment. 
But beyond the launch of the technology, I think in the space 
of sort of 5 to 10 years, I think you will see cities creating 
disincentives for cars that pollute and that are human-driven 
to come into the most congested areas, and just to have 
autonomous mobility, and that will be transformational for the 
cities. You will reduce congestion. You will enhance the air 
quality within the city. You will be able to clean up the urban 
landscape. There is a lot of visual pollution from traffic 
lights, signposts, car parking. You will open up new lanes.
    So I think, from an urban-planning point of view, the 
technology actually holds great promise to actually refresh and 
reinvent our most dense urban areas to be safer and more 
enjoyable.
    Senator Nelson. Paint the picture of the future of travel 
from New York to Chicago, from Washington to Philadelphia. What 
is it going to look like? Anyone of you.
    And then I want to ask you, Mr. Schneider, since you are 
one of the auto companies, I want you to tell me why is this 
not threatening the purchase of your automobiles?
    Go ahead, paint the picture of this long-distance travel.
    Mr. Kentley-Klay. Well, I think it is going to be 
wonderful. Imagine the difference between a horse and carriage 
and the Model T Ford. That is an incredible transformation. And 
it is our belief that we are about to go through the same 
transformation in terms of the products that the general public 
will be able to access to enhance their ability to move across 
the country.
    Senator Nelson. So is it that we are going to have high-
speed, dedicated lanes that you are going to punch in that I 
want to go to Philadelphia or I want to go to Baltimore or New 
York or Boston? Is that what the future of long-distance travel 
is? Anybody?
    Mr. Kentley-Klay. I think you will see mixed-mode 
transportation. People will still fly and take trains, and they 
will drive cars. I think that technology will start in more 
dense urban areas first. But as it matures, it will lead to 
intercity travel, and it will be wonderful for people, because 
it will be safe. It will still work in a mixed-mode 
environment.
    Senator Nelson. OK, Mr. Schneider, why are you not dealing 
yourself out of business?
    Mr. Schneider. Well, this is a great question, and this is 
sort of at the heart of the matter.
    So what is great about this is that we as an industry are 
beginning to speak in terms that are typically more associated 
with the technology in the high-tech sectors, and that is in 
the form of use cases. Some mixed-mode, multiple-use cases, 
whether you are trying to get from point to point in a city or 
from city to city, inter-urban, suburban, there are so many 
different use cases for personal transportation that to think a 
$10 trillion global industry is going to be solved by a single 
solution is really not realistic, from our view.
    The way we look at this, and the reason why we as an 
automaker are excited about the future, is that in pretty much 
every other category that we consume--food, music, media, 
lodging--the consumer models either are changing or have 
changed. We buy things differently. We buy what we want. We pay 
for what we use. And we do it on our phone. And from our 
perspective, that concept of a consumer model where you are 
consuming this category of personal transportation is an 
entirely unexplored area, one that really marks the 
transformation of our industry.
    So whether you use public transportation, which we believe 
will still be an available option to go from place to place, or 
use a private conveyance, which is automated or in some other 
way even highly automated, is an option.
    The point is that getting from place to place will become a 
more efficient and a lower cost per passenger mile opportunity 
for people. We think that if you reduce that cost per passenger 
mile, then you will unlock demand for mobility. People view 
mobility and moving around as a basic need today, not a luxury 
or something like that, and that is exciting, because if you 
really believe that, and you are looking at the people who can 
create the assets that move people from place to place, 
fundamentally, that is what we do.
    So if the way we offer those up to the consuming public is 
different, just a different consumer model, then that is our 
obligation, to figure out how to serve them what they need.
    The Chairman. Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Gentlemen, clearly, we need automated 
microphones at this hearing.
    [Laughter.]
    Senator Wicker. Mr. Kentley-Klay, you said the AV START Act 
and the SELF-DRIVE Act are the right approaches. Mr. Schneider, 
you said there is an urgency to passing the AV START Act.
    So let me ask you, Mr. Mansuetti, have you looked at this 
legislation? And do you advocate the passage of it?
    Mr. Mansuetti. Yes, we support it. We appreciate the work 
that has been done, and it provides a clear and certain 
framework moving forward, so we very much support it and look 
forward to the passage.
    Senator Wicker. Doctor, we have taken a vote up here, and 
we cannot seem to get up a majority for how to pronounce your 
name, so would you help us?
    Dr. Avent. Yes, sir, it is Avent, just like what air comes 
out of.
    Senator Wicker. Just like the dairy in Oxford, Mississippi. 
OK.
    What do you think about this legislation? Is there an 
urgency to getting this done? And if we get it done, how soon 
will we see the fruits of it?
    Dr. Avent. I actually have not read it in its entirety, so 
I will pass on that question.
    Senator Wicker. OK, and that is fair enough. Let me ask 
you, then, who wants to talk about HOT CARS? Three of you have 
advocated the passage of this legislation. The AV bill contains 
the hot car provision, which I helped co-sponsor.
    There were approximately 755 child vehicular heatstroke 
fatalities in the United States between 1990 and 2015. We have 
heard concerns about the costs of this, but we have also heard 
that, with the development of sensors to detect the presence of 
other vehicles, we might as well go ahead and spend the extra 
$30 to $50 to incorporate heat-detection sensors in the 
backseats of vehicles.
    So let me start with you, Mr. Schneider, because you 
already have the Audi MMI connect App for smart phones with 
this level of precise sensing and mobile connectivity. Can that 
be a way to jumpstart the provision and save the lives of 
children in the backseats?
    And then other people might want to comment on this.
    Mr. Schneider. Sure. I appreciate the opportunity to 
respond to that.
    The ability to save lives in vehicles, regardless of how 
those lives are lost, is a priority for Audi. So the ability to 
use smart phone technology or wireless or anything, really, to 
improve the safety of vehicles, is in our best interest. So 
this is yet one other example, I think, of how we have shown a 
commitment to safety and how we believe that the passage of 
this bill and the ability to greater connect cars, both to 
terrestrial and in other locations, is important.
    Senator Wicker. How close is Audi to this capability?
    Mr. Schneider. I cannot speak to that directly, but I can 
definitely give you a response after the hearing.
    Senator Wicker. Anyone else want to comment? Mr. Kentley-
Klay?
    Mr. Kentley-Klay. Senator Wicker, thank you for your 
question. I think it is important to understand there are two 
directions this technology will develop. The first is 
automobiles that are sold to customers, they will have 
increasingly automated functions. And I cannot speak to hot 
cars in that category. The category that Zoox is developing is 
we do not sell the car. We own and operate the vehicle in a 
city, and customers pay per minute, per mile.
    In that case, our vehicle is designed to be deployed for up 
to 16 hours. We expect a utilization rate of 50 percent to 60 
percent, so we would condition the cabin throughout its 
deployment environment. It is never parked for a long period of 
time in a car park and getting hot. So the ability for that 
issue to be eradicated with our architecture is, I would say, 
complete.
    Senator Wicker. Mr. Mansuetti?
    Mr. Mansuetti. As we develop sensors for interior occupancy 
sensing and also driver monitoring, these technologies can also 
be used to do just that, to detect occupants in the car and 
also sense the temperature and provide a warning, so those are 
things we are looking at actively as we develop this 
technology.
    Senator Wicker. It seems like we ought to be able to do it 
without much cost.
    We have heard questions about infrastructure in New York, 
and we have heard questions about cross-country trips. We hope 
Congress is about to get a recommendation from the 
administration about an infrastructure bill. What do we need to 
include in infrastructure legislation that could facilitate the 
development of autonomous vehicles?
    Mr. Schneider. That is another great question, and one 
where I think we have to take this initiative in the right 
perspective. So while many would like to think that tomorrow we 
are going to see autonomous vehicles connected and taking us 
where we want to go, the reality is that this will be a longer 
term, more of an evolution than a revolution.
    So specifically, what we need in an infrastructure bill 
today is not something, I do not think, anybody can comment on 
specifically. But what we do need is the ability to put more 
vehicles on the road, to test them, to understand where the 
pinch points are, where the safety compromises might be, and to 
be able to very accurately and clearly communicate that to an 
administration and a legislature that has the ability to enact 
and improve those conditions.
    The Chairman. Thank you, Senator Wicker.
    Senator Peters.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman. I want to thank 
Chairman Thune and Ranking Member Nelson for hosting this 
meeting.
    I will say this is the best-attended Committee meeting I 
have been to since I have been a Member of this Committee, so 
maybe we need to have more meetings here at the auto show, Mr. 
Chairman, or just have more hearings about an incredibly 
exciting topic.
    It is really a pleasure to be here with the industry.
    And, Senator Thune, thank you so much for your leadership 
on this bill. I think we all saw his passion in his opening 
comments. And I enjoy working with him because he is a no-
nonsense Senator. You can tell that by the fact that he asked 
the three big questions right out of the box, like no-nonsense, 
let's get right to the core of this.
    And that is what you have done all along. Thank you, Mr. 
Chairman.
    And, Senator Nelson, thank you for being there every step 
of the way as well and working with all of us to make this a 
reality.
    And I agree, this technology is transformative. You can 
call it disruptive or creative. It is all of those things. In 
fact, I believe it is the biggest thing to happen to the auto 
industry since the first car came off of the assembly line, and 
we all know that was a pretty big deal for the auto industry to 
have an assembly line. And this will be equally as big, and it 
is happening faster than I think the public realizes.
    Given the fact that General Motors, as Senator Nelson 
mentioned, has already announced for 2019 to have these cars. 
The Ford Motor Company is going to have a self-driving car off 
their assembly line, they have announced, by 2021. Other 
companies are making similar claims.
    I was just at the Detroit auto show last week, which is an 
incredible show, and they were featuring a number of self-
driving cars, including the Ford Motor self-driving car that 
they are working on and testing in Ann Arbor, Michigan, that 
delivers pizzas, Domino's pizzas, to your door, which is 
innovative and just one example of all the things that are 
going to happen as a result of this.
    But in order for that to happen, and this topic has already 
been brought up about consumer trust, we are certainly aware of 
that. You have to win trust because this is a new thing for 
consumers, that they have to feel comfortable. That can be a 
potential limiting factor to it.
    So the legislation before us, the AV START Act, actually 
creates a requirement that the Department of Transportation 
work with both industry and other government agencies to 
advance responsible consumer education. Central to that, in my 
mind, is to make sure consumers understand what these cars can 
and cannot do, particularly before we get to Level 4 and 5. 
There is always an issue related to the car may not do 
everything you think it is, and you will expect it can, and 
then something bad will happen as a result of that.
    If those kinds of accidents occur, we can expect to have 
significant consumer pushback on this technology, if we are not 
doing it right or we are not doing it in a way that fully 
informs consumers.
    So my question to you, this is required in the legislation, 
is how will your companies, or some ideas of how we will 
accomplish that to make sure that, before anybody gets in that 
car, they understand what this car can or cannot do? Given that 
requirement in this bill, how will you react to it? Anyone can 
start.
    Dr. Avent. I may differ a little bit from some of the other 
panelists in that I think open-city testing alone is not the 
right option. It is only one piece of a very thorough and 
integrated approach to testing.
    The problem with open-city testing is that your events 
aren't controllable. They are real world, which is a great 
thing and something that needs to be done, but you cannot 
control events, and it is hard sometimes to observe them, and 
it is certainly hard to repeat them.
    So I think you need a holistic approach, an integrated 
approach, to testing to build the trust. That includes 
everything from simulation and emulation, where you can really 
control and run lots of test cases, to closed-track testing, 
where you can focus on those edge cases.
    For instance, like Senator Nelson said today, when someone 
makes a U-turn out in the middle of the road, that is a six 
sigma event that happens once in a million times, 
unfortunately, but there will be lots of those cases. For 
instance, the Tesla that was in the automobile accident where a 
white truck pulled out in front of it, and the sun was just in 
the perfect location that it could not see it, the sensor could 
not see it, and it ran into it.
    There will be a vehicle that is going down the road in 
Kentucky that has potholes on it, no lanes on it, and a horse 
will run out in front of it. Those are the rare events that you 
are not going to be able to get in-city exclusively, so you 
have to build an infrastructure that allows you to test all 
those cases and really characterize when it works, and when it 
does not work.
    And for those cases where it does not work, what can we do 
to improve that? I think that is going to take a little bit of 
time to do that.
    Senator Peters. Anyone else?
    Mr. Mansuetti. Thank you, Senator Peters. I would say, as I 
mentioned before, this awareness and education of the consumer, 
we have a duty as an industry to do this, and I would liken it 
to when we introduced electronic stability control. We were 
early innovators in ABS. This is a foundational element of 
automated driving. We really undertook, together with the 
insurance industry and other industries, to educate the public 
on how to use this particular safety system and what is 
happening when it is in use.
    So I think we have to continue to demonstrate through good 
use cases--I mentioned before the example of parking--that 
people can become familiar in a safe environment and begin to 
trust the overall technology. I think that is happening as we 
introduce some of these safety features in the vehicles today, 
like automatic emergency braking or lane departure warning or 
adaptive cruise control. So I think people will become more 
familiar.
    And as more technology is available on the road, we will 
continue to build that consumer trust.
    Senator Peters. Dr. Avent, if I may just ask a quick 
question, because you brought up the point of having not just 
city testing but testing in other environments, including 
proving grounds. Of course, you are one of the automated 
vehicle proving grounds that has been designated. We have one 
in Michigan. I see Mr. Maddox here from the American Center for 
Mobility.
    How are these proving grounds operating? How do you feel 
where we are with them, how important they are? And what can we 
do in Congress to make your work and the other nine proving 
grounds work more efficiently?
    Dr. Avent. I think they are emerging, and they are evolving 
over time as the technology evolves, and they are being 
responsive to how the technology is going. I think they are a 
critical part. Like I said, one of the big advantages of these 
test grounds is that you can control the events and you can 
experiment with it, so you can take those fringe test cases 
that technology really is not quite mature for and you can 
experiment around them and really understand when and where 
this technology works.
    As you mentioned, there are 10 sites across the Nation that 
have been chosen as testing grounds, and all of them are going 
to have a little bit different expertise, so I do not think 
there is a winner-take-all approach to it. I think you need 
multiple people doing different things and integrating it all 
together.
    I think that these test grounds can provide a valuable 
interface to the government to help with regulations, because 
it can provide data and a science-based approach to what 
regulations need to be and what ones do not need to be. I think 
many of them are attached to universities, which I think is a 
great thing, because universities are independent. They are 
unbiased. They do not have anything in this market, and they 
can provide real, true advice.
    Senator Peters. Thank you.
    The Chairman. Thank you, Senator Peters. And by the way, 
thanks for your great work on this and continued work trying to 
get this cleared through the Senate.
    Next up is Senator Heller.

                STATEMENT OF HON. DEAN HELLER, 
                    U.S. SENATOR FROM NEVADA

    Senator Heller. Mr. Chairman, thank you for this work. I 
want to thank our panelists for being here. Clearly, with the 
size of the crowd we have here today, there is a tremendous 
amount of interest in this technology.
    I am kind of proud that Nevada has been one of the leaders 
in driverless technology. We were the very first state to pass 
autonomous vehicle legislation in 2011 that paved the way for 
testing. And last year, Nevada also passed a full 
implementation of autonomous vehicles for personal and 
commercial use, and we now have autonomous trucks and buses 
that are testing on our roads.
    So in Nevada, we have nearly a half million seniors. We 
have about 275,000 disabled individuals. We also have 300,000 
veterans. I think my father-in-law and my father fall in all 
three of those categories. But needless to say, for these 
individuals, this technology will bring them, I think, greater 
independence and greater mobility.
    Having said all that, my experience in this, without 
telling you my age, everybody younger than me loves this 
technology. Everybody that is older, they are a little worried 
about this technology. So we have a lot of work to do.
    But I do believe that there is a real opportunity. I know 
that most people on this panel have probably, at one time or 
another, had an opportunity to be in an autonomous vehicle. In 
fact, 20 years ago, I was at CES, and they had the latest and 
greatest piece of equipment, and that was a hydrogen vehicle 
that could go about 60 miles on a tank of gas at 30 miles an 
hour and cost $1 million. Here we are 20 years later, Tesla has 
Model 3, and it is $35,000 and will go 500 miles, and it will 
go 80 miles an hour. So it is amazing how much things have 
changed in the last 20 years.
    In fact, last year at CES, I was in an Audi with Delphi 
technology and was able to drive seven miles on the freeway, 
get off the freeway, in an autonomous vehicle. There was 
somebody in the driver's seat, but their hands were off the 
wheel and were off the brakes and the gas pedal. It is just 
fascinating to see just what has happened in the last 20 years.
    Mr. Kentley-Klay, you talked a little about the future. I 
know Senator Nelson talked about 20 years from now. It sounds 
like to me that the equipment and the technology that you are 
offering, it sounds like, 20 years from now, no one will own a 
vehicle.
    Mr. Kentley-Klay. Senator Heller, thank you for your 
question. I think it was in 1908 that the Model T Ford shipped. 
How long did it take before the coach builders were out of 
business? If you look back historically, it was around 2 
decades.
    I think with the safety case in this technology and how 
quickly we can advance it, well within 2 decades, I think 
everyone will be driving automated vehicles or using shared 
automated mobility, because that is what we need to do to make 
the roads safe.
    Senator Heller. Talking rural vehicles or rural areas, I am 
part of that 1 percent of those farmers you were mentioning. We 
had 303 vehicular deaths last year in Nevada. More than half of 
them happened in the rural portions of the state.
    What kind of testing is being done out in the rural 
portions? Even though it is less than 20 percent of the 
population, rural America, it still has an above average 
vehicular death rate.
    What are we going to do for--Dr. Avent talked about 
animals. How are we going to ensure that, in the rural 
portions, where these accidents do occur, that they are being 
tested?
    Mr. Kentley-Klay. I am reminded of the Arthur C. Clarke 
quote, ``Any sufficiently advanced technology is 
indistinguishable from magic.'' This is a really new 
technology. To people in rural areas or in cities, it might 
look like magic, but to developers, this is advanced 
technology. And we understand what we are building and how it 
works.
    In fact, the way our vehicles are engineered, we do not 
have to understand that it is a horse or a squirrel or a person 
to know that there is something there and we need to stop. And 
so we can engineer the vehicles that understand abstractly what 
is happening geometrically in the environment to get the 
requisite safety we need, and what we really need to do is take 
the public, everyone in America, on the journey of how this 
technology works so that they can understand it, to get the 
assurance that they need that it is safe.
    Senator Heller. Let me ask you one more question really 
quickly before I run out of time, and that is, why was it 
advantageous for you to go from Australia to the United States 
to do your work here as opposed to your own home country?
    Mr. Kentley-Klay. Thank you for the question. I think the 
intersection of creativity, capital, and computer science in 
America is unprecedented. And to create the technology that we 
do, we need the engineering depth of talent that is in this 
country that we can access to scale. We need investors that are 
brave enough to invest in such an advanced technology. And we 
need the connections that are in this country, because it is 
integrated, to bring the right set of peoples together, even 
working with you today, to make this technology a reality.
    The Chairman. Thank you, Senator Heller.
    Next up is Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you, Mr. Chair and Ranking Member 
Nelson.
    Thank you to all of the witnesses for being here and for 
the work you are doing. This is, indeed, very exciting 
technology and really represents the potential for enormous 
innovation in all aspects of American life and global life, 
actually. So thank you for the work you are doing.
    I wanted to drill down on a couple things. I happen to be 
the mom of a 29-year-old young man with very severe 
disabilities, so much of what you talk about is very exciting 
for those of us who live in a world in which we have a family 
member with a disability. But it is also a reminder that people 
who do not have disabilities often think they know what 
solutions are for people who experience disabilities, and they 
forget to talk to people who actually experience disabilities, 
example being, ``Yes, Mrs. Hassan, the entryway is accessible 
for your son in a wheelchair,'' to find that there is a little, 
tiny lift without the adequate turning radius to get a 
particular kind of wheelchair in and out, right?
    So can you all just talk to me about what interactions you 
are having with people who might represent the disability 
community to really understand and drill down on what the 
different populations within that community will need?
    Mr. Schneider. This is an immensely important topic, and it 
is one in a very recent personal experience I came to 
understand in a much more profound way of someone with a 
disability and the challenges associated with getting into and 
out of a vehicle to do some very simple things.
    The reality is that automated vehicles hold the potential 
for greater self-sufficiency and the ability to provide a basic 
level of mobility for persons with disabilities that does not 
exist there today. And the way we think about that is really 
the way we think about engineering almost any system, which is 
to understand that customer's journey, to try to think through 
the very specific moments that matter and the points of 
considerable duress that are undergone, and to really 
understand and factor into our engineering models the many 
differences faced by people with disabilities, because 
disabilities are not all the same. There is a wide, wide 
variety.
    Our work with ADA compliance and with other regulations has 
given us as an industry a very deep respect for the need to 
provide mobility and transportation for all. And this is yet 
another case where it is a very exciting moment in time.
    Senator Hassan. Thank you.
    Anybody else just briefly, because I do have a couple other 
questions?
    The second question, shifting to some of the concerns I 
hear from consumers and constituents is, because of the 
technological innovations that drive AV, you all will have an 
awful lot of consumer data available to you. So the question 
is, what information will be collected on consumers who 
purchase AVs? What is the industry doing to protect the data 
from being sold and shared without the consumer's consent? And 
how easily can consumers access and change what data is 
collected and shared about them?
    Anybody?
    Mr. Mansuetti. Maybe I will start. Consumer data, and 
especially security and privacy, is very important, so we 
believe that, first and foremost, we need to protect this data. 
We also need to have consent to use the data.
    As to the extent of what data will be collected and how it 
will be shared and how it will be used, I think that continues 
to develop as these business models develop. But for us, in 
developing the technology, it is first and foremost how we 
protect this data and data security.
    Senator Hassan. Anybody else?
    All right, last question, which we probably cannot handle 
in 48 seconds, and I will submit it in writing, but I am a 
former Governor, and I am sitting here listening to all the 
things that State and local governments are going to need to be 
thinking about to accommodate and help launch this technology, 
everything from, what kind of roads do we build, right? Where 
do we build them? How do we deal with the reality that there 
are bad actors out there who would like to try to infiltrate 
the systems--the software systems that run this technology? 
This becomes critical infrastructure. How are we going to 
partner and deal with that?
    How are we going to deal with job training for the next 
generation and for the people who are today going to be 
displaced by this technology?
    And last, there is always that question in rural America, 
which is, how do we get out this new technology and 
infrastructure to that last mile where population, or in my 
case, in New Hampshire, the last two-thirds of my state--it 
isn't the last. It is the first to everybody who lives in my 
north country. But two-thirds of my state is populated by 
52,000 people. And so how are we going to leverage what we need 
to leverage and get this technology out to the least densely 
populated places in our country so that everybody has the 
freedom and the economic advantage that this technology poses?
    We will submit that in writing, and I look forward to 
working with you guys on that.
    The Chairman. Thank you, Senator Hassan. We will make sure 
we get that responded to.
    Senator Inhofe is up next.

                 STATEMENT OF HON. JIM INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, every time you ask for a yes or no answer, 
you do not get a yes or no answer, so I am going to test you 
guys. I have two questions I am going to ask and listen very 
carefully.
    First of all, I want to say, Mr. Kentley-Klay, you are the 
only one in your opening statement that used a couple of 
phrases that I like to use, one being ``level playing field,'' 
and the other, ``government without picking winners.''
    So here is the first question. Since we are at the auto 
show, I want to highlight an issue that is of concern to me and 
perhaps to others who are here today, which we do not talk much 
about, the fact that Federal policy is stacked against liquid 
fuels. This year's auto show is debuting the most electric 
vehicles ever. But electric vehicles do not even make up 1 
percent of the Nation's auto sales, and auto manufacturers are 
producing more and more of them, of course. Why?
    As Merrill Matthews, a scholar at the Institute for Policy 
Innovation, puts it, ``carmakers are building cars and trucks 
the government wants their consumers to have, and that means 
electrical vehicles.''
    In 1975, Congress created a law to help with the fuel 
shortage situation by establishing the Corporate Average Fuel 
Economy, or CAFE standards. We no longer have a fuel shortage 
issue, but that did not stop the Obama Administration and 
California from ensuring standards kept increasing beyond the 
technology, what you can do to force their electric car 
fantasies on the rest of us.
    But consumers want trucks and SUVs. They make up two-thirds 
of the vehicles sold. Yet these vehicles do not help automakers 
meet current DOT and EPA regulations, so they make more and 
more electrics to lower the overall mileage at a significant 
loss.
    Additionally, taxpayers are on the hook for up to $7,500 
per electric or hybrid vehicle sold today in the form of tax 
credits. When Hong Kong ended their tax credit, the sales 
dropped significantly, which goes to show you that people want 
to make their own decisions. So as electric vehicles are forced 
onto the U.S. consumer, the liquid fuel industry, and I am 
talking about oil and gas and ethanol, will be wondering why 
their government abandoned them in pursuit of the California 
dream.
    The Federal Government should not be in the business of 
dictating to consumers what type of cars they should have or 
creating winners and losers.
    So question number one, do you believe the Federal 
Government should be in the business of dictating to consumers 
what types of cars they should have and creating winners and 
losers?
    Let's start with you, Mr. Klay. Yes or no?
    Mr. Kentley-Klay. No.
    Senator Inhofe. Very good. How about you, Doctor?
    Dr. Avent. No.
    Mr. Mansuetti. So the question is of the government picking 
winners and losers, that was your main question? No.
    Mr. Schneider. Do we have time?
    Senator Inhofe. Yes, go ahead.
    Mr. Schneider. On the issue of level playing fields and the 
government picking winners and losers, we believe the consumers 
should have the choice.
    Senator Inhofe. Good for you. All of you, I am proud of 
you.
    Now the last question is, the promise of automatic vehicle 
technology will impact all the users of our Nation's highways 
and transportation system.
    You highlight, and this would be to you, again, starting 
Mr. Klay, you highlight in your testimony the strong safety 
benefits that come with more autonomous vehicles on the road. 
Do you believe that these benefits can be or should be realized 
by all motor vehicles, including trucks which are driving on 
the roads today? Yes or no?
    Mr. Kentley-Klay. Thank you for the question. I believe 
this technology will expand to all modes of technology and 
transportation.
    Senator Inhofe. Yes or no? That is yes.
    OK, go ahead, the rest of you, please.
    Dr. Avent. I do not think that it has to be done, but I 
think it certainly could be an advantage.
    Senator Inhofe. OK, your answer, Mr. Mansuetti?
    Mr. Mansuetti. Yes, this can be helpful.
    Senator Inhofe. Thank you.
    Mr. Schneider?
    Mr. Schneider. I agree.
    Senator Inhofe. OK.
    Dr. Avent, what justifies the exceptions of not having this 
apply to trucks, in your mind?
    Dr. Avent. I do not think there is an exception. I think 
that, again, it can be market-motivated. But I think that the 
technology certainly can help that industry tremendously.
    Senator Inhofe. That is good. Good answer.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Inhofe.
    Senator Lee is up next.

                  STATEMENT OF HON. MIKE LEE, 
                     U.S. SENATOR FROM UTAH

    Senator Lee. Thanks very much to each of you for being here 
and for answering your questions. We are on the precipice of a 
groundbreaking technological revolution, one that combines 
computing power with telecommunications abilities, sensing 
abilities, so as to really change the way the American people 
interact with their means of transportation. And it has the 
power, simultaneously, to make us healthier, to make us safer.
    One of the things that I worry about in this circumstance 
is that the only thing that can stop this technological 
revolution from taking place and from improving the lives of 
330 Americans is the government itself.
    I worry, for example, about the push that some are seeming 
to desire, to depart from our traditional regulatory processes 
and to add an additional layer here, specifically for you, 
specifically for this technology. I shudder at the thought of 
what the government might have done had premarket approval been 
a prerequisite for starting some of the technologies that 
brought the Internet to life for the American people, or if 
premarket approval had stifled any of the number of innovations 
that make the lives of the American people better from day-to-
day.
    So Mr. Kentley-Klay, I would like to start with you and ask 
you a question regarding how regulations like NHTSA premarket 
approval might stifle innovation in this industry from your 
perspective?
    Mr. Kentley-Klay. Senator, thank you for your question. I 
do not know that NHTSA actually has a regulation out for 
premarket approval, but our view is that, with a new 
technology, you definitely do not want to stifle it. At the 
same time, we need to deploy it in a safe and risk-managed way. 
And the right way to do that is exactly what we are doing here 
today, having informed conversation so that all stakeholders 
understand the politics of what is being created and making the 
right judgment calls about how to bring it into reality.
    Senator Lee. And it is not in your interests, it is not 
your desire to make an unsafe vehicle, correct?
    Mr. Kentley-Klay. Absolutely not. I mean, I would say that, 
today, in the states of Michigan and Florida and I think 
Arizona as well, you legally could drive a vehicle with no one 
sitting behind the wheel, but no developer is doing that 
because they are making the judgment themselves that the 
technology is not ready.
    Senator Lee. Right. And if you did make that judgment call 
and you went for it, people would not drive that vehicle, 
people would not purchase that vehicle, people would not buy 
stock in the company, people would not invest in that company.
    Mr. Kentley-Klay. It would be incredibly counterproductive 
to spend years and billions of dollars developing the 
technology to release it prematurely and have people lose 
confidence in the technology.
    Senator Lee. By the same token, you are not asking for a 
regulation-free environment. You are not asking for the 
government to stay out of this entirely and to pretend as if 
this were the Wild West in which there are no rules?
    Mr. Kentley-Klay. Absolutely not. We are asking for an 
informed conversation to, in a risk-managed way, deploy the 
technology in a way that expedites its benefits.
    Senator Lee. Aren't there, in fact, some safety-related 
risks that could result in the wake of and precisely because of 
an overly aggressive Federal Government regulatory regime?
    Mr. Kentley-Klay. That is a potential outcome, yes.
    Senator Lee. In other words, isn't there a very real risk 
with an emerging technology like this one that the government 
sets a standard, and that standard could become at once the 
floor and the ceiling, thus stifling innovation?
    Mr. Kentley-Klay. I think standards should be set based on 
data, and we do not quite have the data yet. So if we set 
standards before we fully understand what we are creating, we 
could stifle innovation.
    Senator Lee. Just about two weeks ago, Secretary Elaine 
Chao, the head of the U.S. Department of Transportation, made 
an announcement that the Department of Transportation would be 
seeking public input across the transportation industry to 
``identify barriers to innovation and shape initiatives.''
    I would like to ask each of you, in the moment we have 
remaining, in just a few seconds, tell me what you think the 
biggest barriers to innovation are?
    We will start with you, Dr. Avent.
    Dr. Avent. I do think the application of all existing 
regulatory policies is not best--because it is completely 
different, and it is a new frontier, and we have to be careful 
of taking existing policies and regulating based on those.
    Senator Lee. Mr. Kentley-Klay?
    Mr. Kentley-Klay. I would commend Senator Thune and Senator 
Nelson on their opening remarks. I think you guys get it. As a 
new entrant into this new era of mobility, the biggest barrier 
to innovation would be an incumbent trying to make it difficult 
for us to deploy the technology when we actually know what we 
are doing.
    Senator Lee. To drive out would-be competitors.
    Mr. Kentley-Klay. That is right.
    Senator Lee. Mr. Mansuetti?
    Mr. Mansuetti. We must be careful not to overregulate here, 
and that is why we are in such strong support of the AV START 
bill. I think you guys are doing exactly the right thing that 
allows us to continue to innovate iteratively on these 
technologies and bring them to market as safely and quickly as 
we can.
    Senator Lee. Well-said. I tend to agree.
    Mr. Schneider?
    Mr. Schneider. I think you said it in your opening 
comments. There is a confluence of technological changes 
happening, and to properly regulate this so that that does not 
prohibit innovation while maintaining the safety that we all 
require.
    Senator Lee. Thank you very much. I see my time has 
expired.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Lee.
    Senator Capito.

            STATEMENT OF HON. SHELLEY MOORE CAPITO, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Capito. Thank you, Mr. Chairman, Ranking Member. 
And I thank all of you. It has been a very interesting hearing.
    I wanted to touch on a subject that I think Mr. Mansuetti 
mentioned in his opening statement, and that is the workforce 
issues here. I would imagine, at this point, with the 
innovation that is going forward, it is pretty highly 
technically advanced degrees, engineering and computer science 
types of innovationists that have gotten us to this point. But 
for the workforce of tomorrow to meet the challenges of the AV 
technology, you mentioned apprenticeships. You mentioned grants 
for STEM and then professional development for teachers.
    I am wondering how you think this will impact the jobs of 
the future, because we have heard a little bit about how it is 
going to impact the jobs of the future in a negative way, in 
the development and in the training. And I also would like to 
just remind everybody that, in the STEM fields, women and 
minorities are very underrepresented, and it is important that 
we spur that next generation into what I think is going to be a 
very exciting field.
    So, Mr. Mansuetti?
    Mr. Mansuetti. I think, first, when you look at the current 
state we are in when we are developing the technology, the 
technology is very exciting, and we are being able to attract a 
lot more of these STEM candidates into things like autonomous 
driving. If you look at the automotive industry, that has been 
kind of stigmatized as, ``Do I want to go into the automotive 
industry?'' which was once seen as perhaps dying.
    So now we are seeing a lot of excitement generated and 
being able to attract those candidates to work on the exciting 
new technology.
    I think, in the future, as we discussed, the jobs will be 
changing in mobility. So when we look at just a simple case 
with the auto itself, whether it is a car that we have today, 
an electrified vehicle, or maybe even a shared taxi, with the 
increased utilization, there is going to be more and different 
types of maintenance functions, for example.
    So we will see new opportunities opening up along all these 
different lines of how the technology is deployed, and then in 
these use cases, as we go to a shared mobility.
    So I think the importance is to continue to train the 
workforce, educate them in these new opportunities, and be 
ready for the new jobs of the future.
    Senator Capito. Dr. Avent, do you have a comment on that?
    Dr. Avent. Yes, I think exactly the same thing. Certainly, 
the technology relevant in this is going to be around new 
fields, around machine intelligence, around artificial 
intelligence, which is computer-science-based. Certainly, there 
is going to be a lot of sensor developments related to this 
that are going to have to take place. So technology around 
STEM, and particularly what we called core STEM, which is the 
engineering, mathematical, and physical sciences, are going to 
be very relevant.
    Senator Capito. The opportunities are going to be all up 
and down the scale here. It is not just going to be at the high 
end, probably where it is now on the development portion.
    Dr. Avent. On the development portion, but also, they are 
going to have to be maintained. They are going to have to be 
improved. So really all up and down the scales.
    Senator Capito. My second question involves partners. We 
talked about some partnerships, but I am curious to know, it is 
going to change the face of the highway in terms of road signs 
and indicators, so that the car can pick up indicators rather 
than the human eye picking up indicators.
    I am wondering what kind of partnerships you have with road 
builders and State DOTs and local transportation authorities?
    Mr. Kentley-Klay?
    Dr. Avent, did you have a response to that?
    Dr. Avent. In the case of Florida Polytechnic University, 
we have a partnership with the Florida Turnpike Enterprise, 
which is a part of the Florida Department of Transportation, 
and we are working hand-in-hand with them on exactly those 
types of things, and experimenting on a closed-loop test track.
    Senator Capito. So, Mr. Kentley-Klay, you are already doing 
this. So what kind of coordination do you have with your local 
transportation authority, sign makers, all those things?
    Mr. Kentley-Klay. Senator, thank you for your question. 
This overlaps a little bit with the previous question about 
infrastructure and spending, and should that be deployed in the 
area of autonomous vehicles.
    Our view is that we are developing the technology to work 
with infrastructure as-is. We do not require new signs, new 
lane markings, or anything like that for the technology to be 
introduced into the market and scale. We think if we had that 
dependency, it would cripple our ability to bring the 
technology into the marketplace.
    There is various talk of technologies where traffic lights 
can talk to vehicles, or vehicles can talk to other vehicles or 
pedestrians. They are interesting, in theory, but the problem 
with those technologies is, if you are actually dependent on 
them, if there is a fault, then the system will fault. So we 
are developing our systems in a way that they are robust 
without dependencies on any sort of infrastructure changes.
    Senator Capito. That is good to hear. Thank you.
    Mr. Mansuetti, did you have an additional comment?
    Mr. Mansuetti. With regard to partnerships, we are doing a 
lot with cities around the country, especially in this area of 
smart city development, so we are involved a lot within their 
department of transportations and what they are doing on the 
mobility front in cities. So that has been very interesting.
    The Chairman. Thank you, Senator Moore.
    Senator Young.

                 STATEMENT OF HON. TODD YOUNG, 
                   U.S. SENATOR FROM INDIANA

    Senator Young. Thank you, Chairman. This has been a very 
interesting hearing. There are a lot of reasons for optimism 
and outright excitement moving forward as these technologies 
develop.
    I think the thing perhaps I am most excited about are the 
potential changes to the quality-of-life of a disabled person, 
of an elderly person, of someone who happens to be site-
impaired. It is going to give them a new sense of independence, 
to be more mobile, improve their quality-of-life. You can see 
them integrating into the workforce more.
    Mr. Kentley-Klay, you talk about this in your testimony, 
how there have been previous mobility ages, I think as you 
referred to them, and how AI is going to bring on a new 
mobility age.
    Could you unpack this concept, this new mobility age a bit 
for us, please? And just try to paint a picture of how the 
lives of our disabled and elderly Americans might change as 
this technology evolves.
    Mr. Kentley-Klay. Certainly, Senator. Thank you for your 
question.
    The pace of change is accelerating. The previous mobility 
age was, of course, the horse and carriage. It was actually 
around 4000 B.C. that we domesticated the horse and put the 
axle on the wheel, and that gave us coach building, and that 
was a huge change for society on that day because we could move 
goods at a much more expeditious rate.
    That was 6,000 years ago. It looks like we are about to 
leave the automobile age, which we have been in for around 130 
years, so it is a much, much more compressed time span, and go 
to the age of fully automated transportation, which is coming. 
There is no unobtainium that needs to be created to create this 
technology. We understand what we need to do, and it is now 
just a lot of elbow grease to make it ready for commercial 
operation.
    So the change is happening. And we are excited, as many 
people have commented, that this technology will increase 
access. Our mission statement is connecting people and places, 
and that is people without qualification, and that is what we 
want to enhance.
    Senator Young. Does anyone have anything to add?
    Dr. Avent?
    Dr. Avent. Thank you. I think if you look at a lot of 
industries, they start off as a craftsman model. Then over 
time, they become more efficient by becoming software-managed 
industries.
    I think in the case of transportation, it is still a 
craftsman model. We teach a driver how to drive. They get 
behind the wheel. This is the natural progression of that 
industry, to move over to a much more software-managed 
industry. They become much more efficient. As part of that, we 
do not to teach people how to drive. It will improve access to 
a lot of people that generally do not get that.
    Senator Young. Mr. Mansuetti, let me turn to discussing 
something others have touched down, the workforce of the 
future. I know that Bosch at least appears to have thought 
pretty creatively about this, from the manufacturing 
professional development programs to STEM to apprenticeship 
programs. Continued career and technical education we know will 
be needed to alleviate any shortfall in the workforce and make 
sure that workers have the skillset required to fill the jobs 
of the future in this space.
    Could you discuss what role you see moving forward for 
government, particularly the Federal Government, but maybe 
government generally, in making sure that companies like yours 
will have access to the skilled workforce that they need?
    Mr. Mansuetti. I think that is going to be very important 
in the future. As we look today, there is a shortage of skilled 
workers, so we need to continue to expose and be able to train 
and qualify the workforce of the future. I think that requires 
a partnership between State and local and Federal officials, as 
well as industry.
    We kind of need to look at the K-through-graduate education 
model and getting those things to work together. Many times, we 
see that there are disconnects when you go through certain 
education systems. So we are trying to partner not only with 
universities but also, for example, where we are working, where 
we are heavily involved in manufacturing, for example, in the 
Southeast, working together with states, with the State 
universities, the technical colleges, the universities, to 
ensure that the right training is being applied and that we are 
training people at the right time in the right skills that we 
need.
    So we have a very good partnership, and we need to continue 
that.
    Senator Young. And from a policymaker's standpoint, I see 
one of the challenges being trying to work with you to 
determine what skills are generalized that are needed across 
the economy, which skills are specifically needed for this 
emerging sector, if you will, of the economy, and then which 
skills are firm-specific and ought to be invested in by 
companies like Bosch, for example.
    I guess the last thing I would add, Mr. Chairman, I just 
want to commend those who are responsible for drafting this 
legislation, for working with all the stakeholders. I 
understand principled compromises are required to end up where 
we are today, and I have high confidence this is going to 
become law, and I will be supportive.
    I still do lament, and I want to be on public record of 
lamenting the fact that we have limited this to passenger 
vehicles and not incorporated trucks into this legislation. I 
think we could save a lot of lives and improve a lot of lives 
if we were to broaden the scope of it.
    But with that said, I will end on an optimistic note and 
thank you once again for being here.
    Thanks for holding this hearing, Mr. Chairman.
    The Chairman. Thank you, Senator Young. And that view you 
articulated on trucks is one that I share, and I hope that, at 
some point, we can get that aspect of this important debate 
addressed.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman.
    I want to begin on an optimistic note and thank this 
excellent panel for giving us a view of the future with this 
exciting, wondrous technology that will give us a brave new 
world in automobiles and perhaps beyond automobiles in transit 
in general.
    And I want to avoid appearing to be an automotive 
Neanderthal or Luddite, but simply express a couple of 
reservations about potential irrational exuberance when safety 
is at stake.
    I want to avoid creating another generation of cars that 
may be unsafe at any speed, and we know from our experience 
that the simplest of devices in automobiles right now--ignition 
switches that malfunction, or safety bags that are killers, as 
a number of my colleagues know--can potentially pose great 
dangers.
    Right now, collision-avoidance technologies, such as 
automatic emergency braking, have been proven. They are 
available. They offer substantial safety benefits. And they 
have been recommended by the Federal Government, by safety 
authorities, by consumer advocates.
    And in fact, Mr. Mansuetti, 73 percent of Audis sold last 
year had AEB systems, so Audi is doing way better than many of 
your colleagues, because they sell only about 19 percent, 
according to 2017 model statistics. I assume you would agree 
that making collision avoidance systems standard should be a 
top priority for 2019?
    Mr. Mansuetti. Yes, from a Bosch perspective, we certainly 
agree. But speaking to Audi, I do not want to talk for you.
    Senator Blumenthal. I am sorry. Mr. Schneider?
    Mr. Schneider. Absolutely. Look, our record on implementing 
safety-related automotive devices, like automatic emergency 
braking, I think is pretty well-documented, and we do support 
the further infusion of that technology into our fleet.
    Senator Blumenthal. So that something as simple as AV 
technology, and I know, Mr. Mansuetti, you produce it, so you 
would agree, can help save lives.
    GM has said it is going to be manufacturing autonomous 
vehicles without steering wheels or peddles by 2019, but 
Nissan's R&D Chief has said, ``We will always need a human in 
the loop.''
    At CES earlier this month, as you know, Mr. Kentley-Klay, 
Phantom Auto demonstrated how a car in Los Angeles can be 
remotely controlled by a human operator in Mountain View, 
California. I understand that your company has a patent on this 
kind of teleoperation technology, so my question to you is, 
what kind of fallback system would you envision perhaps making 
use of this technology or a similar technology in the vehicles 
that will be under your control?
    Mr. Kentley-Klay. Thank you, Senator. That is a great 
question.
    I think the headline is that this technology fully realized 
is going to be incredibly safe to the point we are going to 
look back to the age of the automobile and say, wow, we were 
super-reckless, allowing that carnage on our roads. And I think 
you are going to have society having that judgment call within 
5 to 10 years.
    How do we achieve that endpoint? Not to get too deeply into 
the technical details, but our vehicles are engineered with 
three computers. There is a main AI computer. There is a backup 
computer behind that, and a backup computer behind that, and 
they are on different power buses.
    So if there is a hardware fault or a software fault, our 
vehicle has special hardware that is designed to stop itself in 
its lane. It will not go out of its lane and go into what we 
call a minimal risk condition.
    This is taking techniques used in aerospace. They are 
proved to be very space safe. In fact, I do not think there has 
been a fatality in aviation in America in the past 8 years, and 
these airplanes are all flown by triplex fly by-wire computer 
systems.
    So again, I think it is partly a public education campaign, 
but we are very confident that we can engineer these vehicles 
to be robust and safe.
    Senator Blumenthal. So you would view teleoperation as 
having a role in the future of your vehicles?
    Mr. Kentley-Klay. Yes. I think when your model is to have 
autonomous vehicles deployed as a for-hire service in cities, 
you are still going to need a command center in that city that 
has human-in-the-loop oversight of the fleet, both to deal with 
vehicles if they have an issue but also to deal with customers 
if they need help as well, and that is part of our model.
    Senator Blumenthal. Thank you.
    My time has expired. I have more questions, but maybe we 
will have a second round.
    The Chairman. Thank you, Senator Blumenthal.
    Yes, if you want to ask another question, go ahead. We have 
a little bit of time, if these guys do not mind, and if anybody 
else has any final questions on the panel, too, we can use this 
as wrap-up.
    Senator Blumenthal. Thanks, Mr. Chairman.
    Dr. Avent, on this issue of teleoperation, what role do you 
think that teleoperations should have in anticipating or 
dealing with unexpected or unpredictable events. In your 
testimony, you talk about the importance of testing autonomous 
vehicles against the rare, unpredictable six sigma events to 
make sure that they are safe for humans. Do you envision 
teleoperation as having a role?
    Dr. Avent. By teleoperation, do you mean remote control----
    Senator Blumenthal. Exactly.
    Dr. Avent.--where you have a user somewhere else, not in 
the vehicle?
    I think that may be a wrong path to go. It could be an 
interim, but I think that it is more appropriate to go from 
having a driver in the vehicle over to fully autonomous.
    I think the military certainly has experimented and done a 
lot in teleoperation with UAVs and drones and all, and they 
work, and they are safe. But I think that it does not meet the 
full benefit of going to autonomous vehicles.
    Senator Blumenthal. And let me ask all of you, having taken 
GM's statement that we will have AVs on the road by 2019, how 
soon, in your view, will be have Level 5, safe, autonomous 
vehicles? Maybe you can just go down the line and get a 
prediction, in terms of years from now.
    Dr. Avent. I think there is a common thing that says 
technology is overrated in the near term and underrated in the 
long term. I think that it is going to be longer than probably 
many technologists believe. I think a big part of that is going 
to be the adoption of it and the trust, more so than the 
technology itself. But I would say 10 years, if I was a betting 
person.
    Senator Blumenthal. Ten years.
    Mr. Kentley-Klay?
    Mr. Kentley-Klay. I think there is a shallow ramp for this 
technology into early adoption and then mass adoption. I think 
around 2020, you will see fully automated vehicles that are on-
demand working in confined geo-fenced areas in certain 
locations. As the technologies improve, that is going to 
expand.
    Senator Blumenthal. But that is a more confined area ----
    Mr. Kentley-Klay. That is right.
    Senator Blumenthal.--in 3 years and then being consistent 
with----
    Mr. Kentley-Klay. Two to 3 years.
    Senator Blumenthal. Mr. Mansuetti?
    Mr. Mansuetti. At Bosch, we agree with that, with Mr. 
Kentley-Klay. We see by the end of the decade, 2020, we will 
see these use cases emerge in limited areas. In the next 
decade, increasingly more rollout of the technology. And by the 
end of the next decade, I think you will start to see fully 
autonomous Level 5 vehicles in all cases.
    Mr. Schneider. I think, in general, we would agree with 
that timeframe. But again, just to reiterate, this is going to 
be an evolution, and the full benefits of autonomous vehicles 
really come from not just a single-use case or even a handful 
of use cases. It comes from a preponderance of those use cases.
    So over the next decade, we are going to see these enter 
the full one by one, but certainly, in the near term, we will 
have some pretty serious progress.
    Senator Blumenthal. I just want to close with a final 
question, recognizing the reservations that have been expressed 
about the overinvolvement of government and premarket approval, 
as one of my colleagues said. Nobody is for overregulation or 
overinvolvement by government, but sometimes standards are 
necessary, and enforcement of these standards are critically 
important to saving lives.
    And, Mr. Kentley-Klay, you say in your testimony, I think 
you would all agree, that standards should be data-based. They 
should be driven by real facts from the real world.
    So my question I think, finally, to the panel is, how do we 
make sure that the government is receiving the kind of data it 
needs to make smart decisions about how to protect consumers? 
Anybody who wants to volunteer is welcome.
    Mr. Mansuetti. I mean, we see the technology with automated 
vehicles, no one can do it alone, so it takes a coalition, a 
collaboration, and a partnership, and that includes the 
government. So we will continue to collaborate openly.
    And where you need information, we are very helpful to 
provide that, so that we make good, sound decisions, we do not 
overregulate, and we provide this framework that allows us to 
move forward in the future to bring this technology to life, 
which everyone wants as quickly and as safely as possible.
    Senator Blumenthal. Mr. Avent?
    Dr. Avent. I agree with that. There is not going to be one 
industry or one type of person who is going to solve this 
problem. It is going to take a collection of lots of people. So 
I think consortiums, everyone working together in developing 
the technologies and testing them is very important.
    Senator Blumenthal. And you would all agree, I assume, that 
government does have a role to play in protecting safety?
    And in fact, in developing this technology, the reference 
was made earlier to the Internet. In fact, the Internet was the 
result of a partnership, a continuing partnership over many 
decades of private industry, academia, and the government, 
principally the military, as is demonstrated very dramatically 
and powerfully by a book called ``The Innovators'' written by 
Walter Isaacson.
    Anybody who has any question about that partnership should 
read the book, and I think it provides a useful template, 
perhaps for this new technology.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Blumenthal. We have in our 
bill safety-reporting requirements that address a lot of those 
concerns that you have voiced today. And I am hoping the panel 
has been influential in getting you to vote for the bill 
eventually when the time comes.
    I think Senator Peters has a question.
    Senator Peters. Thank you, Mr. Chairman. And you are right. 
We have thought long and hard about making sure that safety is 
first and foremost in this legislation, making sure that we are 
trying to find that middle ground to allow innovation to 
flourish but also being careful about making sure these 
vehicles meet standards before they get out onto the road. The 
proving grounds, as you talked about as well, which we need to 
have more government involvement as well to make sure you have 
the resources to fully test these vehicles.
    We will collect those data as time goes on. And there will 
be a lot of data collected, and it will get better and better.
    We have to get to the point, Mr. Kentley-Klay, where you 
said that we deal with roughly 40,000 deaths on the highway and 
hundreds of thousands of debilitating injuries. We are on the 
verge of making major progress to eliminate nearly all of those 
when you take out the human factor--the human error factor. So 
that is a major motivator for me, and I think most of the folks 
on the Committee, to get to that point.
    The question that I had--and you can comment on that if you 
like, as you are pushing the button. Before you do that, 
though, a question that came up a little bit dealt with the 
power plant. We talked about a lot of factors related to this 
technology, but one thing that I have heard, and I want the 
panel to comment on, does this mean we are moving to electric 
power plants?
    My understanding is that this technology works best with an 
electric power plant as opposed to an internal combustion 
engine. Are we seeing a change in the as well?
    Mr. Schneider, you may be first, given the work that you 
are doing with your company, and any others who would jump in.
    And if that is the case, we have had a number of questions 
related to infrastructure, et cetera. That will lead to a lot 
of other issues as to how we make sure we have the 
infrastructure to support those electric vehicles that are on 
the road.
    Sir?
    Mr. Schneider. Certainly, that is an outstanding question, 
and one of those things at Audi that we think of as one of 
three major technological changes that are driving the 
industry. In addition to mobility and autonomous vehicles is 
electrification.
    So yes, indeed, power plants are moving to the electric 
variety, whether those are battery-operated or use other 
technologies to do that is I think an industry question in the 
longer term. However, the infrastructure of a vehicle is moving 
to an electrical one as a whole.
    And as a guy who started his career as a powertrain 
engineer designing engines at Ford, I tell you that it has 
moved and accelerated even just over the past decade, so I 
would expect it to continue.
    Mr. Mansuetti. For us, we see the future of mobility as 
automated, connected, and electrified. So electrification will 
play a large role in the future of autonomous vehicles.
    And to your specific question, yes, some of the things are 
much more easily realized in electrical vehicle architecture 
for this new technology.
    Mr. Kentley-Klay. Getting around cities on roads kind of 
sucks today. This technology is going to make it awesome, so we 
should all work together and just make it happen. Zoox is pure 
electric.
    On top of the 40,000 fatalities in America alone in 2016, 
and millions actually going to hospital, there is a study from 
MIT that came out that said around 50,000 people in the U.S. 
died up to a decade early because of pollution from mobility. 
The United Nations also forecasted in 2050, 75 percent of the 
world population is going to live in mega-city-like 
environments. So to get longevity of life, we really want to 
have zero-emission mobility in our most dense urban 
environments.
    Dr. Avent. I will defer to the panelists, because they are 
actually developing a lot of this technology. But as an 
academic, I do not think that the coupling of the technology is 
neither a necessary nor a sufficient condition. I think you can 
do autonomy on internal combustion engines. But I do think 
electrification is an incredible opportunity that we should 
take advantage of.
    The Chairman. Senator Peters, thank you.
    Senator Nelson.
    Senator Nelson. Mr. Chairman, for the record, I would like 
to insert a statement of Advocates for Highway and Auto Safety 
as part of our record.
    The Chairman. Without objection.
    [The information referred to follows:]

           Prepared Statement of Catherine Chase, President, 
                 Advocates for Highway and Auto Safety
Introduction
    Advocates for Highway and Auto Safety (Advocates) is a coalition of 
public health, safety, and consumer organizations, insurers and 
insurance agents that promotes highway and auto safety through the 
adoption of Federal and state laws, policies and regulations. Advocates 
is unique both in its board composition and its mission of advancing 
safer vehicles, safer drivers and safer roads. We respectfully request 
that this statement be included in the hearing record.
Motor Vehicle Deaths are Climbing
    According to the Federal Government, each year motor vehicle 
crashes kill tens of thousands of people and injure millions more at a 
cost to society of over $800 billion.<SUP>i</SUP> Unfortunately, deaths 
resulting from motor vehicle crashes have been on the rise. According 
to the latest statistics from the National Highway Traffic Safety 
Administration (NHTSA), 37,461 people were killed on our Nation's roads 
in 2016. This is an increase of over five percent from 
2015.<SUP>ii</SUP> This follows a seven percent increase from 2014 to 
2015.<SUP>iii</SUP> Preliminary figures for the first six months of 
2017 show no significant change.<SUP>iv</SUP>
---------------------------------------------------------------------------
    \i\ The Economic and Societal Impact of Motor Vehicle Crashes, 2010 
(Revised), HS 812 013, U.S. DOT, NHTSA (May 2015 (Revised)), available 
at http://www-nrd.nhtsa.dot.gov/Pubs/812013.pdf. (NHTSA Cost of Motor 
Vehicle Crashes Report).
    \ii\ Traffic Safety Facts Research Note, 2016 Fatal Motor Vehicle 
Crashes: Overview, NHTSA, Oct. 2017, DOT HS 812 456.
    \iii\ National Center for Statistics and Analysis, 2015 motor 
vehicle crashes: Overview, Report No. DOT HS 812 318, National Highway 
Traffic Safety Administration (Aug. 2016).
    \iv\ National Safety Council, NSC Motor Vehicle Fatality Estimates 
(June 2017).
---------------------------------------------------------------------------
    Advocates firmly believes that automated vehicle (AV) technology 
has the potential to make significant and lasting reductions in this 
mortality and morbidity toll. However, the process created in the AV 
START Act will allow untested and unproven AVs to be sold to the public 
without appropriate independent or governmental oversight to provide 
necessary protections to both those in the AVs and those sharing the 
roads with them.<SUP>v</SUP> In addition, the AV START Act will 
potentially allow the sale of hundreds of thousands of AVs that are 
exempt from existing federal motor vehicle safety standards (FMVSS). In 
fact, longstanding Federal law was recently amended to allow for an 
unlimited number of vehicles that are not in compliance with FMVSS to 
be tested on public roads,<SUP>vi</SUP> despite opposition from 
consumer, public health and safety organizations.<SUP>vii</SUP> This 
was a massive increase from the previous limit of 2,500 vehicles for 
most manufacturers.<SUP>viii</SUP> Therefore, AVs can already be sold 
to the public as long as they are in compliance with FMVSS, and AV 
manufacturers can already put an unlimited number of AVs that are not 
required to comply with FMVSS on public roads for testing purposes. The 
AV START Act ``takes a wrong turn'' by allowing for the sale of 
potentially millions of AVs to the public without minimum safety 
standards, without necessary consumer information so that the public 
understands their capabilities and limitations, and without 
cybersecurity standards to protect against hackers.
---------------------------------------------------------------------------
    \v\ S. 1885, American Vision for Safer Transportation through 
Advancement of Revolutionary Technologies Act, 115th Congress, 1st 
Session (2017).
    \vi\ Fixing America's Surface Transportation Act, Sec. 24404, Pub. 
L. 114-94 (2015).
    \vii\ Examining Ways to Improve Vehicle and Roadway Safety: Hearing 
Before Energy and Commerce Committee, Subcommittee on Commerce, 
Manufacturing and Trade, 114th Cong. (Oct. 21, 2015) (Statement of Joan 
Claybrook).
    \viii\ 49 U.S.C. Sec. 30113.
---------------------------------------------------------------------------
    Instead of creating an unchecked, wide-open path for the entry of 
AVs exempt from safety standards into the marketplace, academic 
facilities and testing grounds should be utilized as the proper venues 
for evaluating AV technology. Research centers, such as those already 
established in Michigan and Florida, among others, should serve as the 
incubators for this unchartered technology. In fact, a number of 
automakers themselves readily admit that AV technology is still in its 
infancy. As Bryan Salesky, the Chief Executive Officer of Argo AI, a 
company partnering with Ford on the development of AV technology 
recently noted:

        We're still very much in the early days of making self-driving 
        cars a reality. Those who think fully self-driving vehicles 
        will be ubiquitous on city streets months from now or even in a 
        few years are not well connected to the state of the art or 
        committed to the safe deployment of the technology. For those 
        of us who have been working on the technology for a long time, 
        we're going to tell you the issue is still really hard, as the 
        systems are as complex as ever.<SUP>ix</SUP>
---------------------------------------------------------------------------
    \ix\ Bryan Salesky, A Decade after DARPA: Our View on the State of 
the Art in Self-Driving Cars (Oct. 16, 2017), available at: https://
medium.com/self-driven/a-decade-after-darpa-our-view-on-the-state-of-
the-art-in-self-driving-cars-3e8698e6afe8.

    Additionally, Gill Pratt, chief executive officer of Toyota 
Research Institute, stated, ``It's a mistake to say that the finish 
line is coming up very soon. Things are changing rapidly, but this will 
be a long journey.'' <SUP>x</SUP>
---------------------------------------------------------------------------
    \x\ David Welch and Gabrielle Coppola, Don't Worry, Petrolheads. 
Driverless Cars Are Still Years Away, Bloomberg News (Jan, 9, 2018), 
available at: https://www.bloomberg.com/news/articles/2018-01-09/
toyota-to-hyundai-say-pump-brakes-on-hopes-of-robo-car-s-arrival.
---------------------------------------------------------------------------
    Whether it is children's toys, new medication or innovative vehicle 
technologies, radically different products should first be assessed in 
a controlled environment instead of allowing widespread public 
distribution in order to determine whether they are safe or have 
unintended consequences. The AV START Act, which could govern AVs for 
years to come, fails to include several critical and commonsense 
protections that will help to ensure the safe development and 
deployment of this technology.
Advocates Has Consistently Promoted Advanced Technologies in Vehicles 
        to Save Lives and Prevent Injuries
    Advocates has always enthusiastically championed vehicle safety 
technology and for good reason. It is one of the most effective 
strategies for preventing deaths and injuries. NHTSA has estimated that 
since 1960, over 600,000 lives have been saved by motor vehicle safety 
technologies.<SUP>xi</SUP> In 1991, Advocates led the coalition that 
supported bipartisan legislation sponsored by former Senators John 
Danforth (R-MO) and Richard Bryan (D-NV) that included airbag 
technology in the Intermodal Surface Transportation Efficiency Act 
(ISTEA) of 1991.<SUP>xii</SUP> As a result, by 1997, every new car sold 
in the United States was equipped with a front seat airbag and the 
lives saved have been significant. In fact, airbags save over 2,000 
lives annually,<SUP>xiii</SUP> and have saved an estimated 44,869 lives 
since 1987, according to NHTSA.<SUP>xiv</SUP>
---------------------------------------------------------------------------
    \xi\ Lives Saved by Vehicle Safety Technologies and Associated 
Federal Motor Vehicle Safety Standards, 1960 to 2012, DOT HS 812 069 
(NHTSA, 2015); See also, NHTSA AV Policy, Executive Summary, p. 5 
endnote 1.
    \xii\ Pub. L. 102-240 (Dec. 18, 1991).
    \xiii\ National Center for Statistics and Analysis, Lives Saved in 
2015 by Restraint Use and Minimum-Drinking-Age Laws, National Highway 
Traffic Safety Administration, Report No. DOT HS 812 319 (Aug. 2016).
    \xiv\ Traffic Safety Facts 2015, Lives Saved by Restraint Use, and 
Additional Lives that Would Have been Saved at 100 Percent Seat Belt 
and Motorcycle Helmet Use, 1975-2015, DOT HS 812 384, NHTSA (2017).
---------------------------------------------------------------------------
    Advocates continued to build on this success by supporting 
additional lifesaving technologies as standard equipment in all 
vehicles in other legislation and regulatory proposals. These efforts 
include: tire pressure monitoring systems;<SUP>xv</SUP> rear outboard 
3-point seat belts;<SUP>xvi</SUP> electronic stability 
control;<SUP>xvii</SUP> rear seat belt reminder 
systems;<SUP>xviii</SUP> rear view cameras;<SUP>xix</SUP> brake 
transmission interlocks;<SUP>xx</SUP> seat belts on 
motorcoaches;<SUP>xxi</SUP> electronic logging devices;<SUP>xxii</SUP> 
and, crash avoidance systems such as automatic emergency 
braking.<SUP>xxiii</SUP> These safety advances have saved hundreds of 
thousands of lives and many have been accomplished because of the 
bipartisan leadership of the Members of the Senate Commerce, Science, 
and Transportation Committee.
---------------------------------------------------------------------------
    \xv\ Transportation Recall Enhancement, Accountability, and 
Documentation (TREAD) Act, Pub. L. 106-414 (Nov. 1, 2000).
    \xvi\ Anton's Law, Pub. L. 107-318 (Dec. 4, 2002).
    \xvii\ Safe, Accountable, Flexible, Efficient Transportation Equity 
Act: A Legacy for Users (SAFETEA-LU), Pub. L. 109-59 (Aug. 10, 2005).
    \xviii\ Id.
    \xix\ Cameron Gulbransen Kids Transportation Safety Act of 2007, 
Pub. L. 110-189 (Feb. 28, 2008).
    \xx\ Id.
    \xxi\ Moving Ahead for Progress in the 21st Century (MAP-21) Act, 
Pub. L. 112-141 (Jan. 3, 2012).
    \xxii\ Id.
    \xxiii\ 80 FR 62487 (Oct. 16, 2015).
---------------------------------------------------------------------------
NHTSA Has a Statutory Duty to the Public to Ensure the Safety of 
        Autonomous Vehicles
    Over fifty years ago, Congress passed the National Traffic and 
Motor Vehicle Safety Act of 1966 because of concerns about the death 
and injury toll on our highways.<SUP>xxiv</SUP> The law required the 
Federal Government to establish minimum vehicle safety performance (not 
design) standards to protect the public against ``unreasonable risk of 
accidents occurring as a result of the design, construction or 
performance of motor vehicles.'' <SUP>xxv</SUP> While motor vehicles 
have changed dramatically since that time and will continue to do so in 
the future, the underlying premise of this prescient law and NHTSA's 
safety mission have not.
---------------------------------------------------------------------------
    \xxiv\ Pub. L. 89-563 (Sept. 9, 1966).
    \xxv\ Title 49, U.S.C. Sec. 30102.
---------------------------------------------------------------------------
    Unfortunately, recently NHTSA has chosen to issue only ``voluntary 
guidelines'' for the development of AVs.<SUP>xxvi</SUP> Voluntary 
guidelines are not enforceable because they are not legally binding, 
and, therefore, are inadequate to ensure safety and protect the public. 
Manufacturers may unilaterally choose to deviate from the guidelines or 
ignore them entirely at any time and for any reason including internal 
corporate priorities such as cost or marketing considerations. In 
addition, some entities may choose to follow the guidelines while 
others may not, creating a dangerous and unreliable patchwork of safety 
protection. Consumers and NHTSA also have no legal recourse against a 
manufacturer's failure to follow the guidelines. NHTSA cannot bring an 
enforcement action, force a statutory recall, or even influence a 
voluntary recall for failure to abide by the guidelines.
---------------------------------------------------------------------------
    \xxvi\ NHTSA, Automated Driving Systems 2.0: A Vision for Safety 
(Sep. 12, 2017).
---------------------------------------------------------------------------
    Opinion polls already show strong public skepticism and reticence 
about AVs and those doubts are warranted. Over the last few years, 
automakers have hidden from the American public and regulators safety 
defects that have led to numerous unacceptable and unnecessary deaths 
and injuries as well as the recall of tens of millions of 
vehicles.<SUP>xxvii</SUP> Consumer acceptance of AV technology is 
critical to its success and to fully realizing the lifesaving potential 
of AVs. Advocates recently commissioned a CARAVAN public opinion poll 
that revealed intense apprehension regarding the widespread deployment 
of AVs. In fact, two-thirds of respondents (64 percent) expressed 
concern about sharing the roads with driverless cars.<SUP>xxviii</SUP> 
Moreover, a recent study conducted by the Massachusetts Institute of 
Technology garnered similar results. Only 13 percent of those polled 
reported that they would be comfortable with vehicle ``features that 
completely relieve the driver of all control for the entire drive.'' 
<SUP>xxix</SUP> In addition, 59 percent of respondents reported that 
the maximum level of automation that they would be comfortable with 
were ``features that actively help the driver, while the driver remains 
in control.'' <SUP>xxx</SUP> Similarly, in a national survey 
commissioned by Kelley Blue, 80 percent of those polled believed that 
people should always have the option to drive themselves, and nearly 
one in three respondents said they would never buy a Level 5 (entirely 
automatic) vehicle.<SUP>xxxi</SUP> Furthermore, a poll by the Pew 
Research Center found a majority of U.S. adults would not want to ride 
in a driverless car (56 percent).<SUP>xxxii</SUP> The reluctance and 
hesitation of the public to embrace AVs will not be overcome unless the 
development of the technology is transparent and AV failures are not 
widespread.
---------------------------------------------------------------------------
    \xxvii\ United States Department of Transportation, NHTSA, Docket 
No. NHTSA-2015-0055, Coordinated Remedy Program Proceeding; NHTSA, 
safercar.gov, Vehicle Owners, Consumer Alert: GM Ignition Switch Recall 
Information; U.S. v. Volkswagen, Case. No. 16-CR-20394 (E.D. Mich.).
    \xxviii\ Advocates for Highway and Auto Safety, CARAVAN Public 
Opinion Poll: Driverless Cars (Jan. 12, 2018).
    \xxix\ H. Abraham, B. Reimer, B. Seppelt, C. Fitzgerald, B. Mehler 
& J. Coughlin, Consumer Interest in Automation: Preliminary 
Observations Exploring a Year's Change, Massachusetts Institute of 
Technology, AgeLab, White Paper (2017-2), p. 6 (May 2017).
    \xxx\ Id.
    \xxxi\ Kelley Blue Book, Future Autonomous Vehicle Driver Study 
(Sept. 2016).
    \xxxii\ Pew Research Center, Automation in Everyday Life (Oct. 
2017).
---------------------------------------------------------------------------
    As with any segment of American society, people with disabilities 
have varying needs. While AVs may be part of the answer to increasing 
mobility for people with disabilities, it is certainly not the only 
solution, and it is by no means ``one size fits all.'' AVs will help 
some people but provide little or no assistance to others based on 
their circumstances. The cost of a vehicle retrofit or utilizing a taxi 
or ride-sharing company on a regular basis remains out of reach for 
many people with disabilities. Installing an automated system in a 
vehicle or removing the driver from an automated ride sharing service 
does not necessarily reduce or eliminate cost barriers that inhibit 
mobility. Moreover, there is no guarantee that the current designs of 
automobiles that do not easily allow for a ramp or lift system to be 
integrated into the body of the vehicle, or for a wheelchair to be 
stored safely in the trunk or passenger area, will be changed once AVs 
are introduced. The AV START Act allows for potentially catastrophic 
scenarios in which hundreds of thousands of cars could be allowed to 
operate that do not meet Federal safety standards, including those that 
provide occupant protection. Allowing AVs that do not meet critical 
Federal safety standards puts all roadway users at risk, but poses 
particular problems for people with disabilities who may be especially 
vulnerable when AVs are involved in a crash, do not function as 
intended, or have a defect.
Federal Oversight is Essential if Autonomous Vehicles Are to Ensure 
        Public Safety
    The AV START Act unnecessarily eviscerates the current Federal 
regulatory scheme that has been in place for decades to ensure the 
safety of motor vehicles traveling on American roads. AV technology can 
be expeditiously developed while not jeopardizing public safety. In 
order to achieve that end, several provisions of the AV START Act 
should be revised or deleted.
    Section 6 of the AV START Act will allow millions of vehicles to be 
sold to the public that are exempt from existing critical safety 
standards, the FMVSS. Providing broad statutory exemptions from the 
FMVSS for AVs is both unnecessary and unwise. As mentioned above, there 
is already a statutory process in place for manufacturers to seek an 
exemption from the FMVSS which Congress amended only three years ago. 
Section 24404 of the Fixing America's Surface Transportation (FAST) Act 
<SUP>xxxiii</SUP> permits auto manufacturers to test or evaluate an 
unlimited number of vehicles exempt from one or more of the FMVSS. 
Exempt vehicles under this provision may not be sold or resold to the 
public. Furthermore, the exemption provision in current law, 49 USC 
Section 30113(a), provides that manufacturers may receive an exemption 
from compliance with the FMVSS for the sale of 2,500 vehicles to be 
sold in the United States in any 12-month period. There has simply been 
no demonstrable evidence presented that the development and deployment 
of AVs requires that an untold number of AVs should be exempt from such 
critical Federal safety standards that are essential to protecting 
public safety.
---------------------------------------------------------------------------
    \xxxiii\ Pub. L. 112-141 (Dec. 4, 2015), codified at 49 USC 
Sec. 30112(b)(10).
---------------------------------------------------------------------------
    Furthermore, the legislation currently contains no prohibition on 
AVs receiving an exemption from crashworthiness or occupant protection 
standards which protect the vehicle's passengers. Such exemptions can 
diminish the level of occupant protection that has been established 
through years of research under the existing regulations. For example, 
removing the steering wheel should not eliminate the requirement to 
protect the occupant from injury using safety systems such as airbags. 
Prohibiting such exemptions will in no way inhibit the development of 
AV technology but will ensure that passengers of AVs are properly 
protected in a crash.
    Advocates supports the provision in Section 6 of the AV START Act 
that requires NHTSA to evaluate the safety performance of the AVs which 
have been granted an exemption(s) before an additional or greater 
number of vehicles may be granted a subsequent set of exemptions. 
However, the time period before the total number of vehicles that are 
exempt from the FMVSS should be lengthened from 12 months to 24 months, 
at a minimum. This will allow for NHTSA to gather the data it needs to 
make an accurate assessment of the AVs that have already been granted 
exemptions.
    Finally, Section 7 of the AV START Act drastically alters current 
Federal law which prohibits manufacturers from rendering safety 
systems, such as the brakes and brake pedal, inoperable. This provision 
is a dangerous change in settled law because it would allow automakers 
to turn off safety systems while the AV is being driven by the 
computer. This could unnecessarily dilute safety at the discretion of 
the manufacturer and sets a precedent of Congress allowing 
manufacturers to circumvent many of the existing safety standards. 
Currently, automakers cannot turn off safety systems without government 
oversight. As such, Section 7 should be removed entirely.
Recommendations:
  <bullet> Reduce the number of AVs that will be permitted to be exempt 
        from critical Federal safety standards. Increase the time 
        period after granting an exemption from 12 to a minimum of 24 
        months so that NHTSA has an opportunity to collect enough data 
        to make accurate safety assessments before permitting more 
        exempt AVs to be sold.

  <bullet> Prohibit any and all exemptions from Federal safety 
        standards that will diminish the level of occupant protection 
        currently provided by the FMVSS.

  <bullet> Eliminate the provision that permits manufacturers to 
        unilaterally disable critical safety systems while the vehicle 
        is operating in autonomous mode.
The Development of Autonomous Vehicles Must Be Transparent or Public 
        Confidence in the Technology Will Suffer
    The development and deployment of AVs as well as NHTSA's role in 
regulating this technology must be open and transparent. Section 9 of 
the AV START Act requires manufacturers of AVs and AV technology to 
submit to NHTSA a Safety Evaluation Report (SER) that details the 
development of the technology and its expected performance in real 
world conditions. While Advocates support that this submission be 
mandatory, this provision only directs manufacturers to ``describe'' 
their AV systems. This language should be revised to require that 
sufficient information and data are included in the SER to ensure that 
NHTSA can properly assess the safety performance of the technology. In 
the absence of such a legislative directive, manufacturers will 
continue to submit slick marketing brochures such as those recently 
released by two manufacturers <SUP>xxxiv</SUP> instead of providing 
data and documentation that will allow the public and NHTSA to 
accurately evaluate the safety of the technology. Advocates supports 
two important provisions in Section 9 of the AV START Act which require 
the SERs to be promptly made available to the public and which subject 
manufacturers who knowingly and willfully submit false information in 
the SER to the civil penalty provisions of 49 U.S.C. Sec. 30165.
---------------------------------------------------------------------------
    \xxxiv\ Waymo, Waymo Safety Report: On the Road to Fully Self-
Driving (Oct. 2017); General Motors, 2018 Self-Driving Safety Report 
(Jan. 2018).
---------------------------------------------------------------------------
    The AV START Act should ensure that consumers are given essential 
information about an AV. While the requirement in Section 12 of the 
bill calls for a rulemaking on consumer information, it could be years 
before a final rule is issued. Every manufacturer should be required to 
provide each consumer with information about the capabilities, 
limitations and exemptions from safety standards for all vehicles sold 
in the U.S. at the time of sale. This information should be made 
available to consumers from day one, even before NHTSA issues a rule. 
Therefore, the agency should be required to issue an Interim Final Rule 
immediately requiring such information be provided to consumers. 
Additionally, it would be useful for consumers and researchers to be 
able to automatically identify AVs by vehicle identification number 
(VIN).
    NHTSA should also be required to establish a publicly-available AV 
database with basic safety information for consumers and for use in 
safety research. The database would be similar to the safercar.gov 
website that NHTSA maintains to inform the public about safety recalls 
applicable to their vehicle. The AV database would enable consumers to 
enter their VIN to obtain critical information about their AV such as 
the level of automation, any exemptions granted by NHTSA from the 
FMVSS, and the operational design domain which includes limitations and 
capabilities of each autonomous driving system with which a vehicle is 
equipped. Such a database will be critical for consumers who purchase 
AVs, especially used vehicles that are not required to have a consumer 
sticker (Monroney label) on the window and may be missing an owner's 
manual. According to Edmonds, there were 38.5 million used cars sold in 
2016.<SUP>xxxv</SUP> The database would also allow NHTSA and other 
research groups to perform independent evaluation of the comparative 
safety performance of AV systems, and identify poorly performing and 
unsafe autonomous driving systems, as well as those that provide 
greater safety performance.
---------------------------------------------------------------------------
    \xxxv\ Edmunds, Used Vehicle Market Report, Executive Summary (Feb. 
2017).
---------------------------------------------------------------------------
    Additionally, data sharing among manufacturers is essential to 
improve overall safety among AVs. Data and information about known 
flaws or problems encountered during development and while in use must 
be shared among manufacturers and with NHTSA and the public to ensure 
that all AV systems are learning about problems in real time and can 
benefit from the experience of other AV systems. This type of 
collaborative development is already taking place in the industry with 
the creation of the Automotive Information Sharing and Analysis Center 
(ISAC). Data sharing will expedite solutions to unusual or unique 
safety problems and ensure they are readily identified and corrected. 
Yet, the AV START Act does not require that the critical safety data 
generated by AVs will be shared or even provided to NHTSA. It is 
essential that the legislation require all crashes involving AVs be 
reported immediately to NHTSA by manufacturers. The Early Warning 
Reporting of crashes requires manufacturers to submit a very small 
portion of this information, but all crashes involving AVs should be 
fully reported.
    Section 10 of the AV START Act establishes a technical advisory 
committee that will make recommendations to the Secretary of the U.S. 
Department of Transportation (Secretary) on the safety standards that 
should be issued for AVs. Advisory committees, which may be useful in 
limited circumstances, are unacceptable substitutes for the agency 
fulfilling its statutory mission and issuing safety standards through 
public rulemakings. These committees often escape public scrutiny 
especially when the advisory committee is not subject to the Federal 
Advisory Committee Act (FACA),<SUP>xxxvi</SUP> as is the case with the 
advisory committee established under the AV START Act. In addition, the 
representation on these committees is often not fairly balanced and as 
such the committees are incapable of providing accurate and unbiased 
recommendations to the Secretary. Moreover, these committees are often 
a significant drain on agency staff time and already sparse funding. 
Instead of establishing an advisory committee, the AV START Act should 
authorize NHTSA to receive the funding it so badly needs to hire the 
experts it must have to properly regulate AVs and fulfill the agency's 
statutory mission.
---------------------------------------------------------------------------
    \xxxvi\ Pub.L. 92-463 (1972).
---------------------------------------------------------------------------
Recommendations:
  <bullet> Ensure that manufacturers are required to include sufficient 
        data and documentation in the SER to ensure that NHTSA has 
        enough information to accurately assess the technology.

  <bullet> Provide consumers with critical information about the 
        capabilities and limitations of AVs. Direct NHTSA to 
        immediately require information at the point of sale and in the 
        vehicle's owner manual.

  <bullet> Direct NHTSA to establish a publicly-available AV database 
        with basic safety information for consumers and for use in 
        safety research.

  <bullet> Require manufacturers to report all crashes involving an AV 
        to NHTSA.
Commonsense Safeguards Must be in Place to Ensure the Safety of 
        Autonomous Vehicles
    Without essential changes and additions to AV START Act, this 
legislation will needlessly put all road users at risk. The additional 
improvements outlined below will in no way inhibit or even slow the 
development and deployment of AVs. Rather, these commonsense 
recommendations will ensure public safety and industry accountability.
Include Level 2 AVs
    The AV START Act does not include Society of Automotive Engineers 
(SAE) Level 2 AVs, like the Tesla Model S which was involved in the 
2016 fatal crash in Florida.<SUP>xxxvii</SUP> During a September 12, 
2017, hearing on the crash conducted by the National Transportation 
Safety Board (NTSB), deadly failures of Tesla's Level 2 Autopilot 
system were readily identified.<SUP>xxxviii</SUP> NTSB found that 
similar problems also exist in other Level 2 AVs across many 
manufacturers.<SUP>xxxix</SUP> In the near term, Level 2 AVs will 
likely comprise the majority of the passenger vehicle AV fleet. Proper 
safeguards to curb Tesla-like failures must be put in place. At a 
minimum, Level 2 AVs should be covered by the SER safety assessment 
reporting, consumer information disclosure and cybersecurity provisions 
in the AV START Act.
---------------------------------------------------------------------------
    \xxxvii\ National Transportation Safety Board, Collision Between a 
Car Operating With Automated Vehicle Control Systems and a Tractor-
Semitrailer Truck Near Williston, Florida, Report No.: NTSB/HAR-17/02 
(Sep. 12, 2017) (NTSB Tesla Crash Report).
    \xxxviii\ Id.
    \xxxix\ Id.
---------------------------------------------------------------------------
Require Cybersecurity Standards
    A failure to adequately secure AV systems and to protect against 
cyber-attacks could endanger AV passengers, non-AV motorists, 
pedestrians, bicyclists and other vulnerable roadway users. It could 
also clog roads, stop the movement of goods and hinder the responses of 
emergency vehicles. Problem areas could include subjects such as global 
position system (GPS) signal loss or degradation, spoofing, and off-
line and real time hacking of single vehicles or fleets of vehicles. 
The real possibility of a malevolent computer hack impacting hundreds 
or thousands of AVs, perhaps whole model runs, makes strong 
cybersecurity protections a crucial element of AV design. Yet, Section 
14 of the AV START Act merely requires manufacturers to have a 
cybersecurity plan in place with no minimum standards of protection or 
effectiveness. Instead, the legislation should require NHTSA to 
establish a minimum performance standard to ensure cybersecurity 
protections are required for all AVs levels 2-5. Considering the recent 
record of high-profile cyber-attacks,<SUP>xl</SUP> allowing 
manufacturers merely to have a cybersecurity plan in place is grossly 
inadequate to ensure that AVs are protected against potentially 
catastrophic cyber-attacks and breaches.<SUP>xli</SUP>
---------------------------------------------------------------------------
    \xl\ Stacy Cowley, Equifax Breach Exposed Data From 2.5 Million 
More People Than First Disclosed, N.Y. Times, Oct. 3, 2017 at B2.
    \xli\ Chester Dawson, The Dangers of the Hackable Car, Wall St. J, 
Sep. 17, 2017.
---------------------------------------------------------------------------
Provide Standards to Prevent Driver Distraction
    In AVs that require a human to take control from the AV system 
(Levels 2 and 3), the automated driving system must keep the driver 
engaged in the driving task. Research demonstrates that even for a 
driver who is alert and performing the dynamic driving task, there is a 
delay in reaction time between observing a safety problem and taking 
appropriate action.<SUP>xlii</SUP> For a driver who is disengaged from 
the driving task during autonomous operation of a vehicle, that delay 
will be longer because the driver must first understand the situation, 
then take control of the vehicle before taking appropriate action. The 
failure of the automated driving system to keep the driver engaged in 
the driving task during the trip was identified as a problem by the 
NTSB Tesla crash investigation. The NTSB found that the Tesla Autopilot 
facilitated the driver's inattention and overreliance on the system, 
which ultimately contributed to his death.<SUP>xliii</SUP> The 
Autopilot was active for 37 minutes of the 41 minute trip and of the 37 
minutes the system detected the hands on the steering wheel only 7 
times for a total of 25 seconds.<SUP>xliv</SUP> The NTSB also found 
that these problems are widespread across manufacturers with similar 
systems.<SUP>xlv</SUP> The AV START Act fails to address this critical 
safety problem, yet technology to discern distraction and provide 
alerts is already available, and NHTSA should be directed to establish 
a minimum performance standard to ensure driver engagement throughout 
the trip.
---------------------------------------------------------------------------
    \xlii\ Human Factors, Koppa, R.J., FHWA, Ch.3, Sec. 3.2.1 
Perception-Response Time.
    \xliii\ NTSB Tesla Crash Report.
    \xliv\ Id.
    \xlv\ Id.
---------------------------------------------------------------------------
Provide for Standards to Protect the Electronics that Power Safety 
        Systems
    Motor vehicles and motor vehicle equipment are powered and run by 
highly complex electronic systems and will become even more so with the 
introduction of autonomous driving systems. Similar to the Federal 
Aviation Administration (FAA) requirements to protect the electronics 
in aircraft,<SUP>xlvi</SUP> NHTSA should require minimum performance 
standards for the electronics in all motor vehicles, particularly AVs. 
Also, interference from non-safety systems can affect the electronics 
that power critical safety systems if they share the same wiring and 
circuits. For example, in one reported instance a vehicle model lost 
power to its dashboard lights when an MP3 player was plugged in and 
used.<SUP>xlvii</SUP> Minimum performance requirements are essential to 
ensure the electronics that power and operate safety and autonomous 
driving systems function properly. Performance requirements are also 
needed to make certain these systems are not compromised by non-safety 
features that share the same electronics. However, the AV START Act 
fails to direct NHTSA to develop and issue performance standards for 
the electronics systems of modern motor vehicles as the FAA does for 
aircraft which, like AV cars, are highly dependent on electronic 
systems.
---------------------------------------------------------------------------
    \xlvi\ 14 CFR 25.1309.
    \xlvii\ General Motors, LLC, Receipt of Petition for Decision of 
Inconsequential Noncompliance, NHTSA, 79 FR 10226, Feb. 24, 2014.
---------------------------------------------------------------------------
Require an AV ``Vision Test'' to Ensure Operating Safety
    In order for an AV to properly interact with its surrounding 
environment, it must not only detect other vehicles and roadway 
infrastructure but also other participants using our Nation's 
transportation systems such as pedestrians, bicyclists, construction 
workers in work zones, first responders providing assistance after 
crashes, and law enforcement officers directing traffic. A failure to 
properly detect and react to any of these could have tragic results. 
AVs and automated driving systems must be subject to objective testing 
to ensure that they properly detect other road users, as well as 
pavement markings and infrastructure, can correctly identify the type 
of object that has been detected, and can then also respond properly 
and safely. Therefore, the AV START Act should direct the Secretary to 
initiate a rulemaking proceeding to require automated driving systems, 
including SAE Level 2 automated driving systems, to meet a minimum 
performance standard for detecting and reacting to the AV's driving 
environment.
Provide NHTSA with Additional Authority to Counter Widespread Safety 
        Problems
    Regulating AVs presents unique challenges for NHTSA, and those 
issues warrant the agency being given additional tools to protect 
against potentially catastrophic defects. Flaws or viruses in computer 
software of AVs could adversely affect thousands of vehicles 
simultaneously. The agency, therefore, should be given imminent hazard 
authority in order to expedite the grounding of vehicles that the 
agency has identified as having a potentially dangerous, widespread 
software problem or cybersecurity threat that could lead to inordinate 
crashes, deaths and injuries. Also, because of the potential serious 
nature of any software problem that could imperil safety in thousands 
of vehicles, the ability to levy criminal penalties is essential. 
Criminal penalties will deter manufacturers and suppliers from 
willfully permitting the sale of AV systems with flawed software 
operating systems that could pose a danger to human life in the event 
of a crash.
Recommendations:
  <bullet> Amend the AV START Act to apply critical safety provisions 
        to Level 2 AVs as these vehicles will likely comprise the 
        majority of the passenger vehicle AV fleet in the early years 
        of deployment.

  <bullet> Direct NHTSA to issue safety standards addressing critical 
        safety issues involving AVs including cybersecurity, driver 
        engagement, electronics systems and the ability to detect 
        objects in its driving environment.

  <bullet> Provide additional legal authority to NHTSA to enable the 
        agency to effectively respond to crises and protect public 
        safety.
NHTSA Needs Additional Resources
    The unacceptable level of motor vehicle crashes, fatalities and 
injuries combined with the demands being placed on NHTSA with regard to 
AV technology necessitates an increase in agency funding. While the 
FAST Act did provide some additional resources, the agency budget is 
still inadequate to manage the myriad of challenges facing the agency. 
Today, 95 percent of transportation-related fatalities, and 99 percent 
of transportation injuries, involve motor vehicles on our streets and 
highways.<SUP>xlviii</SUP> Yet, NHTSA receives only one percent of the 
overall U.S. Department of Transportation (DOT) budget.<SUP>xlix</SUP> 
NHTSA will face even greater challenges in the future as AVs continue 
to develop and are introduced into the market. For NHTSA to exercise 
proper oversight over AVs, and even just comply with the current 
requirements in the AV START Act, the agency will need to hire more 
staff with technical expertise.
---------------------------------------------------------------------------
    \xlviii\ National Transportation Statistics 2015, U.S. DOT, RITA, 
BTS, Tables 2-1, and 2-2 (2017).
    \xlix\ Budget Highlights Fiscal Year 2018, U.S. DOT.
---------------------------------------------------------------------------
    Moreover, in light of the fact that motor vehicle crashes impose a 
comprehensive cost on society of $836 billion, $242 billion of which is 
direct economic costs such as lost productivity, medical costs and 
property damage, it is imperative to provide adequate resources to 
advance serious measures to combat a serious problem.<SUP>l</SUP> The 
AV START Act requires NHTSA to take on new significant responsibilities 
such as: reviewing SERs filed by manufacturers; evaluating and making 
determinations on potentially numerous requests for thousands of 
exemptions from the FMVSS within 180 days of receipt; amending and 
issuing safety standards; and, supporting advisory committees.
---------------------------------------------------------------------------
    \l\ NHTSA Cost of Motor Vehicle Crashes Report.
---------------------------------------------------------------------------
    In order to efficiently execute all of these tasks, an office 
dedicated to AV safety should be established within NHTSA. Safety 
should not be compromised and progress should not be slowed because the 
agency does not have adequate technical expertise, organization and 
funding to oversee the development and deployment of AVs.
Recommendation:
  <bullet> NHTSA must be given additional funding and a new dedicated 
        office to AVs should be created to meet demands being placed on 
        the agency with regard to the advent of AV technology.
States Must Not be Preempted from Acting to Protect their Citizens 
        Especially in Light of NHTSA's Failure to Regulate Automated 
        Vehicles to Date
    Advocates agrees with the statutory mission of NHTSA to regulate 
the design and performance of motor vehicles to ensure public safety 
which, in modern day terms, includes AVs and automated driving system 
technology. However, in the absence of comprehensive Federal standards 
and regulations to govern the AV rules of the road, the states have 
every legal right, indeed a duty to their citizens, to fill the 
regulatory vacuum with state developed proposals and solutions for 
ensuring public safety. NHTSA, by issuing only guidelines, has left the 
field of AV safety open to the states to fulfill their traditional role 
of protecting the health and welfare of their citizens. As the National 
Conference of State Legislatures (NCSL) noted in its comments to 
NHTSA's first set of guidelines issued in September 2016, ``Without any 
indication on forthcoming Federal regulations regarding the safe 
operation of HAVs, states may be forced to fill the gap in order to 
ensure the safety of public roadways.'' <SUP>li</SUP> Moreover, the 
Pennsylvania Department of Transportation stated in its comments to the 
same guidelines:
---------------------------------------------------------------------------
    \li\ William T. Pound, Executive Director, National Conference of 
State Legislatures, Public Comments on Federal Automated Vehicles 
Policy, Docket No.: NHTSA-2016-0090 (Nov. 21, 2016).

    Yes, there should be consistent treatment of highly automated 
vehicles nationwide. However, where the adoption of `safety standards' 
being applied to highly automated vehicle testing is totally voluntary 
(as opposed to self-certifying as against a regulatory framework in the 
FMCSS) [sic], what level of comfort does that give to the states and 
their citizens that their transportation and law enforcement agencies 
are properly discharging their duty to ensure that highly automated 
vehicles are in fact safe? <SUP>lii</SUP>
---------------------------------------------------------------------------
    \lii\ Leslie R. Richards, Secretary of Transportation, Commonwealth 
of Pennsylvania, Letter to Secretary Foxx and Administrator Rosekind, 
Docket No.: NHTSA-2016-0090 (Nov. 21, 2016).
---------------------------------------------------------------------------
Recommendation:
  <bullet> Until NHTSA issues comprehensive standards and regulations 
        to govern AVs, states must not be precluded from enacting state 
        developed solutions to protect their citizens.
Conclusion
    Autonomous vehicles have the potential to address the unacceptable 
annual death and injury toll and associated costs reaching billions of 
dollars. As the Senate takes the first step to creating national policy 
on AVs with potentially long-lasting consequences, it is critically 
important that the AV START Act include provisions that advance this 
life-saving technology in as safe and expeditious manner as possible. 
However, this technology cannot reach its full safety potential without 
critical safeguards put in place by Congress. Currently the process the 
bill creates for AV deployment is flawed, and Advocates has put forth 
12 recommendations which we urge the Senate to consider moving forward. 
We believe the role of our Nation's experts in academia to provide the 
needed testing and proving grounds, as opposed to exposing other 
highway users on public roads, is essential to both make sure the AVs 
are safe as well as to build confidence in a currently skeptical 
public. In conclusion, the current ``hands off'' approach to hands free 
driving renders our Nation rudderless at a time in our Nation's 
transportation history when leadership is needed more than ever. 
Advocates urges an immediate course correction to ensure the safe 
development and deployment of AVs.

    Senator Nelson. And I would like to conclude my remarks and 
questions by asking Dr. Avent what is going to be the impact of 
this new kind of quickly developing technology upon our 
educational system?
    And I ask the question since my experience is informed by 
what happened to the whole educational system as a result of 
the space program. Going to the Moon in the Apollo program 
created a whole generation of engineers, mathematicians, 
scientists, and technologists. What do we see going forward 
here?
    Dr. Avent. That is a good point, sir. Once I heard that the 
amount of money that we spent on the entire space program, we 
saved in communications within 6 months. And this was when I 
was in college, which was a long, long time ago, and I am sure 
the statistics are much more compelling now.
    Certainly, this is a big market. As we talked about, it is 
going to be a disruptive market. It is going to be a change and 
far-reaching into a lot of industries, but also into a lot of 
end applications. As I pointed out in my testimony, not just 
public transportation but agriculture. And it will be 
pervasive.
    And the technology involved in this will be new technology 
that needs to be developed. Artificial intelligence has been 
around for many years, but it still needs to evolve a lot and 
to grow. So I think that we are going to see a new generation 
of engineers. I think we will see much more focus on electrical 
engineering, on computer science, on data analytics, machine 
learning, those types of technologies. And I think the market 
will pull from the universities and really create many more 
people going into those areas.
    The Chairman. Thank you, Senator Nelson.
    I have just one last sort of quick question. One is, 
because a lot has been talked about today, and as we have 
looked at this issue, the stakeholder community, obviously, 
highlights, emphasizes, the fact that this is going to save a 
lot of lives. My question, very directly, is, do you think the 
safety in terms of lifesaving result of automated vehicles as 
advertised by the industry will be realized? Are the lives 
saved as a result of this technology consistent with what the 
reality is?
    Mr. Schneider. I can say that I am more than optimistic 
that we will realize the benefits that we are even just laying 
out today. I do not think that there has ever been a moment in 
the history of the industry where we were on the verge of such 
a profound improvement both in safety, lost productivity, and 
just the benefits of living in our cities and the quality of 
our air and everything that goes with it.
    So from that perspective, I think that I am absolutely 
optimistic that this is going to happen.
    The Chairman. Thanks.
    Mr. Mansuetti. We share that feeling as well. This is 
revolutionary technology that will dramatically improve the 
quality of all of our lives. And with safety, absolutely, we 
will make tremendous progress with this technology.
    Mr. Kentley-Klay. Yes.
    The Chairman. Good.
    Mr. Kentley-Klay. Beyond that, these vehicles have 
pervasive, 360-degree perception with no blind spots, and they 
are always watching. Having been developing this technology now 
for 3 years full-time, I and my team are absolutely convinced 
that it will deliver on its safety promise and then some.
    Dr. Avent. Even when you account for the once-in-a-million 
events, which are the rare cases, when you divide 40,000 by 1 
million, it is pretty close to zero. So yes, I do agree, it is 
going to make an incredible impact.
    The Chairman. So one quick follow-up question. I agree with 
that. I think when you get out there into the future and the 
quality of those predictions in terms of lives saved I think 
will be realized. But I think for a lot of people, it is 
looking at this transitional period, and I will use as an 
example Senator Nelson's example this morning of the car that 
made a U-turn in front of him, and in a perfectly autonomous 
world, the autonomous vehicles would have detected that and 
reacted accordingly and prevented an accident.
    But what happens when you have a driver in one vehicle, an 
autonomous vehicle operating next to it? In the transitional 
period, when you have drivers on the road and autonomous 
vehicles on the road, what happens in those types of 
situations? I am just curious as to what your thoughts are 
about what the safety features might be if a human reacts the 
wrong way to an autonomous vehicle?
    Mr. Kentley-Klay. So, Senator, and anyone on the panel 
would be welcome to come visit Zoox in San Francisco and see 
for yourself exactly how it would respond in those situations. 
Driving in complex downtown environments, we actually face 
those scenarios every hour.
    Now is not the time to go into the technical reasons about 
how we solve that, but we have the methods in place to handle 
those situations.
    The Chairman. OK.
    All right, one more, Senator Blumenthal. Now you really 
have to vote for the bill.
    [Laughter.]
    Senator Blumenthal. I withdraw my question.
    [Laughter.]
    Senator Blumenthal. I expect I will vote for a bill.
    In the meantime, in the time that we are waiting, whether 
it is 3 years or 10 years, for the deployment of this 
technology on a widespread, perhaps universal scale, would 
everyone here agree that safety mechanisms like collision 
avoidance technology, automatic braking systems, should be 
fully deployed, and that Audi's example should be followed by 
the rest of the industry?
    I will spare you an answer, Mr. Schneider.
    Mr. Mansuetti. Absolutely.
    Dr. Avent. Absolutely.
    Mr. Kentley-Klay. As we are developing a 100 percent 
autonomous vehicle, we already have those systems in place in 
our architecture. Yes.
    The Chairman. Before we close out, I want to ask unanimous 
consent to place in the record testimony from NXP 
Semiconductors concerning connected vehicles and cybersecurity, 
as well as testimony submitted from Honda regarding innovation 
in the changing automotive industry. We will include those, 
without objection.
    [The information referred to follows:]

                               NXP Semiconductors USA, Inc.
                                       Austin, TX, January 24, 2016

Chairman Thune, Ranking Member Nelson, and members of the Committee,

    Thank you for the opportunity to share insights from the forefront 
of mobility. As the world's largest automotive semiconductor company 
employing 7,000 Americans, NXP plays an active role in the 
transformation of the most fundamental of all American relationships: 
the driver's connection to his or her car. Every era of innovation in 
our vehicles has placed key car attributes in the spotlight: 
horsepower, sleek design, and enhanced efficiency have all taken center 
stage at one time or another. We believe that when scholars write this 
decade's transport history they will view it as the era powered by 
automotive semiconductors, an era that witnessed the enablement of a 
vehicle's ability to sense, think, and act. We are honored to take you 
on a behind the scenes tour of the coming age.
    America's roads and vehicles constitute the lifeblood of the 
Nation's commerce, the basis of its storied freedom of movement, and a 
core part of its pioneering identity. Despite these positive transport 
attributes there are also negative consequences including road 
fatalities, air pollution, and heavy traffic. The latter alone takes 
its toll across the globe with 1.3 million lives lost every year to 
road accidents (more than 30,000 in the U.S. alone). According to 
research by the U.S. Department of Energy (DOE), electrified automated 
cars could reduce energy consumption by as much as 90 percent. With 
today's technology, we are well positioned to take on traffic flow, 
road safety, and the environmental challenges presented by a growing 
worldwide vehicle fleet. In all of these areas, the expanded deployment 
of semiconductors will play a significant role in bringing about 
massive improvements.
The role of automotive semiconductors
    An understanding of the role of technology in the future of smart 
mobility requires a grasp of some basic terminology:

  <bullet> Dedicated Short-Range Communications, or DSRC, is a two-way 
        short to medium-range wireless communications capability 
        adhering to the IEEE 802.11p standard that permits very high 
        data transmission critical in communications-based active 
        safety applications. The Federal Communications Commission 
        allocated 75 MHz of spectrum in the 5.9 GHz band for use by 
        intelligent transportation systems vehicle safety and mobility 
        applications.

  <bullet> V2V stands for vehicle-to-vehicle communications. The data 
        exchange occurs via radio signals designated as DSRC, and occur 
        nearly instantaneously between vehicles without the need for 
        operator intervention. Vehicles exchange information on speed, 
        trajectory, etc., signaling the driver via a human-machine 
        interface (HMI--a visual display, audio alert, haptic--such as 
        steering wheel vibration--feedback system, or some combination 
        of these) with regard to road conditions, environmental 
        hazards, traffic signal timing, and more.

  <bullet> V2I stands for vehicle-to-infrastructure communications. 
        Vehicles equipped with on-board units, radios capable of 
        communicating with intelligent roadside infrastructure and 
        relaying information to the driver via the HMI, are V2I-
        enabled.

  <bullet> V2X is a catch-all term covering vehicle-to-everything 
        communications. Ideally, all new production vehicles would be 
        equipped with DSRC equipment capable of communicating with 
        dense deployments of intelligent roadside infrastructure linked 
        in turn to municipal and regional traffic management centers. 
        Numerous pilot deployments are planned and/or underway to 
        further demonstrate the massive increases in safety and 
        efficiency to be realized by wide implementation.

    Advanced Driver Assistance Systems (ADAS) are the foundation of 
increasingly automated cars. NXP masters the full complexity of self-
driving technology, offering silicon-based solutions that span a range 
from SAE Levels 1-5. Our solutions help ensure that every journey will 
be safe, secure, and enjoyable.
    The concept of the car has morphed into a securely connected, self-
driving robot with the capacity to sense the environment, think, and 
act autonomously. In addition to having a powerful ``brain'', an 
automated vehicle must be capable of receiving sensory inputs, and 
turning associated ``thoughts'' into actions. To make precise, safety-
related decisions, an array of complementary sensor technologies needs 
to draw a high-precision digital map of the car's environment and 
accurately detect objects. As autonomous cars are expected to generate 
+1GB of data per minute, cars need to securely process multiple streams 
of information with flawless intelligence. Just like the human body, 
strong reflexes will be required in addition to the central brain to 
meet this challenge. At the same time, automated cars need smart 
actuators to generate power, put the car in motion, and regulate 
systems. NXP covers the complete self-driving portfolio with solutions 
that sense, think and act.

  <bullet> Sensing: Our radar, secure V2X, and vision technologies act 
        as a vehicle's state-of-the-art eyes and ears. An estimated 50 
        percent of all car radar modules shipped in 2017 rely on NXP 
        processing and front-end technology to make life safer for 
        drivers and passengers. NXP's vision processors deliver the 
        performance and features to power critical driving functions 
        such as pedestrian detection, lane keeping, traffic sign 
        recognition, collision avoidance, and blind spot monitoring.

  <bullet> Thinking: Holistic intelligence across all architecture 
        domains enables reliable decision-making. Sensor fusion at high 
        performance and low power is at its core. NXP's pioneering 
        sensor fusion solutions enable autonomous vehicles to 
        coordinate input from numerous sensors throughout the car to 
        make decisions. The NXP BlueBox<SUP>TM </SUP>platform fuses 
        these disparate data streams to create 360+ awareness around 
        the vehicle.

  <bullet> Acting: We offer a range of smart actuators--including motor 
        control, power/battery management, intelligent amplifiers, and 
        LED drivers.

    A semiconductor company's insights into the automotive space may 
seem like an unusual vantage point until you consider how vital 
electronics have become to automotive architectures. In fact, 90 
percent of innovation in the automotive sector now comes from 
electronics. Electronics are also at the center of the three most 
important automotive megatrends; autonomy, connectivity, and 
electrification.
    Today's cars are safer, more efficient, and smarter than ever 
before, and semiconductors are a big part of the reason why. The 
vehicles rolling from assembly lines are more like robots on wheels, 
and the very high degree of electronic sophistication is largely due to 
semiconductor technology. As this trend toward electronification 
continues, semiconductor companies will continue to play a significant 
role in vehicle design.
    How do you build a safe, self-driving car, securely connected to a 
new scheme of smart mobility services? By utilizing a domain-based 
architecture which intelligently groups together the functions that let 
cars sense, think, and act--and eventually to fully replacing the human 
driver. This helps manage complexity and separate concerns related to 
security, upgradability, and functional safety. The domain-based 
architecture is connected by an internal network and secure central 
gateway that acts as the ``glue'' to hold everything together, enabling 
reliable and efficient communication. NXP's portfolio covers every area 
of the connected car's domains which is why car makers look to us to 
for our insights into the future of mobility.
Vehicle to Everything (V2X): a closer look
    Car-to-car communication is attracting significant attention 
because it promises to drastically reduce road fatalities, improve 
mobility and enable a high-level of vehicle automation.
    Supporting safety critical applications is at the core of car-to-
car communication, and for years, the technology of choice for V2X has 
been the IEEE802.11p standard. Recently, a new standard addressing V2X 
applications has started evolving under the umbrella of 3GPP, whose 
focus is mobile broadband standardization. Because the safety of 
millions of road users will depend on the performance of these 
technologies, it is important to compare them.
    There are several relevant facts to consider when comparing 
IEEE802.11p to LTE-V2X:

  <bullet> IEEE802.11p is ready now, LTE-V2X is not. Today, 
        IEEE802.11p-based products are available on the market from 
        multiple silicon chip vendors. Some Tier1s (companies providing 
        components such as seats, electronic modules, windows, etc. 
        directly to the automotive OEMs) have complete solutions 
        available. In contrast, there is no LTE-V2X product available 
        in the market today, and it will most likely take several years 
        before a complete solution will be ready and tested. The 
        promised 5G version of V2X will have an even longer time 
        horizon;

  <bullet> IEEE802.11p is already installed in cars on the road. An 
        end-user can buy a vehicle (e.g., Cadillac) equipped with 
        IEEE802.11p technology today;

  <bullet> IEEE802.11p mass deployment could begin soon. Volkswagen, 
        one of the largest car manufacturers worldwide, publicly 
        announced that from 2019 onwards, they will equip their first 
        model series with IEEE802.11p technology.

    The cellular community is advocating that V2X implementations 
should wait for cellular technology to be ready and tested, and 
disregard the investments and field tests done to validate IEEE802.11p 
for safety critical applications. More concretely, the cellular 
community claims that LTE-V2X offers:

  <bullet> A strong cellular eco-system which leverages years of 
        experience in providing paid-services and a mature technology 
        available worldwide. This is a valid argument, but it refers to 
        entertainment services in a cellular-based technology. The 
        communication between a device and a base-station is 
        fundamentally different from the device-to-device communication 
        in a dynamic environment;

  <bullet> Twofold better performance. However, it is IEEE802.11p which 
        outperforms LTE-V2X in important V2V use cases;

  <bullet> Minor added cost. This is questionable as the support of 
        safety critical applications strongly indicates the need to 
        separate those from the entertainment SW and HW. Therefore, 
        LTE-V2X will likely be physically separated from the cellular 
        modem;

  <bullet> A roadmap of evolution and future proof technology due to 
        the continuous effort in improving the technology via the well-
        tested mechanism of the 3GPP meetings. While this might be 
        true, introducing an updated standard every 12 to 15 months 
        does not guarantee that older vehicles will be able to 
        communicate with newer ones. This is in contrast with the need 
        of creating a stable and universal international standard to 
        enable the success of V2X technology.

    The proposed LTE-V2X technology is a derivative of the cellular 
uplink technology that maintains similarity with the current LTE 
systems: frame structure, sub-carrier spacing, clock accuracy 
requirements and the concept of a resource block, to mention a few. 
These properties were not made to fit the vehicular use cases, but 
rather are inherited from existing cellular technology. Consequently, 
LTE-V2X struggles to meet the specific application requirements of car-
to-car communications.
    Technically, LTE-V2X suffers when there is no network to support 
the communications. It has stringent synchronization requirements, it 
cannot properly receive messages from nearby and closed-by 
transmitters, and it is limited in its maximum range. Furthermore, it 
proposes a resource allocation scheme that does not properly handle 
messages with variable size and a multiple user access mechanism that 
is not well suited for broadcasting messages or for handling collisions 
of messages. The heavyweight design of LTE-V2X translates into a higher 
overhead.
    Commercially, LTE-V2X cannot leverage the presence of the standard 
LTE modem in the car. Different safety requirements and technology 
needs strongly suggest that the safety critical domain of LTE-V2X will 
be separated from the entertainment domain of the standard LTE modem. 
The stringent synchronization requirements could significantly increase 
the costs in the LTE-V2X hardware.
    Strategically, LTE-V2X might not be the best technology for safety 
critical applications as its fast development cycle does not match the 
automotive development cycle. The 3GPP community has already started 
working on a new version of LTE-V2X while the current version has not 
been tested in the field yet. The next generation of IEEE802.11p is 
also being considered to capitalize on the experience of multiple 
large-scale field trials to test safety critical applications.
    Our conclusion is that IEEE802.11p technology is ideal for safety 
critical applications that must be supported in the absence of a 
network. If the cellular infrastructure is available, LTE-V2X is a 
valid alternative and offers a more mature eco-system for entertainment 
services. The win-win situation would be to focus on the strongest 
points of each technology and work together to provide the best car-to-
car communication solution, continue deploying IEEE802.11p for safety 
critical applications and ensure that the upcoming LTE-V2X technology 
can coexist.
Security: a fundamental necessity for the future of advanced mobility
    As we have said before, cars are morphing from smart machines to 
self-driving robots on wheels. A big part of this transformation 
depends on the car's ability to draw from real-time data about its 
surroundings using wireless technologies like V2X communications, GPS 
and radar. This external wireless input is needed to be able to 
instantaneously assess the current context of the vehicle and 
continually plan the autonomous trajectory. This external wireless 
input presents security challenges because it increases the ways that 
hackers can attack cars.
    Another critical factor is that soon the driver will be missing--we 
are removing the computing, rationalizing and double-checking functions 
of the human being--and replacing these with smart machine computing 
performance, mimicking what the driver does naturally.
    Right now, there is a shift in the way we think about security. 
Systems engineers are focusing on the basics--applying fundamental 
security to the critical areas including the interfaces that connect 
the vehicle to the external world, gateways, which separate safety 
critical systems from other car and infotainment systems and networks 
that provide secure communication between control units (there can be 
over 150 of these control units in a vehicle). But in addition to these 
measures, we can see advancement in three ways--(1) security 
management, especially the delegation of aspects of security to e.g., a 
rental car company or a delivery company; (2) Over-The-Air software 
updates to be able to update any software in the vehicle at any time 
(there will be 200-300 million lines of code in a car soon), 
seamlessly, to patch vulnerabilities real time, and (3) further 
protection and monitoring against the increasingly intelligent and 
devious hacker--against wireless and physical attacks. A core aspect of 
this is the Secure Element (SE), a tamper-resistant platform (typically 
a one-chip secure microcontroller) capable of securely hosting 
applications and their confidential and cryptographic data (e.g., key 
management) in accordance with the rules and security requirements set 
forth by a set of well-identified trusted authorities.
    The attached White Paper, ``A Multi-Layer Vehicle Security 
Framework'', provides additional insights into securing connected 
vehicles and creating a safer, more efficient mobility future.
Conclusion
    We hope that the Committee takes three key points from the 
foregoing message:

  <bullet> In addition to electrified automated cars helping to 
        prospectively reduce energy consumption by as much as 90 
        percent, today's technology--if more widely deployed--could 
        bring about a radical reduction in traffic fatalities and minor 
        accidents alike. In all of these areas, the expanded deployment 
        of semiconductors will play a significant role in bringing 
        about massive improvements.

  <bullet> In terms of cars communicating with each other, IEEE802.11p 
        technology is ideal for safety critical applications that must 
        be supported in the absence of a network. When and where the 
        cellular infrastructure is available, LTE-V2X is a valid 
        alternative and offers a more mature eco-system for 
        entertainment services. The win-win situation would be to focus 
        on the strongest points of each technology and work together to 
        provide the best car-to-car communication solution, continue 
        deploying IEEE802.11p for safety critical applications and 
        ensure that the upcoming LTE-V2X technology can coexist.

  <bullet> No innovative solutions will succeed without designing in 
        security. NXP advocates for a multi-layered, ``4+1'' layer 
        security framework as only a holistic approach to securing the 
        complete vehicle architecture of a connected car can succeed. A 
        secure element must serve as a tamper-proof trust anchor, 
        engaging with physically and electrically isolated networks 
        using a central gateway with a firewall. The remaining layers 
        ideally consist of secure networks with the bus monitoring and 
        cryptographic capabilities of a secure transceiver or 
        microcontroller for message authentication, secure processing 
        on the microcontrollers, with trusted software running in a 
        protected environment, and of course, the ``+1'' layer--the 
        secure car access solution.
    We at NXP are proud that our innovations--many of which have their 
origins in the United States--are driving a more secure, smarter 
mobility future. We hope that the foregoing information is of value to 
the committee, and look forward to receiving and responding to any 
comments or questions that members of the committee may have.
            Respectfully,
                                                Lars Reger,
                                          Senior Vice President and
                              Chief Technology Officer--Automotive,
                                                    NXP Semiconductors.
About NXP
    NXP Semiconductors N.V. enables secure connections and 
infrastructure for a smarter world, advancing solutions that make lives 
easier, better and safer. As the world leader in secure connectivity 
solutions for embedded applications, NXP is driving innovation in the 
secure connected vehicle, end-to-end security & privacy, and smart 
connected solutions markets. Built on more than 60 years of combined 
experience and expertise, the company has 45,000 employees in more than 
35 countries. Built on a 50-year legacy with Motorola and Philips, NXP 
has design, research and development, manufacturing and sales 
operations in the United States, where we employ nearly 7,000 people. 
NXP owns and operates three wafer fabrication facilities in the US, two 
of which are in Austin with a third facility in Chandler, Arizona. The 
representative products of these fabs include microcontrollers (MCUs) 
and microprocessors (MPUs), power management devices, RF transceivers 
and amplifiers, and sensors. Find out more at www.nxp.com.
                                 ______
                                 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 ______
                                 
                                  Honda North America, Inc.
                                   Washington, DC, January 24, 2018

Hon. John Thune, Chairman,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Bill Nelson, Ranking Member,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson,

    Thank you for this opportunity to share Honda North America, Inc.'s 
(Honda) views on the ``Driving Automotive Innovation and Federal 
Policies'' hearing. Honda has been investing and manufacturing in the 
U.S. for more than 40 years. This includes 12 manufacturing plants 
which have enjoyed $3.4 billion in investments in the past four years 
alone and produce passenger vehicles, power equipment, and power sports 
products. Honda has also purchased $27 billion in parts and materials 
from 610 U.S. suppliers. Our 14 R&D facilities have researched, 
designed, and developed 29 Honda and Acura car and light truck models 
since 1991. The U.S. also hosts the global headquarters for HondaJet. 
Honda directly employs 30,000 Americans and in more than 50 years in 
the U.S. has never laid off a permanent associate.
    As our automotive products evolve, so too must our business models. 
One example of that evolution is the creation of one of Honda's North 
American research and development business units, Honda R&D 
Innovations, Inc. based in Silicon Valley. This open innovation-focused 
business unit has established two programs that serve as catalysts to 
discover and experiment with new technologies and business concepts for 
Honda products: Honda Xcelerator and Honda Developer Studio.
    Honda Xcelerator is Honda's open innovation program designed to 
facilitate collaboration between technology startups across all funding 
stages who share Honda's vision to transform the mobility experience. 
The program easily engages innovators in an open and friendly 
environment, offering funding for rapid prototyping, a collaborative 
workspace, and pairing with Honda mentors. Innovators also have access 
to Honda vehicles and vehicle data to develop, test, and refine their 
prototype. Honda Xcelerator currently works with technology incubators 
around the world, including partnerships with MassChallenge (Boston, 
Mass.), Creative Destruction Lab (Toronto, Canada), Drive (Tel Aviv, 
Israel) and equity crowd funding platform OurCrowd (Jerusalem, Israel). 
This list is expected to continue to grow.
    In 2017, Honda Xcelerator showcased its startup collaborations with 
partners LEIA 3D and VocalZoom. In partnership with LEIA 3D, Honda 
developed a driver's display meter using nano technology that can 
provide three-dimensional images, switching seamlessly between 
different viewing angles for warnings and driver-assistive systems. 
Honda also partnered with VocalZoom to apply VocalZoom's optical 
microphone technology to improve voice interaction inside the vehicle.
    Honda Developer Studio connects innovators with Honda engineers to 
quickly get their applications ready for the road. Like Honda 
Xcelerator, Honda Developer Studio also provides access to vehicles so 
that innovators can experience real-time results and vehicle feedback 
as the applications are being built. For example, Honda is 
collaborating with Visa on an in-vehicle payment technology that 
enables users to make payments, such as at a gas station or parking 
facility, from inside their cars. We envision a world where consumers 
can effortlessly make everyday purchases from the car . This connected 
car project is an early step in Honda's work regarding electronic 
commerce in the age of the Internet of Things. We've developed a proof-
of-concept experience and will have more information on future 
commercial plans as we receive the test results.
    Additionally, Honda and DreamWorks Animation have partnered on a 
platform that leverages a ConnectedTravel software development kit, 
vehicle data, and virtual reality (VR) technology. The platform can be 
used to rapidly create in-vehicle entertainment experience for 
passengers through a location context-aware application. The technology 
uses VR goggles to display information such as restaurant guides or to 
advance a game in sync with the movement of the car.
    Honda Innovations is proactively searching for the next great 
technology to benefit our products and, ultimately, our customers. Our 
open innovation platform provides the best method to modify these 
technologies for Honda products and be able to bring them to the market 
relatively quickly. Honda stands ready to work with anyone who has an 
idea to make our products work better for our customers.

    The Chairman. I would say to the members of our panel, if 
you could, and if members of our panel here could get questions 
in, we would like to get those responded to, turned around to 
complete the record in 2 weeks, so if there are written 
questions that come in response to this hearing, do your best 
to get those back to us, the answers back to us, as quickly as 
possible. It would be greatly appreciated.
    And I want to thank the crowd for being here today. It is 
good participation from our audience.
    How about we give all these folks a hand this morning?
    [Applause.]
    The Chairman. Thanks again to our panel. Thanks to all of 
you for being here. And this hearing is adjourned.
    [Whereupon, at 12:03 p.m., the hearing was adjourned.]

                            A P P E N D I X

                        Transportation Research Center Inc.
                                 East Liberty, OH, February 7, 2018

Hon. John Thune,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    Thank you for the opportunity to share the Transportation Research 
Center Inc.'s (TRC) perspective following the Senate Commerce, Science, 
and Transportation Committee's field hearing on Driving Automotive 
Innovation and Federal Policies held Wednesday, January 24, 2018.
    TRC along with The Ohio State University (OSU) were among the first 
to begin testing automated vehicles in the 1970s. TRC's connected and 
automated vehicle (CV/AV) research, testing, and deployment has 
continued, in conjunction with the National Highway Traffic Safety 
Administration's (NHTSA) vehicle research and test center located at 
TRC, in developing objective test procedures for various applications 
of connected vehicle technology and functional testing for automated 
vehicles by procuring and verifying next generation testing 
capabilities for automated vehicles.
    We are the Nation's leading independent automotive proving ground, 
and the only industry, non-for-profit, government, and university-
affiliated research facility in the U.S. TRC employs over 450 people 
and has served more than 1000 customers, including virtually every OEM 
and numerous tier 1 suppliers. TRC's campus encompasses 4,500 acres, a 
7.5-mile high-speed track, and operates 24/7, 359 days a year. We hope 
both of you will visit us soon. Last year we were honored to host 
Secretary Elaine Chao, Senator Rob Portman, and several Members of 
Congress, including the Chairman of the House Transportation and 
Infrastructure Subcommittee on Highways and Transit, Sam Graves.
    During the hearing, the U.S. DOT's 10 federally-designated 
autonomous vehicle proving grounds were referenced. We would like to 
share with the Committee that we are actively involved in developing a 
``Community of Practice'' for conducting AV testing with California, 
Florida, Michigan, North Carolina, Pennsylvania, Texas, and Wisconsin, 
to name a few.
    TRC currently supports emerging active safety and advanced driving 
assistance systems technology development to enable CV and AV testing 
of automation systems. Our customers trust in TRC for a comprehensive, 
holistic approach to not only testing automated systems, but the 
vehicles themselves. Critical testing and validation such as dynamic 
and durability testing, performance, and mileage accumulation still 
need to be performed, even on automated vehicles.
    TRC's commitment to automated vehicle technology and safety 
continues over the next five years with significant public-private 
partnership (P3) funding for Phase One of our 540-acre Smart Mobility 
Advanced Research and Test (SMART) Center. This $45 million 
expenditure, which does not include Federal funding, will contain a 
flexible platform, mega intersection, urban network, and control center 
specifically dedicated to testing autonomous technologies and vehicles. 
Our facility will offer customers a confidential, controlled, 
repeatable environment to test their AV technologies.
    TRC's SMART Center will be the world's largest, contained within an 
independent proving ground. Once controlled testing is complete OEMs, 
innovators, and start-ups will be able take their products onto the 
open road for real world testing along the U.S. Rt. 33 Smart Mobility 
Corridor connected to TRC's facility. Funding for this corridor was 
made possible because of a U.S. DOT Advanced Transportation and 
Congestion Management Technologies Deployment Initiative (ATCMTD) 
grant. The State of Ohio, local communities, OSU, and TRC joined forces 
to match Federal dollars to implement smart infrastructure technology 
to solve congestion issues. This corridor also leads to the connected 
vehicle pilot in Marysville, Ohio and to Smart Columbus, where we have 
the only federally-designated smart city in the country.
    With capital investment in upwards of $100 million, decades of 
experience within the automotive industry, and hundreds of customers, 
TRC is pleased to provide leadership, partnership, and expertise to 
industry and government as it embarks on the next generation of 
transportation innovation.
    Chairman Thune and Ranking Member Nelson, thank you for your 
leadership and commitment to the safe deployment of automated vehicles 
onto the public roads. We appreciate the opportunity to express our 
views around this important policy conversation.
            Sincerely,
                                            Brett Roubinek,
                             President and Chief Executive Officer,
                                    Transportation Research Center Inc.

Cc: Senator Sherrod Brown
Senator Rob Portman
                                 ______
                                 
 Prepared Statement of Ned Finkle, Vice President, External Relations, 
                                 NVIDIA
    Chairman Thune, Ranking Member Nelson, Senators:

    NVIDIA had the great honor to testify last summer in front of your 
committee and discuss how we are helping to pave the way for self-
driving vehicles. I believe all parties at the hearing shared the 
excitement of the improved safety and increased access that autonomous 
vehicles will soon bring to our roads. After watching last month's 
hearing with speakers from Audi Mobility U.S., Robert Bosch, and Zoox, 
we're thrilled to see that these companies are continuing to build 
momentum toward an autonomous vehicle future that closely aligns with 
NVIDIA's goals.
    During last summer's hearing, NVIDIA detailed our technology and 
our ecosystem, highlighting that the NVIDIA DRIVE artificial 
intelligence computing platform was in use by more than 225 automotive 
companies worldwide. Now, seven months later, we have grown that 
network to over 320 OEMs, tier 1 suppliers, startups, and research 
institutions, including companies such as Audi, Volvo, Mercedes-Benz, 
Bosch, and PACCAR trucks. Also included are over 150 startup companies 
that are using the NVIDIA DRIVE platform to innovate in autonomous 
technology in such areas as HD mapping, simulation, sensor technology, 
or even reinventing the entire mobility ecosystem, like Zoox is 
proposing.
    At the beginning of 2018, NVIDIA further strengthened its ecosystem 
of partners and its technology offerings with a series of announcements 
at the Consumer Electronics Show. Our DRIVE Xavier, the world's first 
autonomous machine processor, is being delivered to customers this 
quarter. Capable of calculating 30 trillion operations per second, 
while only consuming 30 watts, it is targeted to bring Level 3 and 4 
autonomy to production vehicles in the next couple of years. We also 
announced at CES our DRIVE Pegasus AI computing platform, which 
delivers 320 trillion operations per second--the compute horsepower 
needed for Level 5 robotaxis. DRIVE Pegasus takes the performance of a 
trunk full of PCs, and sizes it down in an auto-grade form factor the 
size of a license plate. Our customers will have Pegasus in hand for 
R&D by mid-2018, which aligns with the 2020 time-frame stated today on 
when speakers believe Level 5 vehicles will be available.
    We also revealed new partners: Uber is using NVIDIA technology to 
power its fleet of self-driving cars and trucks; Volkswagen will infuse 
AI into its future vehicle lineup; and Aurora, founded by three self-
driving technology pioneers, is utilizing NVIDIA technology to create a 
new Level 4 and 5 self-driving hardware platform.
    Last month's testimony spoke to the need for simulation, in 
addition to physical proving grounds. Through the power of our GPUs, 
NVIDIA can simulate potentially hazardous situations that are too 
dangerous to perform in the real world, and use these techniques to 
train AI software before putting a vehicle in the real world. Through 
AI technology, we can simulate driving 300,000 miles in five hours, and 
cover every paved road in the United States in just two days.
    But in-vehicle technology is useless for transportation services 
unless it is of the strictest automotive grade. NVIDIA DRIVE is the 
first functionally safe AI self-driving platform that can operate even 
when faults are detected. Certified to the international safety 
standards of ISO 26262, safety certified ASIL-D makes DRIVE a holistic 
safety platform.
    The speakers expressed the need for consortiums to come together so 
companies can provide the data the Senate and House need to better 
rollout legislation. We couldn't agree more. NVIDIA would like to let 
the U.S. Senate Committee on Commerce, Science, and Transportation know 
that we are at your service and are always available to provide insight 
on why AI is the key to unlocking the challenge and promise of self-
driving cars, including, most importantly, creating a safer, more 
productive, and less congested world.
    Thank you.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maggie Hassan to 
                         Randy K. Avent, Ph.D.
    Question 1. As a former Governor, I recognize that there are ways 
that state and local governments can work to accommodate and help 
launch this technology, as well as ensure that it is safe and 
appropriately regulated. That is particularly important when we 
recognize that there are bad actors out there that would like to try 
and infiltrate the technology systems that run these cars. What should 
states and localities be thinking about in terms of a regulatory 
infrastructure that will allow this technology to flourish in a safe 
manner?
    Answer. There are two unique factors I believe will drive the 
regulation of this technology at the Federal level, more than at the 
state level. First, it is a very complex capability that involves 
integration of multiple advanced technologies in sensing, signal 
processing, machine learning, Artificial Intelligence (perception, 
reasoning, . . .) and mobile communications. This complexity will 
require significant resources in test centers and test configurations--
and deep technical expertise in specialized areas. Second, with the 
estimated market value well in the billions, there will be a rush to 
market before the technology is fully mature. In fact, we have already 
seen that and some of the results have been fatal.
    To make this technology safe for all conditions (everyday 
conditions as well as rare events), I believe we will rely heavily on 
the national test centers. These centers are best equipped to study and 
characterize the extended operating conditions (e.g., someone walking 
out behind a car at night, a white tractor trailer pulling in front of 
the car when the sun is positioned such that it blinds the sensors,. . 
.). These centers should have strong ties to universities (most of them 
do) because universities are uniquely postured to provide unbiased 
technical expertise. It is for this reason, I suggested imitating the 
defense (and energy) FFRDC or UARC programs. Lastly, regulations should 
be developed in a data-driven framework so as not to overburden and 
slow down adoption of the technology.
    States can have an active role in this technology by working with 
the test centers to make sure their unique geographic conditions are 
represented in the test scenarios. They should also supply data from 
state run investigations into accidents so that vehicles can mature 
much like the airline industry has over the years. States can also help 
speed adoption through infrastructure projects like dedicated limited 
access lanes, similar to bike lanes, for the last mile. Well-marked 
road networks will help provide guidance for the algorithms, and new 
civil infrastructure projects should consider that vehicles will soon 
begin communicating with signage, stoplights and each other.

    Question 2. My state is very sparsely populated especially in the 
North. There is always a question in rural America, of how we will get 
this technology off the ground and make sure rural communities aren't 
left behind. How are we going to leverage what we need to leverage, and 
get this technology out to the least densely populated places in our 
country, so that everybody has the freedom and economic advantage that 
this technology poses?
    Answer. Rural areas are likely to poise certain challenges for the 
vehicles that need to be addressed as the technology is developed and 
tested. First, these vehicles are safer when they are slower because 
they have more time to react. At first glance, one may think this 
improves safety in rural areas, but many rural areas have winding roads 
with limited visibility; and in the case of northern New Hampshire, 
mountainous terrain that can affect communications between vehicles 
through obscuration. Roads in rural areas may also be more challenging 
for these vehicles because they may be narrower and may have less 
defined markings, making it more difficult for the algorithms to detect 
road boundaries. These problems are likely not insurmountable but need 
to be addressed through research, development and testing to make this 
technology safe for all.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maggie Hassan to 
                            Tim Kentley-Klay
    Question 1. As a former Governor, I recognize that there are ways 
that state and local governments can work to accommodate and help 
launch this technology, as well as ensure that it is safe and 
appropriately regulated. That is particularly important when we 
recognize that there are bad actors out there that would like to try 
and infiltrate the technology systems that run these cars. What should 
states and localities be thinking about in terms of a regulatory 
infrastructure that will allow this technology to flourish in a safe 
manner?
    Answer. Thank you for the question. As this technology comes to 
market, states and localities should consider ways to encourage 
interaction between developers of this technology and state and local 
law enforcement and first responder communities. The model that exists 
in California is useful for others. In California, the DMV has 
promulgated rules for autonomous vehicle (AV) developers to generate a 
law enforcement interaction plan, to share that plan with the 
California Highway Patrol, and also to notify local authorities.

    Question 2. My state is very sparsely populated especially in the 
North. There is always a question in rural America, of how we will get 
this technology off the ground and make sure rural communities aren't 
left behind. How are we going to leverage what we need to leverage, and 
get this technology out to the least densely populated places in our 
country, so that everybody has the freedom and economic advantage that 
this technology poses?
    Answer. This is a very good question. It is important that everyone 
enjoy the safety, mobility, and sustainability opportunities that AV 
technology can bring to the market. The deployment of fully autonomous 
vehicles across the U.S. will not happen overnight, and the initial 
vehicle costs are likely to high to sell to individual consumers. Over 
time, however, the availability of the technology is expected to expand 
across the country. Additionally, Level 2 and Level 3 (ADAS) autonomous 
systems will likely be available for individually owned vehicles that 
are sold in rural areas. Even just in the past few years, 
semiautonomous ADAS technologies have made driving safer. It is 
important to know that there are different business models to bring 
automated and semi-automated technologies to market. Zoox's particular 
model focuses on deployment in dense areas. But the technology that 
companies like Zoox are developing through cutting-edge R&D will make 
automotive travel safer, period, throughout different geographical 
regions, both urban and rural.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maggie Hassan to 
                           Michael Mansuetti
    Question 1. As a former Governor, I recognize that there are ways 
that state and local governments can work to accommodate and help 
launch this technology, as well as ensure that it is safe and 
appropriately regulated. That is particularly important when we 
recognize that there are bad actors out there that would like to try 
and infiltrate the technology systems that run these cars. What should 
states and localities be thinking about in terms of a regulatory 
infrastructure that will allow this technology to flourish in a safe 
manner?
    Answer. Bosch agrees that cybersecurity is an issue of great 
importance. Automakers and suppliers are actively working together to 
advance the cybersecurity state of the art and to define best practices 
to secure vehicle systems. Coalitions such as the Auto-ISAC promote 
entities to work together at an industry level, which helps to 
coordinate and develop standard procedures and protocols. Through the 
Auto-ISAC, members can report incidents, exploits, threats and 
vulnerabilities from testing, consumer reports or security research, 
which encourages industry-wide sharing and maturity.
    Bosch strongly supports a layered approach to vehicle 
cybersecurity, in alignment with the approach encouraged by NHTSA in 
its 2016 Cybersecurity Best Practices. Further, Bosch is committed to 
providing products that meet or exceed industry guidelines to minimize 
cybersecurity threats. With the Bosch group of companies we have a 
leading team of security specialists in the automotive sector, ESCRYPT, 
which has enabled us to design a layered approach to enable intrusion 
detection and mitigate against cyber-attacks during the entire 
lifecycle of a vehicle. The core layer protects the integrity of each 
individual ECU (electronic control unit) with secure updates and 
defined privileges. The second layer focuses on the in-vehicle network 
by protecting the integrity of critical signals. For example, Bosch 
uses AUTOSAR-standardization to support authentic communication between 
different vehicle systems. The third layer focuses on securing the E/E 
(electric/electronic) architecture by protecting and separating 
domains. Lastly, the fourth layer includes vehicle firewalls and 
security standards for communication and external interfaces. When 
protecting against external attacks, this is the first line of defense, 
which protects the safety and integrity of the vehicle and privacy of 
the driver.
    Bosch supports a framework that allows the industry to continue to 
adapt to rapidly changing technology and ever-evolving threats. The 
automotive industry has been proactive in continuing to develop a 
robust cybersecurity system to protect users. Bosch supports the 
efforts of NHTSA, which has encouraged entities to develop layered 
cybersecurity protections for vehicles to minimize risks to safety. 
Bosch has maintained an open dialogue with NHTSA concerning this topic 
and our technology. We also supported the two NHTSA cybersecurity 
workshops, which were convened in 2016 and 2018 to help encourage and 
enable an information exchange between various government agencies and 
the industry. We believe that additional interaction between the 
industry and other interested stakeholders could help to create a 
greater understanding and awareness of this complex subject.

    Question 2. My state is very sparsely populated especially in the 
North. There is always a question in rural America, of how we will get 
this technology off the ground and make sure rural communities aren't 
left behind. How are we going to leverage what we need to leverage, and 
get this technology out to the least densely populated places in our 
country, so that everybody has the freedom and economic advantage that 
this technology poses?
    Answer. Automated driving functions have the ability to save lives 
in all types of communities. NHTSA's March 2018 Traffic Safety Facts 
report stated that 90 percent of all car accidents are caused by human 
error. Vehicle automation will continue to increase levels of safety 
for all road users.
    Bosch believes that vehicle automation will likely first benefit 
drivers in rural communities by increasing safety through Level 1 and 
Level 2 automated systems (as defined by SAE J3016). Essentially, these 
categories include Advanced Driver Assistance Systems (ADAS) which 
support the driver but do not take control of the vehicle. According to 
NHTSA, 33.4 percent of all police-reported crashes in the U.S. in 2015 
involved a rear-end collision with another vehicle as the first harmful 
event in the crash. ADAS technologies, such as forward collision 
warning and automatic emergency braking, can aid drivers in avoiding 
these collisions in both urban and rural environments. Similarly, 
partially automated driving functions, such as highway assist, can 
support drivers on highways and well-developed state and Federal roads 
by taking over the vehicle's longitudinal and lateral guidance. As one 
example, this can help drivers to maintain safety when driving in 
certain stressful and/or monotonous situations. Bosch has a long-term 
commitment to helping to make these technologies more affordable so 
that, in turn, they can penetrate into a greater portion of the overall 
vehicle fleet and to more lower-cost models. This commitment led Bosch 
to introduce a medium range radar in 2013, which offers carmakers an 
additional option when deploying driver assistance technologies. Bosch 
continues to believe that an update of the U.S. New Car Assessment 
Program (also known as the Vehicle 5-Star Rating) to include driver 
assistance systems would enable a more widespread understanding and 
adoption of these technologies in the U.S.
    Furthermore, Bosch is working to develop highly automated vehicle 
technologies for urban environments and foresee that, as automated 
vehicle technology matures, it may become available to a wider group of 
communities. Greater penetration rates of highly automated vehicle 
functions could allow this technology to reach even the least densely 
populated areas in our country.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maggie Hassan to 
                             Luke Schneider
    Question 1. As a former Governor, I recognize that there are ways 
that state and local governments can work to accommodate and help 
launch this technology, as well as ensure that it is safe and 
appropriately regulated. That is particularly important when we 
recognize that there are bad actors out there that would like to try 
and infiltrate the technology systems that run these cars. What should 
states and localities be thinking about in terms of a regulatory 
infrastructure that will allow this technology to flourish in a safe 
manner?
    Answer. NHTSA has the regulatory authority over the design, 
construction and performance of motor vehicle safety and to mitigate 
risks of harm, including risks that may arise in connection with ADSs. 
The U.S. Department of Transportation restated NHTSA's enforcement 
authority with respect to ADSs in A Vision for Safety 2.0 and clarified 
and delineated Federal and State regulatory authority. I would note 
that NHTSA has shown it will move aggressively to investigate any AV 
incidents. One of NHTSA's main recommendations to States that want to 
encourage ADS adoption was to review their existing laws and 
regulations for language that might create unintended barriers to ADS 
operation.
    That said, some of the most useful things States and localities can 
be doing to facilitate optimal conditions for automated vehicles would 
be to ensure that infrastructure is in good repair, such as roads and 
lane markings. Cities and localities should also be planning today for 
mobility needs soon to come, such as pick up and drop off zones, truly 
connected street signals and charging station infrastructure.

    Question 2. My state is very sparsely populated especially in the 
North. There is always a question in rural America, of how we will get 
this technology off the ground and make sure rural communities aren't 
left behind. How are we going to leverage what we need to leverage, and 
get this technology out to the least densely populated places in our 
country, so that everybody has the freedom and economic advantage that 
this technology poses?
    Answer. Fortunately, much of the life-saving ADAS technologies 
known as SAE Levels 1 and 2 automation are available in today's 
vehicles such as lane departure warning and automatic emergency 
braking. These systems help keep passengers safer on rural roads where 
the percentage of crashes are higher based on vehicles miles traveled.
    Future mobility transportation services in rural areas could 
include automated shuttles in partnership with hospitals or health care 
centers or on demand shared mobility services for elderly individuals 
who are no longer driving, allowing them to retain their mobility and 
age in place.
    It is interesting to note that providing mobility access to older 
persons in rural districts is a primary motivation for exploring this 
technology in Japan and for its automakers and technology companies. In 
the U.S. the focus has been more on serving urban and suburban 
districts, however different use cases will be pursued across the board 
and there are many compelling aspects of rural use.

                                  [all]

                  This page intentionally left blank.
                  This page intentionally left blank.
                  This page intentionally left blank.
     
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
